<html>
<title> - YEMEN: CONFRONTING AL-QAEDA, PREVENTING STATE FAILURE</title>
<body><pre>[Senate Hearing 111-719]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-719
 
          YEMEN: CONFRONTING AL-QAEDA, PREVENTING STATE FAILURE

=======================================================================


                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 20, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html





                  U.S. GOVERNMENT PRINTING OFFICE
62-357                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Benjamin, Hon. Daniel, Coordinator for Counterterriorism, 
  Department of State, Washington, DC............................     8
    Joint prepared statement with Ambassador Jeffrey D. Feltman..    10
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    77
        Robert P. Casey, Jr......................................    85
Bodine, Hon. Barbara, diplomat in residence, lecturer of public 
  and international affairs, Princeton University, Princeton, NJ.    35
    Prepared statement...........................................    37
    Response to question submitted for the record by Senator 
      Robert P. Casey, Jr........................................    86
Feingold, Hon. Russell D., U.S. Senator from Wisconsin...........    19
    Prepared statement...........................................    20
Feltman, Hon. Jeffrey, Assistant Secretary of State for Near 
  Eastern Affairs, Department of State, Washington, DC...........     6
    Joint prepared statement with Ambassador Daniel Benjamin.....    10
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    80
        Robert P. Casey, Jr......................................    86
Gillibrand, Hon. Kirsten E., U.S. Senator from New York..........    30
    Prepared statement...........................................    31
Johnsen, Gregory, Princeton University, Princeton, NJ............    51
    Prepared statement...........................................    53
Kagan, Frederick W., resident scholar and director, American 
  Enterprise Institute's Critical Threats Project, Washington, DC    42
    Prepared statement...........................................    44
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
Nakhleh, Emile, former senior Intelligence Service Officer, 
  former director of the Political Islam Strategic Analysis 
  Program, Central Intelligence Agency, Albuquerque, NM..........    45
    Prepared statement...........................................    46
    Response to question submitted for the record by Senator 
      Robert P. Casey, Jr........................................    88

              Additional Material Submitted for the Record

Dodd, Hon. Christopher J., U.S. Senator from Connecticut, 
  prepared statement.............................................    76
Responses of Assistant Secretary Jeffrey Feltman and Coordinator 
  for Counterterrorism Daniel Benjamin to questions submitted for 
  the record by Sentaor Russell D. Feingold......................    83

                                 (iii)


         YEMEN: CONFRONTING AL-QAEDA, PREVENTING STATE FAILURE

                              ----------                              


                      WEDNESDAY, JANUARY 20, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Casey, Kaufman, 
Gillibrand, Lugar, Corker, and Isakson.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Good morning, everybody. Thank you for being here to join 
us at this hearing.
    We're here to discuss, as everybody knows, the question of 
al-Qaeda and Yemen, and the choices ahead for United States 
policy toward a nation whose challenges are just absolutely 
daunting and numerous.
    I was reading a number of articles on the way in today, on 
the flight from Massachusetts. And boy, between the addictive 
qat plants, that use up enormous amounts of water, to the 
sectarian and other divisions, to the absence of water in the 
country, as well as the problem of extremism, it is a country 
that is seriously challenged. And we're going to look at those 
challenges here today.
    Before we do, let me just say, a moment, that I want to 
emphasize that the thoughts of this committee, and a lot of our 
work in the last week, are very, very much with the people of 
Haiti, whose country has just been shattered--if ``shattered'' 
is even an adequate way to describe what has happened in that 
country. Our doctors, troops, aid workers, and volunteers are 
racing to reach those in desperate need, and Americans are 
making record donations. Next week, the committee will hold a 
hearing to review our response, but today we send our 
condolences and, urgently, our help to the Haitian people.
    I've been on the phone almost every single day, with either 
Administrator Rajiv Shah or with other personnel in the State 
Department, working on this issue of relief. We've been working 
very hard to get extra flights in, to get slots, to get 
Partners in Health--doctors and other workers--there, as well 
as--I have been in touch regularly with Len Gengel, of 
Massachusetts, whose daughter remains lost and trapped, 
conceivably within the Montana Hotel. So, there is a lot that 
is happening on a lot of different fronts. There are literally 
thousands of stories of missing people, and a massive, massive 
effort to try to address it, that is taking place.
    This administration, and many on this committee, have long 
been concerned by the threat posed by al-Qaeda's beachhead in 
Yemen. In fact, by Christmas the administration had already 
begun partnering with Yemen's Government to go on the offensive 
against al-Qaeda in the Arabian Peninsula.
    Al-Qaeda's presence in Yemen may not be new, but it is 
evolving. Last January, Saudi and Yemeni al-Qaeda branches 
merged to form al-Qaeda in the Arabian Peninsula, or AQAP. In 
May, an AQAP bomber traveled from Yemen to launch a failed 
assassination attempt against a Saudi prince. Then the foiled 
Christmas Day attack revealed AQAP's ambition to launch 
terrorist operations not just regionally, but globally, and 
against America.
    Last night, the Foreign Relations Committee released a 
majority staff report on terrorism in Yemen and Somalia that 
reveals troubling new dimensions of the threat. According to 
United States law enforcement officials, over the past year as 
many as three dozen American ex-convicts have traveled to Yemen 
upon release from prison. They reportedly went to study Arabic, 
but several have since disappeared, raising concerns that they 
may have gone to al-Qaeda camps for training. United States and 
Yemeni officials are also concerned about the whereabouts and 
intentions of a smaller group of Americans who have moved to 
Yemen and who have adopted a radical form of Islam and married 
local Yemeni women.
    As our enemies' tactics evolve, clearly we need to keep up. 
In fact, we need to be a step ahead of them, if possible. And 
that includes taking a close look at the unique threat posed by 
American recruits into al-Qaeda.
    We need to recognize that al-Qaeda is also just one of 
several profound interlocking threats that Yemen faces. 
Consider--and I think it's a question that's appropriate for us 
to ask--how Yemen might look in the year 2030: Its population 
has doubled, but its oil wells have disappeared and water has 
run dry. The central government, sapped by civil wars in the 
north and south, no longer exerts power, outside a few 
population centers. Millions of refugees, many illiterate and 
unskilled, are pouring out into the Arabian Peninsula and 
beyond. And al-Qaeda is now deeply woven into Yemeni tribal 
society, having married into tribes and set up a network of 
schools and humanitarian aid in places forgotten by the central 
government.
    This scenario can be averted. But, let me tell you, it is 
clear to me that we need to craft a strategy that actually 
addresses our immediate, uncompromising need to go after al-
Qaeda, while also ensuring that Yemen is not more dangerous in 
2030 than it is today. Frankly, that's going to require an 
effort that, I must say, the more I examine the issues of 
Afghanistan and Pakistan, and now Yemen and other places, the 
more I have to question whether or not America, and Americans, 
have made the judgments necessary, to make the commitments 
necessary in resources and effort and patience, in order to 
address these kinds of challenges. And this committee has a 
principal responsibility to try to examine what those policies 
ought to be and what those responses most appropriately should 
be.
    I think the administration is correct to ratchet up our 
development and military aid in return for greater cooperation 
from President Saleh and his government. But, we also need to 
enlist the help of others. Saudi aid dwarfs that of all other 
donors to Yemen, including our own. And so, frankly, does their 
leverage. The key is to match Arab resources and local 
knowledge with Western technical and development expertise. 
Next week's London ministerial meeting on Yemen is a crucial 
chance to begin formulating an effective coordinated effort 
commensurate with the scale of the challenge.
    Second, we need to be smart about how our actions are felt 
on the ground. Anti-Americanism, just as we see it in Pakistan, 
for instance, and other parts of the world, runs deep in Yemen, 
and a narrow focus on al-Qaeda risks stoking resentment, 
raising al-Qaeda's profile, and limiting the government's 
ability to sustain a partnership with us. If our development 
efforts can deliver concrete benefits, not just to the ruling 
elite but to a Yemeni society hungry for better job prospects, 
that will undercut the appeal of the extremist narrative.
    I guess I don't have to mention, but I'll just underscore 
to my colleagues, the challenge of that at a time when we 
obviously face challenges here at home, with people who are 
already angry and frustrated about the absence of job creation, 
and the challenges that we face in terms of our own quality of 
life. But, let me tell you, our own quality of life will be 
affected by nothing more significantly than attacks from abroad 
by people who are successfully focused on us, and we cannot, we 
dare not, turn our efforts away from an adequate response to 
this national security challenge.
    USAID's new assistance strategy to address the drivers of 
Yemen's instability is an important starting point. Government 
partnership, strong support from the international community, 
and a targeted approach focused on local institutions will also 
be vital ingredients of any future success.
    Third, we have to be realistic about Yemen's current 
capacity to fight al-Qaeda, and commit ourselves to improving 
that capacity over time. Even before Christmas, the Yemeni 
military had begun taking the fight to al-Qaeda. But, over 
time, nothing would do more to move counterterrorism further up 
the Yemeni Government's priority list, not to mention 
dramatically improving Yemen's long-term prospects, than 
finding a way to turn down the temperature on the Houthi 
rebellion in the north and civil unrest in the south.
    The Houthi conflict is not primarily sectarian in nature, 
but as it drags on, it risks expanding into a regional proxy 
war. Most see no military solution to this conflict. If that's 
true, then we should work with the international community even 
harder to contain the fighting, ensure the humanitarian 
supplies reach the victims, and eventually address the root 
causes.
    Likewise, in southern Yemen we must find ways to encourage 
President Saleh to address longstanding grievances before 
unrest becomes insurgency. And finally, we should view the 
threat posed by AQAP in the context of a global challenge. al-
Qaeda's affiliates demand our attention, but the movement's 
nerve center remains in Pakistan.
    Many in Washington have recently begun a crash course in 
Yemen. We are fortunate to have with us today several genuine 
experts who have been studying Yemen for decades. Assistant 
Secretary of State Jeffrey Feltman and State Department 
Coordinator for Counterterrorism Daniel Benjamin have been 
deeply engaged for a long period of time on this issue, and 
we're eager to hear from them about our strategy to defeat al-
Qaeda and to prevent a state failure in Yemen.
    I'm also pleased to welcome a second panel of four 
knowledgeable experts who will shed light on this complex 
society and describe, frankly, the few easy answers and lack of 
a clear template.
    Barbara Bodine served as America's Ambassador to Yemen from 
1997 to 2001, including during the bombing of the USS Cole, so 
she can speak directly to the challenges of partnering with the 
Yemeni Government in fighting al-Qaeda and the complexity of 
working in Yemen.
    Dr. Emile Nakhleh is the CIA's former senior scholar in 
residence, and founder and first director of the Agency's 
Political Islam Strategic Analysis Program.
    Frederick Kagan is a resident fellow at the American 
Enterprise Institute and one of the intellectual architects of 
the Iraq surge strategy.
    And finally, Gregory Johnsen has deep on-the-ground 
knowledge of Yemen, and has quickly become a go-to voice and 
important filter for our public debate.
    So, thank you very, very much, Secretary, for being here 
today. We welcome you, and we look forward to your testimony 
after Senator Lugar has finished his opening statement.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I join you, and I'm certain that's true of all the 
committee members, in your expressions about Haiti and the work 
of members of this committee and our staffs in attempting to 
help individuals and groups from our own States and 
constituencies, in addition to the great work being done by 
USAID and our military.
    I thank you also for holding this timely hearing on Yemen, 
and I join you in welcoming our distinguished witnesses.
    Last year, I was pleased to cosponsor with Senator Cardin, 
Senate Resolution 341, which passed by unanimous consent in 
early December. The purpose of the resolution was to raise 
awareness about the problems Yemen faces, including the threat 
from
al-Qaeda in the Arabian Peninsula. Among other points, the 
resolution called on the President to ``give sufficient weight 
to the situation in Yemen in efforts to prevent terrorist 
attacks on the United States, United States allies, and Yemeni 
civilians.'' The resolution also emphasized the need to address 
Yemen's severe underdevelopment and to promote good governance, 
without which stability in that country will be elusive.
    The appeal of Islamic extremism in Yemen is heightened by 
the country's staggering unemployment rate. With half the 
population under the age of 15, an enormous generation is 
coming of age without economic opportunity. As one thoughtful 
Yemeni official said recently, ``Either we give our young 
people hope or someone else will give them an illusion.''
    The United States must work urgently and creatively to meet 
the potential terrorist threat from Yemen. But, we can't do it 
alone. First and foremost, we need the unequivocal commitment 
of Yemen's Government to combat al-Qaeda. Our long-term 
strategy must account for the reality that pursuing al-Qaeda in 
the Arabian Peninsula is neither logistically easy, nor 
politically popular with the Yemeni people. We need to 
communicate to Yemen's people that our battle is not with them. 
We should demonstrate our common interests in promoting 
economic prosperity, supporting good governance, and fighting 
violence and extremism. We should not be shy about advocating 
political reform and decentralization, goals that will both 
resonate with the Yemeni people and promote greater stability.
    To this end, we should develop common cause with reform-
oriented officials in the government and with like-minded 
donors. We should help empower civil-society organizations in 
Yemen that want to be part of the solution.
    Last fall, I asked the Foreign Relations Committee minority 
staff to study the situation in Yemen. I am circulating the 
staff report, so that its findings may help inform our 
deliberations.
    Indeed, in my view, the debate about Yemen needs to be 
refocused. In the days since the foiled December 25th attempt 
to blow up Northwest Airlines Flight 253 en route to Detroit, 
the media has focused much attention on after-action analysis 
of the series of human and systemic errors that allowed the 
would-be bomber to board his flight. Much of this analysis is 
connected to afixing blame for this event. This reaction is 
inevitable, and perhaps necessary to correct security flaws, 
but it does not address the more difficult problem of the 
terrorist threat emanating from Yemen.
    If we are to have any hope of neutralizing this threat and 
helping that country move away from the brink of state failure, 
our Nation's policymakers need to comprehend the intricate 
social, economic, and historic forces at play. That is why we 
are here today.
    I hope our witnesses will help inform the policy debate and 
generate options. To that end, I would ask our witnesses to 
offer their observations on the appeal of violent extremism in 
Yemen. What factors have allowed al-Qaeda in the Arabian 
Peninsula--AQAP--to regroup in Yemen? Has AQAP taken advantage 
of the Yemeni Government's preoccupation with the rebellion in 
the north and a secessionist movement in the south? The 
existence of swaths of ungoverned spaces are inviting to this 
terrorist organization, but what kind of support does AQAP 
enjoy in Yemen? What are AQAP's key vulnerabilities, and how 
can they be exploited?
    We also need to better understand Yemen's other conflicts. 
What are the dynamics of the war in the north, and the 
underpinnings of the secessionist aspirations of the south? 
What are the prospects that these conflicts can be resolved 
peacefully? Yemen also faces a multitude of socioeconomic 
challenges, including depleting oil reserves, rapidly 
diminishing water resources, and widespread poverty and 
unemployment. To what degree is stability in Yemen dependent on 
addressing these problems?
    To the extent that Saudi Arabia exercises the greatest 
leverage over its neighbor, how can the United States most 
effectively partner with Riyadh to help address Yemen's 
challenges? Are there opportunities to work more effectively 
with the Gulf Cooperation Council? What creative ideas is the 
administration bringing to the Friends of Yemen meeting in 
London this week?
    Finally, we need a comprehensive view of the humanitarian 
crises in Yemen. What are the obstacles to the provision of 
humanitarian relief to those who have been displaced? What is 
the status of Somali and Ethiopian refugees, and what more can 
be done to address their plight? Is there a nexus, as some have 
suggested, between AQAP and Somalia?
    I appreciate the depth of experience that our witnesses 
possess on these issues, and I look forward to their insights.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar. You raise 
a lot of additional good questions, and I'm confident that 
testimony and our exchanges will probe them.
    So, Secretary Feltman, if you'd lead off, and, Ambassador 
Benjamin, if you'd follow afterward? Thank you.

STATEMENT OF HON. JEFFREY FELTMAN, ASSISTANT SECRETARY OF STATE 
 FOR NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Feltman. Thank you, Chairman Kerry, Ranking 
Member Lugar, members of the committee. Thank you very much for 
holding this hearing, for inviting me, for inviting Ambassador 
Benjamin and the other witnesses to appear. We very much look 
forward to working with this committee to address the many 
challenges, that you have both described, that Yemen faces.
    We'd like to submit a lengthier testimony, for the record, 
in which we detail some of the challenges facing Yemen and 
threats to United States interests that emanate from that 
country.
    Given the gravity and the complexity of the situation in 
Yemen, the Obama administration launched a full-scale policy 
review shortly after coming into office. The administration 
recognized the increasing importance of dealing with Yemen in 
strategic, not just tactical, terms.
    The resultant strategy is twofold. On the one hand, we want 
to operate to bolster and support Yemen on the security side. 
On the other side, we want to promote good governance and 
development on the socioeconomic side. We believe that focusing 
on one dimension to the exclusion of the other cannot lead to 
sustainable success on either.
    I'd like to make four points in the opening statement and 
then look forward to answering any questions that the committee 
may have.
    The first point is that Yemen has been a top United States 
foreign policy issue since this administration took office 1 
year ago today. The attempted attack on Christmas Day, you 
know, served as a wakeup call to some regarding the apparent 
capability of
al-Qaeda--of an al-Qaeda affiliate in Yemen--to carry out 
attacks beyond the Middle East. But this attack confirmed what 
many have known for years: militant extremists in Yemen are 
able to operate in what Senator Lugar called the ``ungoverned 
territories'' there, and they threaten United States national 
security, as well as the interests of key allies.
    With the support of this committee and Congress, we have 
been steadily ramping up security and development assistance 
since fiscal year 2008. Recognizing the toxic effect of a 
deteriorating governance and development situation in the 
country, the United States Government has developed an 
assistance strategy that will take aim at Yemen's socioeconomic 
challenges. Ambassador Benjamin may go into greater detail 
regarding our security and counterterrorism assistance.
    The second point I'd like to emphasize, following up on 
what the chairman said, is that we are not alone in engaging 
with Yemen to improve the situation there. The international 
community, particularly Yemen's neighbor states, such as Saudi 
Arabia, are well aware of the need to help Yemen address its 
security and economic challenges, both in the short and in the 
long term. We're coordinating actively with other countries to 
work with the Government of Yemen and to bolster its ability to 
deliver services to its people, to fight corruption, and to 
confront the threat posed by al-Qaeda and other militant 
extremists. The international coordination committee--the 
international coordination meeting that will take place next 
week in the United States will jump-start that effort of 
working with other countries.
    Third point: We are not naive about our Yemeni partner. The 
Government of Yemen is beset by many challenges, including the 
unrest in the south of the country and a violent conflict in 
parts of the north. The government's ability to provide 
services and exercise its authority is inconsistent over 
different parts of its territory. And frankly, the Government 
of Yemen's track record on human rights, on governance, on 
anticorruption efforts, has also been wanting and is in need of 
intense focus and attention.
    In terms of the Government of Yemen's determination and 
willingness to confront the threat of al-Qaeda militants in the 
country, we should be, and we are, encouraged by recent steps 
that the government has taken. These militant extremists are a 
threat to the United States and to Yemen.
    Our partnership and support for Yemen's counterterrorism 
measures is not an endorsement of all the Government of Yemen's 
policies. In fact, the United States is supporting government 
reform efforts, education and training initiatives, and an 
emerging civil society, in order to promote better transparency 
in government, better protection of human rights, and to 
address questions of devolution of authorities. We will 
continue to seek improvements on all these fronts, even as we 
help the Yemeni Government take on
al-Qaeda.
    The fourth and final point: I would like to emphasize the 
importance of your support and the participation of all U.S. 
Government agencies in our pursuit of success in Yemen. As 
Secretary of State Clinton said recently, in states where the 
odds of succeeding may be long, ``The risks of doing nothing 
are far greater.''
    So, in Yemen, the complexity of the economic, the 
political, the governance, and the security situations truly 
require a whole-of-government approach to our policy. We cannot 
afford to neglect the experience, the resources, or the 
leverage available across our government.
    Thank you. We look forward to hearing your questions.
    The Chairman. Ambassador Benjamin.

      STATEMENT OF HON. DANIEL BENJAMIN, COORDINATOR FOR 
     COUNTERTERRORISM, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Benjamin. Senator Kerry, Ranking Member Senator 
Lugar, members of the committee, thank you very much for the 
invitation to speak to you today about confronting al-Qaeda in 
Yemen.
    The attempted, but unsuccessful, attack on a United States-
bound aircraft on December 25 has reminded us all that the
al-Qaeda threat to the United States remains substantial and 
enduring. Once again we are reminded of the threats that can 
emerge when ungoverned and poorly governed places around the 
world are exploited by terrorists.
    The last few weeks have focused much of the country's, and 
perhaps the world's, attention on Yemen, a place where the 
United States and the international community have been engaged 
for years in tackling a multitude of challenges. Our dual-
pronged strategy will help Yemen confront the immediate 
security concern of
al-Qaeda and also to mitigate the serious political and 
economic issues that the country faces in the longer term.
    Not only will we work to constrict the space in which al-
Qaeda has to operate, but we will assist the Yemeni people in 
building more reliable and legitimate institutions and a more 
predictable future, which, in turn, will go far in reducing the 
appeal of violent extremism. It is a strategy that requires 
full Yemeni partnership. It is a strategy that requires working 
closely with regional partners and allies. And it is a strategy 
that requires hard work and American resources. The challenges 
are great and they are many, but the risk of doing nothing is 
of far greater consequence.
    Contrary to some recent and somewhat sensational accounts 
of al-Qaeda in Yemen, it is important to note that this is not 
a new front in our war on al-Qaeda. The threat has waxed and 
waned in Yemen since December 1992, when followers of Osama bin 
Laden tried to bomb a hotel housing United States troops in 
Aden, en route to Somalia to support the U.N. mission there, 
well before the attack on the USS Cole in 2000.
    In January 2009, as Senator Kerry noted, the leader of al-
Qaeda in Yemen, Nasir al-Wahishi, publicly announced that 
Yemeni and Saudi al-Qaeda operatives would work together under 
the banner of al-Qaeda in the Arabian Peninsula.
    Not including the attempt on December 25, in the past 2 
years this al-Qaeda franchise has carried out a string of 
attacks on embassies, including the U.S. Embassy in September 
2008. It has also carried out attacks against tourists and 
security services in Yemen, and it launched a failed attack 
against the head of counterterrorism in Saudi Arabia. Now it 
has attempted to attack the United States directly.
    While the threat is urgent and addressing the problem is 
complicated, we have an ambitious policy to contend with these 
challenges. We recognize that al-Qaeda has taken advantage of 
insecurity in various regions of Yemen, which is worsened by 
internal conflicts and competition for governance by tribal and 
nonstate actors. We also know that Yemen is grappling with 
serious debilitating poverty, which translates into 
difficulties for governing the whole society and having the 
effective security services to deal with terrorism. Stated 
bluntly, to have any chance of success, U.S. counterterrorism 
policy has to be conceived in strategic, not tactical, terms 
and timelines. Therefore, our strategy is to build up the 
Yemeni capacity to deal with the security threats within their 
borders and to develop government capacity to deliver basic 
services and economic growth.
    Success in defeating al-Qaeda in the Arabian Peninsula 
requires the political will of the Yemeni Government and 
people. The government has shown renewed commitment to confront 
al-Qaeda and to recognize it as a threat to the people and to 
the state of Yemen. Just last week, airstrikes targeted senior 
AQAP leaders. Ten days before that, Yemeni forces arrested one 
AQAP leader and four other members in a raid near Sana'a on 
January 4, as part of the effort to root out the extremists 
responsible for threats to the United States and British 
Embassies.
    Now more than ever, Yemen needs U.S. Government assistance 
to train and equip its security forces. On the security front, 
the Departments of State and Defense provide training and 
assistance to Yemen's key counterterrorism units. We have 
steadily increased our assistance and will seek increases in FY 
2010 and 2011. In addition, we are working with DOD to provide 
1206 counterterrorism assistance for Yemen. Through diplomatic 
security antiterrorism assistance programs, we provide training 
to security forces in the Ministry of Interior, including the 
Yemeni Coast Guard, and the Central Security Force's 
counterterrorism units. Future training could include border 
control management, crime scene investigation, fraudulent 
document recognition, surveillance detection, crisis 
management, and a comprehensive airport security and screening 
consultation and assessment.
    In order to succeed in Yemen, we must understand how 
recruits are radicalized, what their motivations are, and how 
we can mitigate or prevent extremism, so that we can begin to 
turn the tide against violent extremism and delegitimize the 
rhetoric that justifies violence, exactly the points that 
Senator Lugar was making a moment ago.
    Some of our aid programs will help address underlying 
conditions for at-risk populations. Reducing corruption and 
improving good governance are also critical. We will continue 
to build positive people-to-people engagement with the people 
of Yemen.
    Many nations share our concern about Yemen and want to 
assist. This is not solely a U.S. initiative. Regional and 
international cooperation are fundamental components of our 
strategy. International assistance can multiply the benefits of 
United States assistance in building Yemen's capacity to defeat 
terrorists and develop a well-governed and economically 
thriving society. We are also working internationally to 
prevent funds from getting to AQAP.
    As soon as AQAP announced its formation, we began gathering 
information to build an international consensus behind 
designating the group under United Nations Security Council 
Resolution 1267. Yesterday, following our announcement of the 
U.S. designation of AQAP as a foreign terrorist organization 
and its senior leaders as designated terrorists, the U.N. 
announced the designation of AQAP as well, and added al-Wahishi 
and al-Shihri to the consolidated list. This will require all 
U.N. member states to implement an assets freeze, a travel ban, 
and an arms embargo against these entities.
    We have described a number of different initiatives. What 
we have described here, though, is a beginning and not an end. 
As the witnesses in the next panel, I'm sure, will also tell 
you, Yemen is a place with an enormous number of political, 
economic, and security challenges. But, our strategy reflects 
serious and enduring commitment to work with our partners and 
the Yemenis to confront the threat of al-Qaeda; and ultimately, 
I am confident that this will lead to the decisions and actions 
that will strengthen security for our Nation and the global 
community.
    I want to thank you very much for the opportunity to speak 
here today, and I look forward to answering your questions.
    The Chairman. Thank you very much, Ambassador.
    And without objection both of your full testimonies will be 
placed in the record as if read in full.
    [The joint prepared statement of Ambassadors Feltman and 
Benjamin follows:]

 Joint Prepared Statement of Ambassador Jeffrey D. Feltman, Assistant 
   Secretary of State for Near Eastern Affairs and Ambassador Daniel 
   Benjamin, Coordinator for Counterterrorism, Department of State, 
                             Washington, DC

    Mr. Chairman, Ranking Member Lugar, and distinguished members of 
the committee, thank you for the opportunity to appear before this 
committee today to discuss this important subject.
    The unsuccessful attack on a U.S.-bound aircraft on December 25, 
2009, serves as a further reminder of the threats that can emerge when 
ungoverned and poorly governed places around the world are exploited by 
terrorists. The United States and the international community have been 
engaged in supporting good governance, sustainable development, and 
improved security in Yemen for years. Recognizing the growing threat 
emanating from Yemen, the United States has been significantly ramping 
up levels of both security and development assistance since FY 2008. In 
addition, this administration has developed a new, more holistic Yemen 
policy that not only seeks to address security and counterterrorism 
concerns, but also the profound political, economic, and social 
challenges that help al-Qaeda and related affiliates to operate and 
flourish.
    Yemen is beset by a number of challenges and crises. The Senate 
recently noted these challenges with the passage of Senate Resolution 
341, sponsored by Senators Cardin, Lugar, Casey, and Lieberman. Senator 
Kerry called for this hearing where the spotlight will shine brighter 
on the situation in Yemen. Other Members of Congress, including Senator 
Feingold, have regularly raised awareness of the threats emerging from 
Yemen that pose serious challenges to America's national security.
    The United States supports a unified, stable, democratic and 
prosperous Yemen. The Government of Yemen's approach must be a 
comprehensive one to address the security, political, and economic 
challenges that it faces and the United States will be supportive in 
those efforts. We look forward to continuing to work with Congress as 
we refine and implement our strategy moving forward.
                  context for u.s. policy toward yemen
    Due to increasing concerns about instability in and threats 
emanating from Yemen, the Obama administration decided to undertake a 
full-scale review of our Yemen policy, under the aegis of the National 
Security Council, in the spring of 2009. The primary threat to U.S. 
interests in Yemen and a grave threat to the security and stability of 
the Government of Yemen (ROYG) is the presence of al-Qaeda-related 
extremists in the country. This threat was brought home to the American 
public by the attempted bombing of NWA Flight No. 253 on Christmas Day. 
As President Obama noted on January 2, the suspect ``traveled to Yemen, 
where it appears that he joined an affiliate of al-Qaeda, and that this 
group--al-Qaeda in the Arabian Peninsula--trained him, equipped him 
with those explosives, and directed him to attack that plane headed for 
America.''
    The al-Qaeda threat in Yemen is not new. Indeed, al-Qaeda has had a 
presence in Yemen since well before the United States had even 
identified the group or recognized that it posed a significant threat. 
In 1992, al-Qaeda militants attacked a hotel in Aden where American 
military personnel were staying, en route to Somalia to support the 
U.N. mission. Two individuals were killed, neither of them American. In 
the 1990s, a series of major conspiracies were based in Yemen, most of 
them aimed at Saudi Arabia. Following the attack on the USS Cole in 
2000, the Yemeni Government, with support from the United States, dealt 
significant blows to al-Qaeda's presence in Yemen through military 
operations and arrests of key leaders. During much of the subsequent 
period, the Government of Yemen became distracted by other domestic 
security concerns, and our bilateral cooperation experienced setbacks. 
After the May 2003 al-Qaeda attacks in Saudi Arabia, the Kingdom of 
Saudi Arabia dramatically improved its counterterrorism efforts. Many 
radicals fled Saudi Arabia for Yemen, joining other fighters who had 
returned from Afghanistan and Pakistan. A group of senior al-Qaeda 
leaders escaped from a Yemeni prison in 2006, further strengthening al-
Qaeda's presence.
    For the last 5 years, these terrorists have carried out multiple 
attacks against Yemenis, Americans, and citizens of other countries. In 
January 2009, the leader of al-Qaeda in Yemen (AQY), Nasir al-Wahishi, 
publicly announced that Yemeni and Saudi al-Qaeda operatives were now 
working together under the banner of al-Qaeda in the Arabian Peninsula 
(AQAP). Evidence of the December 25 conspiracy indicates that AQAP has 
become sufficiently and independently capable of carrying out strikes 
against the United States and allies outside of the Arabian Peninsula, 
including in the U.S. homeland.
    Upon entering office, the Obama administration quickly understood 
that this al-Qaeda-related activity, as well as poor and deteriorating 
development indicators--including poverty, illiteracy, and a lack of 
access to health care--troubling human rights conditions, and a bleak 
long-term economic outlook, demanded a reappraisal of our Yemen policy. 
We needed a strategy able to match the complexity and gravity of the 
challenges facing Yemen.
    The U.S. Government review has led to a new, whole-of-government 
approach to Yemen that aims to mobilize and coordinate with other 
international actors. Our new strategy seeks to address the root causes 
of instability, encourage political reconciliation, improve governance, 
and build the capacity of Yemen's Government to exercise its authority, 
protect and deliver services to its people, and secure its territory.
                         a two-pronged strategy
    U.S. strategy toward Yemen is two-pronged: (1) strengthen the 
Government of Yemen's ability to promote security and minimize the 
threat from violent extremists within its borders, and (2) mitigate 
Yemen's economic crisis and deficiencies in government capacity, 
provision of services, and transparency. As Yemen's security challenges 
and its social, political, and economic challenges are interrelated and 
mutually reinforcing, so U.S. policy must be holistic and flexible in 
order to be effective both in the short and long term.
    The Government of Yemen faces a variety of security threats as well 
as challenges to the country's very cohesion. Three are particularly 
acute: the presence of al-Qaeda and other violent extremists, the 
Houthi rebellion in the north of the country, and an increasingly 
militant protest movement in the south that has taken on secessionist 
overtones.
    The violent conflict in the Sa'ada governorate of northern Yemen 
between the central government and Houthi rebels, and the protest 
movement in the South, which has led to riots and sporadic outbreaks of 
violence, are fueled by longstanding grievances. Just as the United 
States deplores the use of violence by these groups to achieve their 
political goals, a solely military approach by Yemen cannot produce a 
lasting and sustainable end to conflict.
    The continued fighting in the north against Houthi rebels has dire 
humanitarian consequences, with thousands killed and over 200,000 
displaced in sometimes appalling conditions. We continue to call for a 
cease-fire and to encourage both parties to return to negotiations. 
While this is the sixth round of fighting and previous cease-fires did 
not last, we believe that serious political negotiations can address 
the core grievances that fuel the conflict as well as ensure that the 
Houthi rebels do not rearm or again threaten the Yemeni state. The 
United States will support the Government of Yemen's efforts to achieve 
a lasting peace that allows for the provision of humanitarian and 
development assistance in Sa'ada, and will encourage its gulf neighbors 
and other partners to do so as well. To assist those displaced by the 
conflict, USAID's Office of Food for Peace has donated $7.5 million in 
emergency food aid and the Office of Foreign Disaster Assistance has 
contributed $3 million to relief efforts.
    The southern protest movement in Yemen is also extremely worrisome. 
The ROYG and southern leaders need to engage in a political dialogue 
that addresses political and economic grievances that stretch back to 
Yemen's unification in 1990. Decentralization offers one possible 
approach through which the central authority can devolve power and 
resources to individual governorates, encouraging local solutions to 
longstanding grievances.
    Al-Qaeda, related extremists, and other destabilizing nonstate 
actors, to include criminal networks and tribal actors, benefit from 
these challenging circumstances in Yemen, including a weak central-
government presence in the country's most restive areas. Despite 
certain commonalities, little evidence has emerged that the activities 
of these various nonstate actors are related, although we must remain 
mindful of that potential.
    In the past year, senior administration officials have traveled to 
Yemen frequently, including, most recently, General David Petraeus, 
Deputy National Security Advisor Brennan and Assistant Secretary 
Jeffrey Feltman to press our concern about al-Qaeda's ability to 
operate from and within Yemen. The Government of Yemen's willingness to 
take robust measures to confront the serious threat al-Qaeda poses to 
the nation's stability has been inconsistent in the past, but our 
recent intensive engagement appears to have had positive results. In 
the past month, Yemen has conducted multiple operations designed to 
disrupt AQAP's operational planning and deprive its leadership of safe 
haven within Yemen's national territory. Yemen has significantly 
increased the pressure on al-Qaeda, and has carried out airstrikes and 
ground operations against senior al-Qaeda targets, most recently on 
Friday of last week. The United States commends Yemen on these 
successful operations and is committed to continuing support for an 
effective counterterrorism effort that will include both security and 
economic-development initiatives.
    On the security front, the Departments of State and Defense provide 
training and assistance to Yemen's key counterterrorism units. Through 
Diplomatic Security Antiterrorism Assistance (DS/ATA) programs we 
provide training to security forces in the Ministry of Interior, 
including the Yemeni Coast Guard and the Central Security Force's 
Counterterrorism Unit (CTU). Future training could include border 
control management, crime scene investigation, fraudulent document 
recognition, surveillance detection, crisis management and a 
comprehensive airport security/screening consultation and assessment. 
We also see additional opportunities now to increase our training and 
capacity-building programs for Yemeni law enforcement. In addition, we 
are working with the Department of Defense to use 1206 funds for 
counterterrorism assistance to Yemen. With support from Congress, 
levels of U.S. security assistance and our engagement with our Yemeni 
partners has increased in recent years. The Departments of State and 
Defense coordinate closely in planning and implementing assistance 
programs.
    The United States also engages directly and positively with the 
people of Yemen through educational and cultural programs and 
exchanges. These initiatives contribute to the long-term health of our 
bilateral relationship and help allay suspicion and misunderstanding. 
Exchange programs have a multiplying effect as participants return to 
Yemen and convey to friends and family the realities of American 
culture and society, dispelling damaging but persistent stereotypes. As 
public understanding of U.S. policy and American values increases in 
Yemen, extremist and anti-American sentiment wanes.
    Along with severe poverty, resource constraints and governance 
problems, Yemen also confronts the challenge of a rapidly growing 
population. Per capita income of $930 ranks it 166th out of 174 
countries according to the World Bank. Yemen is highly dependent on oil 
exports, but its oil production is steadily decreasing. Water resources 
are fast being depleted. With over half of its people living in poverty 
and the population growing at an unsustainable 3.2 percent per year, 
economic conditions threaten to worsen and further tax the government's 
already limited capacity to ensure basic levels of support and 
opportunity for its citizens. Endemic corruption further impedes the 
ability of the Yemeni Government to provide essential services.
    The overarching goal of U.S. development and security assistance to 
Yemen is to improve stability and security by improving governance and 
helping to meet pressing socioeconomic challenges. Excluding for the 
moment 1206 and 1207 counterterrorism funding, U.S. development and 
security assistance have increased in Yemen from $17.2 million in FY 
2008, to $40.3 million in FY 2009. Although final determinations have 
yet to be made, total FY 2010 assistance may be as much as $63 million. 
These figures do not include approximately $67 million in 1206 funds 
for FY 2009, the 1206 funds currently being discussed for FY 2010, or 
additional funds from State, USAID, and USDA contingency funds in FY09 
and FY10. U.S. security and stabilization assistance targets the 
economic, social, and political sources of instability in the country, 
while seeking to make improved conditions sustainable over the long 
term by strengthening the governance capacity, political will, and 
effectiveness of the Yemeni Government in addressing these issues. At 
the same time, our targeted humanitarian assistance is responding to 
acute humanitarian crises and helping to bridge the gaps between relief 
and development.
    Local conditions vary widely across Yemen's 21 governorates, for 
reasons related to geography, culture, relationships to the central 
authority, and governance practices. U.S. assistance must be based on 
an accurate and localized understanding of communities' needs. As 
security improves in the country, so will our ability--and that of 
other international donors--to work with the Government of Yemen to 
initiate education, health, and other development programs in 
traditionally underserved areas of Yemen. It is essential that the 
impact of these programs be visible and tangible, that communities feel 
ownership of the projects being implemented, and that programs 
encourage positive linkages to legitimate governing structures.
    The United States is determined to halt and reverse troubling 
socioeconomic dynamics in Yemen. Priorities for U.S. assistance include 
political and fiscal reforms and meaningful attention to legitimate 
internal grievances; better governance through decentralization, 
reduced corruption and civil service reform; economic diversification 
to generate employment and enhance livelihoods, and strengthened 
natural resource management.
    USAID is exploring opportunities to expand engagement with local 
civic and religious leaders on traditional practices and customs that 
can reinforce environmental sustainability, food security, and social 
cohesion. USAID will also work to build the capacity of Yemen's 
Government ministries to deliver services more effectively, 
efficiently, and responsively. Working in close coordination with other 
international donors, including Arab states, USAID can have a 
significant impact by improving the Yemeni Government's ability to 
absorb and use effectively foreign assistance.
    The Middle East Partnership Initiative (MEPI) works with Yemeni 
civil society to strengthen good governance and the rule of law, 
improve internal stability, and empower Yemenis to build a more 
peaceful and prosperous future. MEPI has 26 active programs in Yemen, 
including a number of local grant programs. These programs include 
training for Yemeni Government ministries and advocacy and capacity-
building for emerging civil society and nongovernmental organizations. 
Direct support of Yemeni organizations enables MEPI's assistance 
programs to be particularly flexible and to access communities in 
difficult to reach rural areas. MEPI-funded activities are, and will 
continue to be, coordinated with USAID and other programming.
    The Bureau of Democracy, Human Rights and Labor (DRL) operates a 
program in Yemen to increase public awareness and understanding of 
religious freedom and tolerance with a particular focus on youth. This 
program is helping to counter extremism and encourage a culture of 
tolerance through a combination of training and events. In addition, 
DRL has solicited proposals for new programs in Yemen to support 
independent media and access to information, which will help strengthen 
transparent and accountable governance.
                            challenges ahead
    Given the difficult political, economic, social, security, and 
governance challenges besetting the country, we must recognize progress 
will not come easily. But, as Secretary Clinton stated earlier this 
month, ``the cost of doing nothing is potentially far greater.''
    The ROYG's ability to deliver services is limited by an 
inefficient, often corrupt, and poorly resourced bureaucracy. The 
Government's capacity to absorb assistance is similarly complicated by 
these limitations. In an effort to address these impediments, USAID's 
national governance program will work to bolster relevant institutions, 
including the National Audit Board and Supreme National Anti Corruption 
Commission. At a local level, the new USAID strategy works to promote 
better interaction between Yemenis and their government. Other donor 
nations and the World Bank are working to improve Yemens' bureaucracy 
so that the ROYG can be a better steward of development assistance and 
a more reliable service provider for its people. Unequal development 
and political marginalization of certain groups creates additional 
space for al-Qaeda to operate and the absence of government services 
aggravates political disagreements.
    Limited and rapidly depleting natural resources also cloud Yemen's 
future. Oil serves as the government's primary source of revenue with 
85-90 percent of export earnings, though oil production is decreasing 
and Yemen's reserves are projected to run out in 10 to 20 years. Water 
scarcity is another concern, in part for its negative affect on 
agricultural production and potential. The United Nations World Food 
Programme has deemed Yemen the most food-insecure country in the Middle 
East.
    Demographically, the country is experiencing a youth bulge: 
according to a November 2008 USAID-funded study, close to half the 
population is under the age of 15, and another one-third is between the 
ages of 15 and 29. Youth unemployment is a major problem, with some 
data suggesting a rate that is double that of adults. Yemen's 
population has doubled since 1990 and is set to almost double again by 
2025 (from 19.7 million in 2004 to 38 million in 2025). The country's 
limited resources are inadequate to support the existing and expanding 
population. These conditions, among other factors, make Yemeni youth 
susceptible to extremist messaging.
                  additional elements of u.s. response
    The United States is engaged with international partners, 
especially regional states, in working with the Government of Yemen to 
help address the need for rejuvenating the economy and promoting 
investment and job creation. Meeting in London in November 2006, the 
international community pledged $5.2 billion for Yemen, although a 
significant portion of those funds has yet to be provided, largely due 
to a lack of confidence in the ability of the Yemeni Government to use 
this support effectively. The United States is providing assistance 
specifically aimed at increasing the capacity of the ROYG in this 
regard. We depend in these efforts on the involvement of Yemen's 
neighbors, which is important not just for Yemen's security, including 
border security, but also for its economic development. Secretary of 
State Clinton discussed increasing and coordinating international 
efforts to support Yemen at meetings during the U.N. General Assembly 
in September 2009 and with members of the Gulf Coordination Council in 
Morocco in November, 2009.
    The United Kingdom will convene a ministerial meeting on Yemen in 
London on January 27. This meeting will help consolidate international 
support for Yemen, coordinate assistance efforts, and generate momentum 
in support of Yemen's political and economic reform efforts.
    We acknowledge the regional nature of the terrorism threat and the 
need for regionally coordinated responses. In consultation with the 
Office of the Coordinator for Counterterrorism, U.S. ambassadors from 
the Middle East host regular strategy sessions where interagency 
policymakers and representatives of the combatant commands meet to 
assess threats and devise appropriate strategies, actionable 
initiatives, and policy recommendations. These regional strategy 
sessions provide mechanisms for ambassadors to tackle terrorist threats 
that one team, or one country alone, cannot adequately address.
    United States strategy in Yemen recognizes that improved governance 
capacity in the country will be key to securing long-term gains, in 
terms of development indicators and security and stability. Good 
governance and effective institutions enable effective development 
work. In order to help make the environment increasingly hostile to the 
spread of violent extremism, we must help facilitate an improved 
relationship between Yemeni citizens and their government. The work of 
USAID, MEPI, DRL, and others is aimed at achieving these objectives.
                               conclusion
    We recognize quite clearly that the al-Qaeda threat emanating from 
Yemen directly threatens U.S. vital interests. We must address the 
problem of terrorism in Yemen in a comprehensive and sustained manner 
that takes into account a wide range of political, cultural and 
socioeconomic factors. Ultimately, the goal of U.S. and international 
efforts is a stable, secure, and effectively governed Yemen. Toward 
this end, we will work to restore confidence between the Yemeni people 
and their government through the provision of basic infrastructure and 
public services. As the Government of Yemen grows more transparent and 
responsive to the requirements of its citizens, the seeds of extremism 
and violence will find less fertile ground and a more positive and 
productive dynamic will begin to prevail.

    Money is obviously a small measure of what you can or can't 
do, particularly given the other difficulties that you've 
described, but a looming question is whether or not--I think 
we're up to $63 million, is our aid package. I mean, a lot of 
people would look at that and sort of say, ``Whoa, I mean, are 
we really serious?''
    Ambassador Feltman. We have been on an upward trajectory--
Mr. Chairman, we have been on an upward trajectory since--you 
know, for the last couple of years--you know, $17-$17.2 
million, $40 million, up to probably $63-point million, which 
doesn't include some of the security systems that we're still 
talking about, 1206 funding and things like that. So, the 
actual number for fiscal 2010 will probably be far greater than 
the $63 you referred to.
    The Chairman. Well, money isn't the whole measure, 
obviously, but----
    Ambassador Feltman. That's right.
    The Chairman [continuing]. I'm just trying to get at, with 
the population growing at the rate it is and the number of 
unemployed and the other kinds of issues here, this 
radicalization is at the core of our challenge. I'm told--I 
don't know if this is true--but that our embassy people are 
pretty much shuttling between a fortress embassy and a fortress 
home, and that they really can't go out, that they're not--it's 
not safe enough for them to circulate in Yemeni society. Would 
you agree with that description?
    Ambassador Feltman. The security challenges are great, yes, 
that they--they are greatly restricted in their movements and 
their ability to get across the whole country. I----
    The Chairman. So, does that----
    Ambassador Feltman [continuing]. Won't disagree.
    The Chairman [continuing]. Beg the question as to whether 
or not we're on the right track, in the sense that maybe we're 
not the right people to do this? Particularly since we know 
there is such a level of anti-Americanism directed at us. And 
the Saudis, I gather, are at a billion dollars-plus, in terms 
of their package. Is that correct? With much greater leverage 
than we have.
    Ambassador Feltman. That's the estimate. We're not sure of 
the exact figure, but that's----
    The Chairman. Would you agree with the judgment that they 
have much greater leverage than we do?
    Ambassador Feltman. Yes.
    The Chairman. Would they also have much greater interests 
than--certainly more immediate interests, I won't say greater; 
protecting our shores and our homeland is as great as it gets--
but, is theirs not more immediate, in the sense that there are 
also threats to them and to the government there?
    Ambassador Feltman. In all of our conversations with the 
Saudis about Yemen, which have been many and frequent, I would 
base my judgment that, yes, the Saudis are focused on Yemen, 
they have interests in Yemen, they have leverage in Yemen, they 
are committed to trying to help the Yemeni Government in a 
variety of ways.
    The Chairman. Is it possible that we, in fact, make it more 
difficult by presenting ourselves in the way that we do and 
creating, in a sense, a target? Would it be better if this were 
a more indigenous response, and our efforts were much more in 
terms of creating a regional kind of cooperation with those 
whose stakes are more real and immediate?
    Ambassador Feltman. Mr. Chairman, we are, I think, moving 
along the very lines that you're suggesting. We are working 
bilaterally with regional partners in discussing how we 
coordinate our assistance in Yemen, how we use our leverage 
together to try to achieve shared interests in Yemen. We also 
are talking in regional groups. The Secretary met with the GCC 
in September, and the margins of the General Assembly, and one 
of the issues she talked about was Yemen. The Secretary met 
again with the GCC and a couple of other countries in November, 
in Marrakesh, to talk about how, together, we could address the 
challenges in Yemen. And the conference next week in London, 
the meeting next week in London, is also meant to be able to 
have--to not only raise attention to the challenges of Yemen, 
but also to try to come up with some common approaches to how 
to address those challenges.
    So we are not alone in this. Our assistance is being 
designed with an awareness of what others are doing, the 
leverage that others bring to bear, and also with an awareness 
and sensitivity to the political and the security challenges 
that you raise.
    AID has a new assistance strategy that will be implemented 
in this year. It has two main legs. One is called Community 
Livelihoods Program, the other is National Governments Program. 
And we're working at the local level for the Community 
Livelihoods Program in order to get U.S. assistance out across 
the country and to address some of the governance issues across 
the country. MEPI has a long history of giving grants to local 
organizations to promote civil society at the local grassroots 
level, going places where we ourselves can't go.
    The Chairman. Yes. Well, believe me, I understand the 
tension that you are presented with, with respect to this kind 
of a choice, but I increasingly am beginning to feel that one 
of the keys to our foreign policy has got to be our ability to 
leverage action by some other people in certain places. And if 
they can't see the threat, or they don't share the perception 
of it, perhaps there are some different ways that we're going 
to have to respond to it. Because what I know is, Pakistan is 
central to our ability to be successful in Afghanistan, and our 
ability to be successful in both of those is the essential key 
to our overall counterterrorism strategy. If we're now, sort 
of, you know, opening this new front without adequate capacity 
to do it, and it pulls away from our capacity to complete the 
task elsewhere, I worry seriously about where that takes us, 
from both a larger, macropolicy point of view and just resource 
allocation and American patience and commitment, and so forth.
    Ambassador Benjamin. If I may, Senator. We certainly share 
your concerns. We have very much approached this in a regional 
manner.
    You mentioned the Saudis. The Saudis are obviously key. We 
won't see long-term durable improvements without Saudi 
engagement. I should note that the UAE is also deeply concerned 
about this, and is very much engaged in Yemen.
    But, having said all that, you know, we view this as being, 
at least right now, a good-news story, because it was sustained 
United States engagement by Secretary Feltman, by John Brennan 
at the White House, by General Petraeus, that actually turned 
around the Yemeni Government and really made them recognize the 
extent of the threat they face.
    The Chairman. But, do you feel that that--do you feel that 
commitment is solid, or is there sort of a wavering as to how 
much goes to the Houthi challenge, how much goes to the 
southern component, and their own security issues?
    Ambassador Benjamin. There's no question that the 
government faces a number of very serious security challenges, 
but we feel that this is a very good basis to work on. And if 
you look over the history of the last 6 or 7 years, we're in a 
better place than we have been for a long time. And I think 
that we ought to recognize the benefits that this kind of 
intensive engagement can bring us.
    And I think that the London conference and other 
multilateral engagements, you know, present us with a very 
hopeful set of opportunities for the future. I think it's 
really a time to go forward.
    The Chairman. Good. Appreciate those answers.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    I want to ask for your reactions to a couple of articles I 
have read about the Mosque at Al Eman University in Sana'a, 
Yemen. One of these articles, which appeared in the New York 
Times, points out that each Friday more than 4,000 men come to 
pray at this mosque, lining up along the marks of figured green 
carpet in an area that is much larger than a warehouse. 
Additionally, there is a related article that discusses Anwar 
al-Awlaki, the American-born pastor who has been over there 
indoctrinating impressionable Muslims, and was a lecturer at Al 
Eman University at the time that Umar Farouk Abdulmutallib, who 
was on the Detroit flight, was studying in Yemen.
    Now, the point that Senator Kerry and the majority staff 
have made about Americans allegedly going to Yemen to engage 
with such radical figures is an important part of the larger 
situation that exists there, which poses a direct threat to 
American national security. Without diminishing for a moment 
the conflicts in the north and south, the continued ability of 
radical Islamists such as al-Qaeda in the Arabian Peninsula to 
operate in Yemen is attracting extremists from all over the 
Middle East, and even from the United States, such as the 
American-born clergyman I just mentioned, to settle there. This 
reality leads me to question what kind of influence we can 
project to address these issues, and with whom should we work 
to do so? We've talked about collaborating with the Saudis in 
various circumstances, but who do we partner with in this 
particular case? Is the President of the country interested in 
this proposition? Does he see these issues as a direct threat 
to himself and his regime, quite apart from simply having a 
potentially negative impact on the general stability of his 
country?
    Ambassador Benjamin. Senator, you bring up an excellent 
point. There is no question that radical ideology has made 
significant inroads in a number of institutions and in parts of 
the population in Yemen. And there's no question that that 
poses a long-term threat, and the presence of someone like 
Anwar al-Awlaki, who has a lot of charisma and a real Internet 
presence, magnifies the threat.
    But, I would suggest that, once the government has decided 
that it is deeply threatened by this kind of radicalism, that 
it can take steps that will make a real difference. And I would 
point you to Saudi Arabia in 2003. You know, after the May 2003 
bombings, the Saudis had their own epiphany, and realized the 
extent of radicalism in their own country, and the extent to 
which it was being preached in mosques in many, many different 
parts of that country. They have done an extraordinary job of 
rolling that back.
    Now, obviously, Saudi Arabia is a strong state and has 
resources and capacities that Yemen does not have, but I think 
that, in partnership together, we can do an awful lot. And once 
the government does a better job of communicating to the Yemeni 
people the nature of the threat that they face, I think that we 
will see that we can make real advances in this regard. But, of 
course, it will require a constant Yemeni partnership. They're 
not going to be convinced by us just broadcasting that fact.
    Senator Lugar. Well, does the relative weakness of the 
present Yemeni Government, as exemplified by these reports, 
increase the likelihood that it might be willing to consider 
some reconciliation with al-Qaeda? Or alternatively, it may 
very well be that President Saleh, faced with threats in the 
north and south, the continued presence of al-Qaeda in the 
country, and the problems of the university that we were just 
talking about, has a survival complex which is telling him it 
is in his best interests to work with our government to defeat 
this threat. If so, is the Yemini Government of sufficient 
strength to be an able partner with us in this particular 
endeavor? And if not, would perhaps the Saudis be able to serve 
as a partner? I ask this because much of the area at stake is 
not necessarily ungoverned but is currently beyond the pale of 
much scrutiny on behalf of either the Saudi or Yemini 
governments, which I think is an important observation due the 
threats to both states that exist there? I'm just trying to 
gain some handle on what to make of this. In other words, we 
are aware of and can adequately describe many of the problems 
at hand but precisely what is our major objective? And what 
objectives do we seek to fulfill relating exclusively to the 
threat posed to the United States, which may be quite apart 
from the threat to stability of the area?
    Ambassador Benjamin. Senator, I don't think you're 
overstating the dimensions of the challenge. They are 
considerable. But, I think that, for the first time, we have a 
conjunction of two very important facts. One is a decisive turn 
by the Yemeni Government, and a decisive interest by the 
international community, as the upcoming London Ministerial 
demonstrates. And we have heard an extraordinary level of 
interest and concern, both from regional partners, from the 
Saudis, from the UAE, from others, but also from Europeans, who 
are major donors to Yemen. And I think that we have an 
opportunity now to coordinate our strategies and to raise the 
level of investment in Yemen in a way that will enhance the 
government's capabilities for dealing with this problem. I 
think that history has shown quite clearly that we benefit by 
investing in the government that is there, and advancing our 
interests in that regard, rather than watching by as we have 
another failed state and then have to pick up the pieces. One 
need only look across the Red Sea to Somalia to see the 
enduring challenges that that poses.
    Senator Lugar. Who will be the participants? Who will 
participate in London? What can we hope will become of that? Is 
this a sort of a new phase, as you suggest, of interest by the 
rest of the world in this?
    Ambassador Feltman. There was a meeting in London, called 
Friends of Yemen, back in November 2006, that had Yemen's 
neighbors, European countries, international organizations. 
They pledged $5.2 billion to help Yemen, back in November 2006. 
Much of that money never was delivered. Most of that money was 
never delivered because of questions of governance, things like 
that. That's sort of that--part of the backdrop.
    The second backdrop is the international realization of the 
challenges that Yemen poses for all of us. So, the London 
conference will highlight the international attention on Yemen, 
it'll allow us to coordinate our positions, it'll allow us to 
focus on the needed political and economic reform objectives 
that might help release some of this funding that was pledged 
well over 2 years ago.
    Senator Lugar. Thank you very much.
    The Chairman. Thank you, Senator.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.

             STATEMENT OF HON. RUSSELL D. FEINGOLD,
                  U.S. SENATOR FROM WISCONSIN

    The attempt to blow up a United States airliner on 
Christmas Day has shined a spotlight squarely, if belatedly, on 
Yemen, and I cannot overstate the importance of denying al-
Qaeda safe havens in Yemen and countries like it, an issue 
that, as you know, I've been working on for many years. The 
threat from al-Qaeda in Yemen, as well as the broader region, 
is increasing, and our attention to this part of the world is 
long overdue.
    And that's, of course, why I welcome today's hearing on 
confronting al-Qaeda and preventing state failure in Yemen, and 
why I'm pleased that the President will increase his focus on 
Yemen. We need to remember, as we focus needed resources and 
attention on Yemen, that it shouldn't be seen as the new 
Afghanistan or the new Iraq. Instead, Yemen highlights the 
broader need to develop a comprehensive, global 
counterterrorism strategy that takes into account security-
sector reform, human rights, economic development, 
transparency, good governance, accountability, and the rule of 
law.
    Mr. Chairman, this hearing is an opportunity for us to 
focus attention on the strategies and policies we need to deny 
al-Qaeda safe havens around the world, including in Yemen. 
There's also a chance for us to examine our policy in Yemen and 
better understand how we can develop a partnership that is both 
in our national security interest and helps Yemen move toward 
becoming a more stable, secure nation for its people.
    And, Mr. Chairman, I'd like the rest of my statement to be 
submitted to the record if that's possible.
    The Chairman. So ordered.
    [The prepared statement of Senator Feingold follows:]


            Prepared Statement of Hon. Russell D. Feingold,
                      U.S. Senator From Wisconsin

    Mr. Chairman, the attempt to blow up a U.S. airliner on Christmas 
Day has shined a spotlight squarely, if belatedly, on Yemen. I cannot 
overstate the importance of denying al-Qaeda safe havens in Yemen and 
countries like it, an issue on which I have been working for years. The 
threat from al-Qaeda in Yemen, as well as the broader region, is 
increasing, and our attention to this part of the world is long 
overdue.
    That's why I welcome today's hearing on confronting al-Qaeda and 
preventing state failure in Yemen, and why I am pleased that the 
President will increase his focus on Yemen. But we need to remember, as 
we focus needed resources and attention on Yemen, that it shouldn't be 
seen as the new Afghanistan, or the new Iraq. Instead, Yemen highlights 
the broader need to develop a comprehensive, global counterterrorism 
strategy that takes into account security sector reform, human rights, 
economic development, transparency, good governance, accountability, 
and the rule of law.
    Mr. Chairman, this hearing is an opportunity for us to focus 
attention on the strategy and policies we need to deny al-Qaeda safe 
havens around the world, including in Yemen. It is also a chance for us 
to examine our policy in Yemen and better understand how we can develop 
a partnership that is both in our national security interest and helps 
Yemen to move toward becoming a more stable, secure nation for its 
people.
    Any serious effort against al-Qaeda in Yemen will require 
strengthening the weak capacity of the government as well as its 
legitimacy in the eyes of its citizens. We need to be careful about 
providing assistance to a government that isn't always aligned with the 
needs of the Yemeni people, as last year's State Department report on 
human rights notes. Yemen is a fragile state whose government has 
limited control in many parts of the country. It faces a multitude of 
challenges including poverty, a young and growing population, resource 
scarcities, and corruption. It is also distracted from the 
counterterrorism effort by two other sources of domestic instability--
the al-Houthi rebellion in the North and tensions with a southern 
region with which Sana'a was united less than 20 years ago. In other 
words, counterterrorism is hampered by weak governance and by internal 
conflicts that would not appear on the surface to threaten our 
interests.
    Instability in Yemen is, of course, also closely linked to conflict 
in the Horn of Africa. Earlier this year, Somali pirates attacked a 
U.S. vessel, which briefly raised awareness of maritime insecurity 
fostered by a lack of effective governance and insufficient naval 
capacity on both sides of the Gulf of Aden. This problem continues, 
even when it is not on the front pages, and is both a symptom and a 
driver of overall instability in the region. Meanwhile, refugees from 
the conflict in Somalia, as well as from the broader region, are 
fleeing to Yemen. According to the Office of the United Nations High 
Commissioner for Human Rights, more than 70,000 Somalis and Ethiopians 
arrived on Yemen's shores in 2009--a dramatic increase from previous 
years. The human cost to this exodus, as well as the potentially 
destabilizing affects, demand our attention.
    Congress and the executive branch need to work together to ensure 
that the weak states, chronic instability, vast ungoverned areas, and 
unresolved local tensions that have created safe havens in which 
terrorists can recruit and operate do not get short shrift in our 
counterterrorism efforts. We cannot continue to jump from one perceived 
``central front in the war on terror'' to the next. Local conditions in 
places like Yemen--as well as Somalia, North Africa and elsewhere--will 
continue to enable al-Qaeda affiliates and sympathizers to recruit new 
followers. As a result, although we should aggressively pursue al-Qaeda 
leaders, and our efforts to track individual operatives are critical, 
we will not ultimately be successful if we treat counterterrorism 
merely as a manhunt with a finite number of al-Qaeda members.
    The administration has a historic opportunity, and there are 
indications that lessons are being learned. Both Deputy National 
Security Advisor John Brennan and one of our distinguished panelists, 
Ambassador Daniel Benjamin, have noted in remarks the importance of 
political, economic, and social factors in terrorist recruitment. Such 
statements are encouraging.
    To effectively fight the threat from al-Qaeda and its affiliates in 
Yemen and elsewhere, we also need to change the way our government is 
structured and how it operates.
    In this regard, we need better intelligence. For example, we need 
to improve the intelligence that relates directly to al-Qaeda 
affiliates--where they find safe haven and why and the local conflicts 
and other conditions that create a fertile ground for terrorist 
recruitment. And we need to pay attention to all relevant information--
including the information that the State Department and others in the 
Federal Government openly collect. Conditions around the world that 
allow al-Qaeda to operate are often apparent to our diplomats, and do 
not necessarily require clandestine collection. The information 
diplomats and others collect therefore should be fully integrated with 
the intelligence community.
    That is why I have proposed--and the Senate has approved--a 
bipartisan commission to provide recommendations to the President and 
to the Congress on how to integrate and otherwise reform our existing 
national security institutions. Unless we reform how our Government 
collects, reports, and analyzes information from around the world, we 
will remain a step behind al-Qaeda's global network.
    We also need better access to important countries and regions. When 
our diplomats aren't present, not only will we never truly understand 
what is going on, but we also won't be able to build relationships with 
the local population. In some cases, we can and should establish new 
embassy posts, such as in northern Nigeria. In other cases, such as 
Yemen, where security concerns present obstacles, we should develop 
policies that focus on helping to reestablish security, for the sake of 
the local populations as well as for our own interests.
    In addition, as Yemen makes clear, we need strong, sustained 
policies aimed directly at resolving conflicts that allow al-Qaeda 
affiliates to operate and recruit. These policies must be sophisticated 
and informed. We have suffered from a tendency to view the world in 
terms of extremists versus moderates, good guys versus bad guys. These 
are blinders that prevent us from understanding, on their own terms, 
complex conflicts such as the ones in Yemen. This approach has led us 
to prioritize tactical counterterrorism over long-term strategies. And 
it has contributed to the misperception that regional conflicts, which 
are often the breeding grounds for al-Qaeda affiliates, are obscure and 
unimportant and can be relegated to small State Department teams with 
few resources and limited influence outside the Department. This must 
change.
    Mr. Chairman, this hearing can and must enable us to make needed 
headway on these important issues.

    Senator Feingold. Thank you, Mr. Chairman.
    And as to some questions--I know this came up in the 
discussion with Chairman Kerry--but, Ambassador Benjamin, 
there's a risk that increased United States counterterrorism 
assistance to the Saleh government could be used as a rallying 
point for al-Qaeda in the Arabian Peninsula and affiliated 
groups, particularly if such assistance alienates the local 
population, leads to increased civilian casualties, and, of 
course, fails to take into account local conditions that enable 
militants to recruit followers and plan attacks. And this 
includes the possibility that such assistance would leak into 
Yemeni Government operations, with respect to the internal 
conflicts in the north and the south, which adds to the 
instability in the country that enables al-Qaeda to operate 
there. So, your assessment, sir, of this risk and how we can 
minimize it.
    Ambassador Benjamin. Senator, one of the points that I have 
been at pains to make in virtually every public set of remarks 
since being sworn in was that the Obama administration has made 
the issue of radicalization a centerpiece of its concern, and 
we are eager to ensure that whatever policies we pursue do not 
result in 1 terrorist being taken off the street while 10 more 
are galvanized to take action. So, we're very much mindful of 
these concerns. And, as Secretary Feltman pointed out before, 
our assistance to Yemen is predicated on the belief that we 
need to have a two-pronged approach and that we need to make it 
clear that we are working to advance the fortunes of individual 
Yemenis, that that is to say their quality of life, and their 
interest in sustainable and viable legitimate institutions, as 
well as dealing with security issues--security concerns that we 
share.
    Specifically, on the issue of the assistance, the security 
assistance that we're providing, I think it's important to note 
that we have very rigorous agreements with the Yemeni 
Government on the end use of any materiel that we give them. 
Those agreements carry a number of clauses that give us the 
right to monitor the use of this materiel at every stage of the 
way, and through this method we're trying to ensure that we're 
focusing on the threat that we believe is preeminent, al-Qaeda 
in the Arabian Peninsula.
    I would note that we've also been very clear to the 
government in Sana'a about our belief that the Houthi conflict 
can--needs to be solved through negotiation, that there's no 
military solution to that, and, you know, that's a message that 
we are reiterating.
    Senator Feingold. And, Ambassador Feltman and Ambassador 
Benjamin, what is being done to improve the situations of the 
IDPs and the refugees in Yemen, including the more than 70,000 
African refugees who arrived last year? You obviously know, a 
Washington Post article from January 12 notes that, ``Officials 
who have long welcomed Somali refugees now worry that the new 
arrivals could become the next generation of al-Qaeda 
fighters.'' I've been concerned about the interrelationship of 
these two countries for a long time, and the State Department 
also is concerned by this potential. What steps are being taken 
to address the problem? How are you working with your 
interagency colleagues and the Yemeni Government to mitigate 
any threats that might arise from this?
    Ambassador Feltman. Senator, thank you. You raise an issue 
that we talk--that we focus on quite--you know, quite 
frequently, quite intensely, because it's an extremely 
important issue.
    You know, the State Department's Bureau of Population, 
Refugees, and Migration has an active program in providing 
support to the population at risk, the refugees at risk from 
Somalia, be they in Yemen or be they in other neighboring 
countries. So, we're providing some assistance through PRM. 
It's been--I think it was $150 million total last year. My 
colleagues at PRM would have more details on this program. And, 
of course, we also have a refugee resettlement program, where, 
since 2000, we've brought over 600 Somali refugees from Somalia 
who are--Somalian refugees who are based in Yemen--to the 
United States. All these people go through very intense vetting 
and interview process before they're permitted to enter the 
United States on refugee processing programs. We're also in 
discussions with the Government of Yemen about how we make sure 
that there's not a spillover security effect from the Somali 
refugees. All of us understand why Somalis have left--have felt 
the need to leave Somalia.
    I should also note that the Foreign Minister of Yemen, Abu 
Bakr al-Qirbi is in town this week, in Washington. We will be 
discussing this issue and others with him over the course of 
the week.
    Senator Feingold. Ambassador Benjamin, your thoughts.
    Ambassador Benjamin. Senator, I would just add to that that 
we are acutely aware of the dangers of radicalization within 
refugee camps. And one need only look at some of the things 
that have happened in Yemen to have a clear idea of the dangers 
that this poses, or to some of the camps that were in Pakistan 
after the fight of the 1980s and the 1990s. So that is 
something we're looking at carefully.
    That said, I think that we need to recognize that many of 
the Somalis, as Secretary Feltman alluded to, the Somalis who 
have left their country, are people who are fleeing the chaos 
in that country and are people, in some ways, who may be at 
less of a risk for radicalization than those who have stayed in 
Somalia and are in al-Shabaab-controlled territory, for 
example. It is an acute problem, and it's one that we are 
working to grapple with.
    Senator Feingold. I just hope you continue to do that and 
think about the potential for enemy coordination in places like 
Somalia, Djibouti, Yemen. The proximity of these places is, I 
think, stunning to most people when they realize how close they 
actually are to each other, even though people think of one as 
being in the Middle East and the other one is in Africa. I 
understand there's about a 20-mile/30-mile distance in water, 
at one point, between these places, so this is something that 
has to be taken very seriously.
    Thank you.
    The Chairman. Thank you, Senator Feingold.
    I'd just remind members of the committee that, at 2:30 in 
Senate 116, we have a coffee with the Foreign Minister, a 
working coffee. So, we'll have a chance to pursue some of these 
issues with him.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman, and thank you for 
having this timely hearing. And I appreciate both the comments 
that you've made and the questions you've asked, and also our 
ranking member, and certainly appreciate the witnesses coming.
    You know, as we look at the issue of terrorism, and what 
spawns it, and it seems like, in every case, it leads us to the 
development of a country, and the fact that there's poverty and 
not opportunity. So, just as in Afghanistan and--you know, we 
end up focusing on the development aspects of the country, 
which--and I don't mean term to be pejorative--but we end up 
using the term ``nation-building.'' And at the end of the day, 
we're talking about multitudes of years of commitments and 
billions of dollars that end up being necessary to cause these 
nations to have some of the support that we feel they need to 
be successful. And if you look at the swath all the way across 
Africa on this same parallel, where these same conditions 
exist--I mean, this is just the beginning point, it goes all 
the way across to the West.
    I wonder, in the State Department, if you ever sit back and 
talk about the fact that it's not sustainable for us to 
continue--and I'm not being critical, by the way; I think the 
things that have been said--I think what the chairman said, 
what the ranking member have said--your testimony, I think, is 
dead on. I mean, I think we need to work on the development 
and--economic development, and judicial and governance, and all 
those kind of things that cause for a country to be successful. 
But, I'd love to have just a little insight as to some of the 
deeper conversations, not the conversations about going from 
$17 to $17.2 million to $40 million to $60-something million--
but I wonder, at a higher level, what the discussions are as it 
relates to the sustainability. How much effort is being put in 
place as it relates to actually getting other countries in the 
area participating?
    And also, just on the military side, I know that Mr. 
Benjamin referred to the airstrike that took place--I'm sure we 
were involved in that. That, again, creates additional issues 
for us, as have been alluded to. And even on the military side, 
if there are additional efforts that may be undertaken by those 
in the area--again, with our support in some form or fashion--
but, I'd love to hear an expansive discussion about that, if I 
could.
    Ambassador Feltman. Senator, thank you. These are issues we 
talk about a lot, at a variety of levels. We aren't using the 
word ``nation-building'' with Yemen. We're talking about how we 
work in partnership with the Yemeni people, with the Yemeni 
Government, with the Yemeni local authorities, with the Yemeni 
civil society. So, we're looking at it in a little bit 
different way.
    What we're trying to do in that second prong--the first 
prong of the strategy being, provide security assistance, help 
address the immediate threat of al-Qaeda, the immediate 
security threat. But, when we talk the second prong of our 
strategy, what we're trying to do is sort of change the base 
conditions that make Yemen such a fertile ground for extremism, 
a fertile ground for al-Qaeda, a fertile ground for 
instability.
    And what that requires, in our view, is almost changing the 
relationship, to the best that we're able to do, between the 
Yemeni citizens and the Yemeni Government; to help the Yemeni 
Government be more responsive to, and accountable to, the 
Yemeni people; to help work with local authorities so that 
local authorities are able to be responsive to local concerns; 
to help civil society organizations--there are 7,000 civil 
society organizations registered in Yemen, and it's a huge 
number--and to help those civil society organizations be able 
to engage with their local authorities. So, we're looking at, 
not nation-building, but partnership in a way that changes the 
relationships inside Yemen.
    We're also looking at working with Yemen's neighbors. 
Ambassador Benjamin mentioned the UAE. Of course, the chairman 
mentioned Saudi Arabia. These countries have more resources, 
they have keen interest in Yemen, they want to coordinate with 
us. There's a broader international community that recognizes 
the challenges that Yemen faces. This is not a U.S. fight, 
alone. But, it is in the U.S. interest that we provide 
leadership in this, in addressing these challenges.
    Ambassador Benjamin. If I could add to that, Senator.
    I think Secretary Feltman has it exactly right. And these 
are, of course, some of the grand issues of policy, about these 
kinds of investments. I would say two things.
    First of all, we are not talking about figures on the level 
that we have discussed--regarding Iraq and Afghanistan, for 
example. That's the first thing. Those will not be required, I 
think, certainly from the United States, although we do hope 
that the international community will be more forthcoming.
    But, I think the most important point here is that, when we 
do the math and we consider what the investment needs to be in 
those countries that fail, in those countries that really do 
become terrorist safe havens, when we do consider all of the 
follow-on costs from a terrorist attack such as 9/11, then this 
seems like a very reasonable investment. And this really is a 
case in which prevention will, I think, repay itself handsomely 
over the long term.
    You know, there are many different economic institutes that 
have produced many different assessments for what 9/11 cost us 
in the end. I'm quite sure that if we can prevent any 
catastrophic attacks from being launched out of Yemen--although 
we will have a hard time proving the negative--we will be quite 
pleased that we spent that money there.
    You know, I look at--I appreciate the comments that were 
made on the front end about Haiti, and I support fully the 
efforts that we have under way, and it's remarkable what 
Americans from every State are doing. As we've been here this 
morning, I've been texting to find the location of a physician 
that I was talking with last night there, and--and yet, as we 
look at what, you know, the--America, rightly so, is taking the 
lead; we have a huge investment that will be forthcoming, money 
we don't have, that--we're borrowing 50 percent of it from 
foreign investors--that, just due to mismanagement here, for 
decades, I might add, not just during this--the last year--and 
I look at China, which has participated--I hate to say it--a 
very paltry level, no money, just goods and services. They're 
loaning us a big portion of the money that we're spending down 
there, rightfully so. And again, I support it, and I've sent 
letters to the State Department to do that.
    But, I will say, I think that we're--we take the lead, and 
I understand that, but I will--we have got to change the 
dynamic as it relates to how we deal with these countries. This 
is a huge issue, that, as the chairman mentioned and I agree, 
is going to take a long and very sustained effort. And I think 
if you look at the numbers and the effort that it takes, it's 
going to take partnerships, that now don't exist, to cause that 
to happen. And I think those partnerships in many ways, if they 
can be constructed properly, end up lessening the focus on our 
country in many ways, as it relates just to spawning this whole 
issue that we're concerned about.
    Again, none of this is critical. I know you guys are doing 
the very best that you can.
    But, Mr. Chairman, I agree with you and hope that somehow 
or another we will look at this in a much bigger way than a 
country at a time, as we are--seem to be doing now. But, I 
thank you very much for this hearing, and certainly for the 
testimony.
    The Chairman. Thank you, Senator Corker.
    Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much. And 
thanks for calling this hearing at this time.
    Mr. Ambassador, we're grateful for your presence here, and 
your testimony and your public service, as well as Assistant 
Secretary Feltman.
    I want to commend the work of our Ambassador, Ambassador 
Seche, who came to see me and others in the days and weeks 
leading up to the incident that we all learned about on 
Christmas Day or thereafter.
    I wanted to talk, first, about convicts--both convicts in 
America going to places like Yemen, as well as those who happen 
to be in prison there. Back in 2006, the mastermind of the 2000 
bombing of the Cole escaped from a Yemeni prison. In at least 
two publications today, there were reports emanating from a 
congressional report about 36 Americans who had served time in 
prison here, going overseas, and quote ``dropping off the radar 
screen'' who may have--and I emphasize the words ``may have''--
connected to al-Qaeda in the Arabian Peninsula.
    What can you tell us about that report? And, in particular, 
what can you tell us about how--not only in this instance, but 
generally--how we track individuals like that, and especially 
after the assertion is that they've ``dropped off the radar 
screen''?
    Ambassador Benjamin. Thank you for the question, Senator.
    We're aware of the report that the committee posted this 
morning, and we are now working our way through it. I 
understand that that information came from law enforcement 
sources, so we will be connecting with them to elaborate on our 
own understanding of the situation.
    We are certainly worried about prison radicalization. Of 
course, the State Department leaves it to the Bureau of Prisons 
and others in the U.S. Government to worry about that here. 
But, it is something that we're concerned about abroad; and 
through a number of different programs, we're addressing that 
issue around the world. It is a very serious challenge, and an 
unusually large number of radicalized people, perhaps not 
surprisingly, come out of prison populations.
    As you can imagine, under the current circumstances, it is 
a matter of great concern whenever we find out about American 
citizens who have become radicalized. Obviously, because if 
they have passports, if they don't have derogatory records that 
would prevent them from getting on planes here, then we have a 
security vulnerability, and we're taking that very seriously.
    I think that, in terms of the actual concrete methods we 
use to track them, to the extent possible, it's probably a best 
conversation for a different setting, because it goes into 
intelligence sources and methods. But it is, nonetheless, an 
issue we take very, very seriously.
    Senator Casey. And do you have any reason to dispute or to 
question or to contradict this report?
    Ambassador Benjamin. I certainly do not have any reason to 
contradict it. And the broader issue of our concern about 
Americans who are either on the route to radicalization, or 
have already been radicalized, and then go to Yemen, is 
obviously a major concern for us. We know that there are a 
number of institutions in Yemen that have been effective 
incubators of radicalization, and so we are aware of this 
trail. Of course, they become intelligence matters of concern, 
and we have to watch very carefully what happens. Obviously, 
they're American citizens with all the rights that accrue to 
that status, so we can't stop people from going across the 
ocean.
    Senator Casey. What can you also tell me--and I guess, Mr. 
Feltman, I'd direct this question to you--in terms of what the 
administration and the Congress can do to provide more 
effective assistance to Yemen? I realize this isn't just a 
question of tracking terrorists and intelligence about 
terrorists or potential terrorists. Part of the challenge here 
is working with the Yemeni Government, not only on that 
priority, but as well on development and the--helping as best 
we can on the internal problems that country faces. But, 
what's--if you had to outline three or four steps--some of 
this, I know, may be reiterating your testimony, or parts of 
it--what should the Congress be most focused on, in terms of 
the aid or foreign assistance we provide? What's at the top of 
the list?
    Ambassador Feltman. Senator, thanks for the question. I 
mean, you're absolutely right, the development indicators in 
Yemen are poor, and they're deteriorating. And the chairman's 
opening statements outlined the challenges facing Yemen, in 
terms of demographics, in terms of water, in terms of declining 
oil revenues.
    And, given all of this, we have worked together as a 
government to develop a new development strategy for Yemen. 
This is a USAID development strategy that our country team in 
Yemen and those of us back in Washington participated in. And 
thank you for your kind words about Ambassador Seche; we 
believe he's doing a superb job in leading a whole-of-
government approach toward this.
    I mentioned--touched on this earlier, but I appreciate the 
opportunity to be able to talk about it, in a little bit more 
detail. Going forward, we believe our strategy needs to have 
two main pillars, two main initiatives. One we're calling 
Community and Livelihoods Program, the other National 
Governments Program.
    The Community and Livelihoods Program gets at this issue of 
local powers, local authorities, local responsiveness. It would 
have--we're going to work on health and education at the local 
levels, because there's great demand and great needs of that. 
But, we're also going to work on economic opportunities, most 
likely in the agriculture and small business sector, as well 
as--and this is the part that I think is exciting and 
politically important--we're going to work with local 
governments--help them increase their capacity to be responsive 
to their constituents, help them be accountable to their 
constituents, help them be able to deliver services. And we're 
going to work with local civil society institutions, local 
communities, so that they know how to engage with their local 
authorities.
    There are 21 governments in Yemen. There's great variety of 
development, across those governments--culture, geography, et 
cetera. So, this program has to be flexible to take into 
account what the local conditions are.
    The second initiative is this National Governments Program, 
which will be working at the national level to help on 
capacity-building, to help on some of the same issues, but more 
at the national level.
    So, we're changing our focus in response to a strategic 
review on how to meet the challenges Yemen faces.
    Senator Casey. Thank you very much.
    The Chairman. Senator Kaufman.
    Senator Kaufman. Mr. Chairman, I want to thank you for 
holding this hearing. I think the way you've been able to hold 
hearings so quickly on major issues as they come forward has 
been very helpful, and I think this is another example of that.
    What I'd like to do, I'd like to follow up on Senator 
Corker and Senator Casey's discussions, and kind of--the 
military's really important; security systems, intelligence are 
really important; development's really important. But, I'd like 
to talk more about what you mentioned, Ambassador Feltman, and 
that's the civil society.
    As you pointed out, Yemen has over 7,000 NGOs. And it has 
one of the most vibrant civil societies in the gulf region. And 
you mentioned we're engaging them. Can you kind of get into 
some detail on how--what we're doing to engage civil society in 
Yemen and encourage political reform and promotion of good 
governance?
    Ambassador Feltman. Senator, we are involved in a number of 
ways, because we agree with you 100 percent. This is a real 
target of opportunity for us. The vibrant civil society in 
Yemen is something that's exciting, it's something--they can be 
partners with us in a variety of ways.
    There's a lack of funding for civil society in Yemen. So, 
one of the things that we're doing is providing funding. The 
Middle East partnership Initiative, MEPI, has its most active 
local grant program in Yemen. They have implemented more local 
grants in Yemen than in anyplace else in the entire MEPI field, 
which is the--you know, the Near East region. And these are 
grants to local organizations to carry out locally proposed, 
locally designed activities. And there's a whole bunch of them. 
I'll just mention a couple.
    There's a local organization, called the Democracy School, 
that got a grant from MEPI. What it's using that grant for is 
to teach conflict resolutions to sons of tribal sheikhs from 10 
different governments, to teach them peaceful ways of resolving 
conflicts, to sons of tribal sheikhs, who then go back and do, 
sort of, train-the-training-type training for their friends. 
That's--you know, that's one example of a MEPI grant to civil 
society.
    Another grant is, there's a women's organization that is 
concerned about the rising harassment of women on the streets 
of Sana'a. And this organization is doing public awareness, as 
well as research on the problem, to try to address--you know, 
address an issue that's affecting more and more women on the 
streets of Sana'a.
    We have worked to provide a grant to local media, because 
it's very, very important to promote local--you know, to 
promote local media. Our ongoing public diplomacy exchange 
programs, that are available, you know, worldwide, bring people 
from Yemen in civil society to the United States for training 
and for observing. There's a whole lot of activities that we're 
doing at the grassroots.
    And these organizations, and these people, can go back and 
work in parts of Yemen where we can't, for security reasons. 
So, we want to be able to expand this program, and we very much 
appreciate the support that we have gotten from this committee, 
and from Congress more generally, for our initiatives with 
civil society in Yemen.
    Senator Kaufman. And you're doing this at the local level 
primarily. What--is the government helping? Or--I don't know.
    Ambassador Feltman. You know, we're working with the 
government, as well. For example, we have a grant to IREX to 
work with Parliament on helping to write media laws, and put in 
place the legal framework that allows for more independent and 
open media. So, we're working with the government, as well, at 
a variety of levels. But, what's exciting, I think, for us, is 
the----
    Senator Kaufman. Yes.
    Ambassador Feltman [continuing]. Is the work with the 
local, grassroots civil society organizations.
    Senator Kaufman. Great. And, you know, you raise the media, 
which is kind of a bit of a sore point. I mean, 2009, 2010, 
Freedom House downgraded Yemen from ``partly free'' to ``not 
free,'' in terms of the press. And you haven't any--I mean, is 
the government at all forthcoming, in terms of moving more 
toward a free press, or some form of a free press?
    Ambassador Feltman. This is not an easy issue in Yemen, as 
in many of the----
    Senator Kaufman. Oh, I'm sure. I mean, I----
    Ambassador Feltman [continuing]. As in many of the 
countries in which----
    Senator Kaufman. Exactly.
    Ambassador Feltman [continuing]. Which fall under--in my 
Bureau. So, we're trying to address this in a variety of ways. 
The exchange programs is for journalists. We have our public 
affairs section in Sana'a has a significant grant, $100,000, to 
support independent radio. I mentioned the IREX grant to try to 
put in place the right legal framework for a free media.
    There's continual diplomatic engagement, including this 
week, with Foreign Minister Qirbi, on this issue. You know, 
Yemen's going to have elections in April--parliamentary 
elections are scheduled for April 2011--going toward that, 
we're going to be talking about, What's the foundations of a 
credible election? Part of the foundations are a credible, open 
media. So, this is an ongoing issue.
    Senator Kaufman. Is it? But, it's not just part of it, it's 
kind of key. I mean, one of the----
    Ambassador Feltman. Yes.
    Senator Kaufman [continuing]. One of the mistakes we made 
around the world, I think it's fair, and I'm--this is--is that 
we equated elections to democracy. And in many cases, if you 
don't have a free press, we know what the result is; we don't 
have the institution, we don't have the rule of law, we know 
what the result is; and it's not democracy by anything that--
what we've defined. So, the efforts--especially when you're 
moving into an election, what happens in most places--and not 
just in your area of the world, everywhere in the world--when 
you move into a country for free elections, the first thing--
the first casualty is a free press----
    Ambassador Feltman. Right.
    Senator Kaufman [continuing]. Because they're more and more 
controlled. So, is it something you can do over the next year, 
as we move into this thing, to get--with government-to-
government, not--you know, I--and I think what you're doing's 
great--training journalists, all the rest of that. But, if the 
government is committed not to have a free press, we've seen 
that--how many--everywhere we go.
    Ambassador Feltman. Couldn't agree with you more. It's a 
challenge.
    And the other thing I should mention is that Radio Sawa and
Al-Hurra are available in Yemen. VOA has--is also available in 
parts of Yemen. It's weaker, except along the coast. But, we're 
also providing ourselves some alternative sources of 
information.
    Senator Kaufman. Good. What's the public opinion about the 
United States in Yemen right now?
    Ambassador Feltman. Not great. You know, let's be frank----
    Senator Kaufman. Yes.
    Ambassador Feltman [continuing]. It's not great. But, you 
know, we're not trying to shy away from what we're doing in 
Yemen.
    Senator Kaufman. Sure.
    Ambassador Feltman. We're trying to help the government 
deliver services to the Yemeni people. This is----
    Senator Kaufman. Right.
    Ambassador Feltman [continuing]. Something we're proud of. 
And we're not going to shy away from drawing attention to what 
we're doing on this area.
    Senator Kaufman. But, I think it's really important--I 
think, as I--as Senator Corker raised, you know, when you look 
at all the places in the world we have problems, try to think 
how we're going to deal with them. And the military and--
military and development, by itself, is not going to do it. If 
we don't start changing people's attitudes about freedom of the 
press, about the rule of law, about a civil society, we're in 
for a long, long time before we get this straightened out.
    And the final thing is----
    Ambassador Feltman. Right.
    Senator Kaufman [continuing]. And neither one of you have 
to do it now--anything that you think we should be doing more, 
in the area of public diplomacy, civil society, rule of law, 
just send me a note. I would very much like to get it.
    And I want to thank you both for your service and for your 
testimony.
    Ambassador Feltman. Thank you, Senator.
    Senator Kaufman. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Kaufman.
    Senator Gillibrand.

            STATEMENT OF HON. KIRSTEN E. GILLIBRAND,
                   U.S. SENATOR FROM NEW YORK

    Senator Gillibrand. Thank you, Mr. Chairman, for convening 
this critical hearing on the first full day the Senate is back 
in session.
    Obviously, the attempted bombing of the Detroit-bound 
airliner on December 25 was a chilling reminder of the looming 
threats facing our country. As Secretary Clinton has said, so 
long as hundreds of millions of young people see no hope for 
improving their lives, we cannot put a stop to terrorism or 
defeat ideologies of violence and extremism. What we need to 
do, obviously, is combine development and diplomatic and 
military strategies together, and carry them out in smarter 
ways, relying on partnerships with benefiting countries and 
their indigenous civil society and development groups.
    The conflict, corruption, and poverty in Yemen have made it 
a breeding ground for al-Qaeda. It's critical that we confront 
and prevent future Yemen-based terror attempts. But, we cannot 
just stop there. I want to be sure that we're evaluating all 
the areas and properly allocating resources across the globe 
today to respond to tomorrow's threats.
    I also want to note that Senator Kerry issued an 
investigative report yesterday that contains very troubling 
findings about Americans going to Yemen and Somalia, where they 
have--where they are, in some cases, known to be joining al-
Qaeda and affiliated organizations. Some of these Americans 
were radicalized in U.S. prisons, others in their communities, 
and yet others once they went abroad.
    The findings of this report and other information has come 
to light in recent months demonstrates how enormously 
complicated the terrorist threat is. We must not only be 
vigilant and innovative and smart in our approaches to address 
radicalization at home and abroad. Polls show that al-Qaeda is 
losing hearts and minds in Pakistan and elsewhere, so we must 
work, as much as possible, with the partners as other countries 
and involved communities to weaken the factors that promote 
radicalization.
    I'll submit the rest of my testimony for the record--the 
rest of my opening statement for the record, and I want to ask 
just a few questions, if you can comment.
    [The prepared statement of Senator Gillibrand follows:]

           Prepared Statement of Hon. Kirsten E. Gillibrand,
                       U.S. Senator From New York

    I appreciate Chairman Kerry convening this critical hearing on the 
first full day that the Senate begins its new session. The attempted 
bombing of a Detroit-bound airliner on December 25 was a chilling 
reminder of the looming threats facing our country. I want to welcome 
our administration and outside experts who have come to speak to us 
about a key challenge facing the President, the Congress and the 
Nation: how to address the growth of extremists in Yemen and the 
conditions that have fostered a direct threat to the United States.
    President Obama showed strong leadership in response to the 
Christmas terror attempt planned in Yemen, by quickly undertaking a 
comprehensive review and taking full responsibility for our Nation's 
security. He and his administration made changes to strengthen 
passenger screening, reform the watch-lists, and improve intelligence 
information gathering. A critical extensive review is urgently needed 
to continue to make the reforms necessary to keep Americans safe.
    As Secretary Clinton has said, so long as hundreds of millions of 
young people see no hope for improving their lives, we cannot put a 
stop to terrorism or defeat ideologies of violence and extremism. What 
we need to do is combine development with diplomatic and military 
strategies, and carry them out in smarter ways, relying on partnerships 
with benefiting countries and their indigenous civil society and 
development groups.
    Islamic radicalism in Yemen is not new. In 2000, the USS Cole was 
attacked in a Yemeni port. In 2008, the U.S. Embassy in Yemen was 
attacked twice. Yet, the Yemeni Government did not extradite the 
mastermind responsible for the attack on the USS Cole to the United 
States, Jamal al Badawi, despite requests by U.S. law enforcement. 
Rather, he was released from local jail by Yemeni authorities. Despite 
these signals of growing extremism, for years we turned our attention 
away from Yemen.
    President Obama's team, led by Deputy National Security Adviser 
John Brennan, refocused the U.S. intelligence and other resources on 
Yemen. Brennan himself visited Yemen several times in 2009, and there 
were numerous other intelligence visits. The President 's foreign 
policy team has been reviewing the situation in Yemen.
    In recent hearings and briefings about Afghanistan, I have asked 
what prevents al-Qaeda from moving its base to Yemen or Somalia. While 
I heard good answers assessing the situation in Afghanistan, I did not 
hear a satisfactory answer regarding what we are doing about Yemen or 
future Yemens. We do not have a comprehensive civilian-military program 
yet.
    I expect to hear from the administration such a plan--one that 
combines both civilian and military strategy, one that draws on the 
knowledge of our experts on Yemen and on extremist groups, and one 
which ensures that we are working closely with local groups and 
regional leaders. At the end of this month, the United States will join 
the U.K., Saudi Arabia, the United Arab Emirates, and other nations in 
London to plan a multilateral effort with respect to Yemen. This is 
critical.
    As President Obama has demonstrated, we must work on international 
threats through multilateral fronts. This strategy makes sense when it 
comes to a place like Yemen, where neighboring countries have a fuller 
understanding of the factors that lead to terrorism and where the local 
population will often more easily welcome their support than from U.S. 
or European-led efforts.
    The conflict, corruption and poverty in Yemen have made it a 
breeding ground for al-Qaeda. It is critical that we confront and 
prevent future Yemen-based terror attempts. But we must not stop here. 
I want to be sure we are evaluating all areas and properly allocating 
resources across the globe today to respond to tomorrow's threats.
    I also want to note that Senator Kerry issued an investigative 
report yesterday that contains very troubling findings about Americans 
going to Yemen and Somalia, where they are in some cases known to be 
and in other cases suspected to be joining al-Qaeda or affiliated 
organizations. Some of these Americans were radicalized in U.S. 
prisons, others in their communities, and yet others once they went 
abroad.
    The findings of this report and other information that has come to 
light in recent months demonstrates how enormously complicated the 
terrorist threat is. We must be vigilant, innovative, and smart in 
addressing radicalization at home and abroad. Polls show that al-Qaeda 
is losing hearts and minds in Pakistan and elsewhere. We must work as 
much as possible with partners in other countries, and involve 
communities to weaken the factors that promote radicalization.

    Senator Gillibrand. What mechanisms do you think the United 
States Government can put in place to ensure that our 
assistance moneys do not end up the hands in either a corrupt 
government and corrupt government officials or in organizations 
that are affiliated with extremist views based in Yemen?
    And two, what do you think are the most critical priorities 
for civilian development assistance?
    And last, how do you think we can structure the assistance 
programs to quickly increase stability without appearing to the 
Yemen public to be propping up a corrupt regime?
    Ambassador Feltman. Senator, you raise a lot of very, very 
important issues that we grapple with in trying to design a 
appropriate strategy for Yemen. So, thank you for your 
questions.
    First of all, I should be clear, the United States 
Government does not provide cash to the Government of Yemen. We 
provide assistance to civil society organizations, to 
government institutions, to some of the security organs, but we 
do not provide cash to the Government of Yemen. I think it's an 
important point to keep in mind.
    All of our assistance to institutions in Yemen go through a 
rigorous vetting process. The--you know, if we are going to 
give a MEPI grant, for example, to a local organization, a 
grassroots organization, we have a very extensive review 
process of the organization, of the directors, officers of that 
organization, because we have the very, very same concern that 
you do. We want to help civil society, we want to help Yemen, 
we want to help the right side, the--you know, in Yemen. And 
there's also quarterly reports and followups.
    So, we have a fairly--we have a rigorous system in place 
for vetting, not only on terrorism extremist concerns, but also 
on just, you know, good use of U.S. Government resources. These 
are gifts from the U.S. taxpayers, and we have a fiduciary 
responsibility to make sure that the money's going for the 
purposes intended.
    Now, in terms of priorities, health and education are going 
to be important priorities going forward, both at the local 
level as well as at the national level. Creating economic 
opportunities--and I mentioned earlier that the opportunities 
in creating jobs, growing the economy, are probably going to 
take place initially in the agricultural and small business 
area, and will probably move out from there.
    But, part of this is about devolution of authorities, as 
well. We want to work with local authorities to build their 
capacity, to have them be responsive to the citizens, so that 
the citizens also have the ability to influence local 
decisionmaking. We think this is really important to address 
some of the political issues of Yemen. We talked earlier about 
the rebellion in the north, the unrest in the south, who has 
secessionist overtures, so part of how you address that is to 
move decisionmaking, to the extent that it's appropriate, to a 
more local level. This is not easy, this is not going to happen 
overnight. It requires a lot of discussions with the Government 
of Yemen. We have security issues in how we address this, but 
that's kind of how we're going.
    Ambassador Benjamin. I would just add to that, on the 
security side, that we do have end-use agreements that involve 
constant monitoring of the use of the materiel that we supply 
the Yemenis with, and, you know, we are constantly assessing 
whether that equipment is being used for the purposes that it 
was delivered for. Obviously, these are concerns, but right now 
we feel like we're on the right track.
    Senator Gillibrand. How do you directly counteract 
radicalization, whether it's through schools or training in 
Yemen? What is our--you know, I understand the development 
side, to address unemployment, to address a generation of 
hopelessness. But, how do you also address the focus of 
radicalization and training camps and education that is focused 
on creating terrorists for the next generation?
    Ambassador Benjamin. Well, all of these different efforts 
are, I would say, intimately twined together, and if we don't 
provide hope for those--for that enormous demographic bulge, 
both of the 15-and-unders and also the 15-to-29s----
    Senator Gillibrand. Right.
    Ambassador Benjamin [continuing]. Then I think we're really 
in a very, very difficult situation.
    We--you know, I think it--one of the things that has worked 
for us--I believe it was Senator Kerry, before, mentioned the 
declining--or perhaps you did--the declining popularity of al-
Qaeda in Pakistan. You know, as the government turns its 
attention more effectively to al-Qaeda, it, too, is, I think, 
going to broadcast the message that al-Qaeda is a threat to 
Yemenis and to Yemen's long-term interests. And that will help, 
as well. It's--you know, it's noteworthy that a lot of the 
decline in the popularity of the militant groups in Pakistan 
occurred precisely because so many civilians had been caught up 
in the crossfire.
    We hope that doesn't occur to Yemenis, but as this effort 
intensifies, I think that Yemenis are going to focus more 
concretely on how it is that these militant groups are 
endangering their family members who are in the security 
services, their tribes, which are also turning against them, 
and other ordinary individuals in civil society.
    There's no question that we need to intensify our own 
strategic communications in Yemen and look at combating violent 
extremism more effectively. We have, in the AID basket and in 
MEPI, I think, a number of programs that are doing that, but I 
think that we need to do more.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    We, I'm confident, can ask some additional questions, but I 
think we're going to have a vote, around noon, and I want to 
get the second panel in, obviously.
    I'd like to just ask one question, and then we'll switch to 
the second panel, unless Senator Lugar has additional 
questions.
    Our principal strategic interest, obviously, is al-Qaeda. 
But, the Yemeni Government has indicated that its principal 
strategic interest, that they think is a larger threat to their 
stability, is the Houthi rebellion and then the problems of the 
southern secessionism. Is that an accurate statement, of who 
sees which interest, how? And if it is, how do we align these 
interests? And how do you prevent some of the help we're giving 
them from going to those other interests rather than what we 
want it to go to?
    Ambassador Feltman. Senator, we're watching this all the 
time, because we need--we do have----
    The Chairman. Do you agree with that?
    Ambassador Feltman. Yes, I agree with it. However, I would 
note that over the past month or 6 weeks there's been a much 
greater focus by the Government of Yemen on the threat posed by 
al-Qaeda, and this is an encouraging sign. There's a new 
determination that the government has put toward al-Qaeda. And, 
you know, as you yourself pointed out, in August the Saudi 
Deputy Minister of Interior was targeted by one of these al-
Qaeda guys from Yemen, and so, the Saudi--so, Saudi Arabia, 
with its influence and leverage, is also raising this issue to 
the Yemenis in a constructive way.
    But, without question, the Yemeni Government is also 
concerned about the Houthi rebellion and about the southern 
revolt. And we don't want this to be a distraction. It has been 
a distraction before, and it can easily become a distraction 
again. It's one reason why we've been calling for a cease-fire 
with the Houthis; a cease-fire for humanitarian reasons, as 
well as for political reasons. There have been five, sort of, 
``Houthi wars,'' they call them. Up until now--all of them have 
been stopped before by a political settlement, a political 
settlement that was never implemented.
    We believe that there is no solely military solution to 
these two conflicts. You've got longstanding local grievances 
in the south that date from the unification from 1990. You've 
got grievances from the north that were never fully addressed 
after these political agreements. We deplore the violence used 
by these groups to try to achieve their objectives, but we 
believe there is no solely military solution. We'd like to see 
a cease-fire, and the Government of Yemen to sit down and work 
out the political grievances with these two groups.
    The Chairman. Well, I appreciate that, and it's just worth 
exploring. I raise it--simply put it on the table. This is 
tough stuff, obviously.
    Yes, Ambassador.
    Ambassador Benjamin. Senator Kerry, if I could just add to 
that. It is true that, historically, the government has not 
ranked
al-Qaeda as its primary concern, but I would say that the 
events of the last 6 weeks are quite remarkable, and I think 
that the deeper our engagement gets, the greater our 
opportunity to influence their threat perception will be. And 
that's why I think we really do need to stick at it--stick with 
it and keep with both the public discussion here, but also the 
private discussions with their leaders.
    The Chairman. Well, I appreciate that, and I don't 
disagree. And I thank you for coming in today to answer these 
questions and help us begin to focus on this. I think it's 
very, very helpful. And we're extremely appreciative for the 
work that you're doing.
    If I can--we will leave the record open for 1 week, and 
we'll try not to bombard you. We've got a lot--I know you've 
got a lot going on. But, if there are some important questions 
somebody wants to ask, we'd like to try to complete the record 
in that way.
    Thanks so much for being here with us.
    If I could ask for a seamless transition to the second 
panel, we'll try to proceed as rapidly as we can.
    And as the second panel comes up, I'm going to ask you 
each--Senator Lugar, I didn't ask you again, I apologize--I'm 
going to ask you each to really summarize. I hope you're 
hearing what I'm saying. We need real summaries, of hopefully 
less than 5 minutes each. That will give us some time to have a 
sort of comparison of the views and then a little bit of time 
to dig into them.
    So, I would ask--Ambassador Bodine, if you would lead off, 
and then Dr. Kagan and Dr. Nakhleh and Mr. Johnsen.
    Can you push your mike on so that----
    Ambassador Bodine. I was on. OK, now I'm on.

   STATEMENT OF HON. BARBARA BODINE, DIPLOMAT IN RESIDENCE, 
    LECTURER OF PUBLIC AND INTERNATIONAL AFFAIRS, PRINCETON 
                   UNIVERSITY, PRINCETON, NJ

    Ambassador Bodine. First of all, I'd like to thank Senator 
Kerry and Senator Lugar and the committee for holding this 
hearing, and for the opportunity to speak.
    I will speak as briefly as I can on a country as 
complicated as Yemen. Many of the major points have already 
been touched upon, and I'm not going to review them here.
    A couple of things that I would like to point out very 
quickly is that Yemen, in addition to all the other challenges, 
has been a country in construction rather than destruction over 
the last 20 years. It has probably tripled in size since its 
unification in 1990, and has been grappling with the problems 
of political and social integration since then.
    The unification was more than just stapling together an 
antimonarchical north and a lapsed Marxist state in the south, 
but also a very traditional eastern area. There are three 
political cultures to weave together without the resources any 
state would normally need to do this.
    Our history with Yemen has been an episodic one. The United 
States has never given Yemen quite the attention that it 
deserves. When we have engaged, we have engaged briefly and 
then walked away. I would sincerely hope that we have learned 
our lesson and not do that again.
    We have never sufficiently engaged on the economic 
development of Yemen. We cannot create more water; that is 
finite and diminishing. We cannot create more oil; that is 
finite and diminishing. And the population explosion hasn't 
even fully hit yet. With a population, half of whom are under 
15, there is a baby boom of sonic proportions in the making.
    I would also like to briefly discuss how Yemen is different 
from our other templates. You hear a lot of this in the public 
discussion, and I think it's very dangerous.
    Yemen does not have the sectarian divides that we saw in 
Iraq, and we should be careful not to see the problems, 
especially in the north, through that prism. It does not have 
the linguistic and ethnic divides that we have seen in 
Afghanistan, and it has, very blessedly, been able to avoid 
both the clan violence and the warlordism of Afghanistan. Yemen 
is a fragile state. It is not a failed state. We do have to be 
very careful that we don't take steps to push it over the edge.
    It is also, despite its problems, politically more 
developed than any of these template states. In the course of 
50 years it has gone from probably one of the most 
anachronistic theocracies to something that is working on 
becoming a democratic state. It needs to be recognized and 
supported.
    In terms of how Yemen is governed, when you have a large, 
sprawling, sparsely populated state such as this, it operates 
under what could be called ``primordial federalism.'' It has 
always been a decentralized state. And I think, to a certain 
extent, this is what the Yemeni people want. There is a certain 
libertarianism to the Yemeni culture and character. We need to 
work within this balance between central and local authority 
through support for local administration the Yemen Government 
formally adopted almost 10 years ago but also work with, create 
and strengthen an effective central government able to provide 
basic services and work in partnership with local 
administration. To tilt too far one way or the other risks 
unbalancing this relationship in ways catestropic to the 
country. How do we help the government, with its flaws and with 
its problems, extend its legitimacy to its borders, and not 
just work on extending its authority?
    One last point, then I will wrap up, because I know we 
don't have time, and a lot of questions, is that I would be 
very careful about outsourcing the solutions to Yemen to its 
neighbors. We do have to be careful about an overly heavy 
American hand, and certainly American boots on the ground would 
be counterproductive, but outsourcing this to the Saudis, I 
think, would be equally counterproductive. There is a very long 
and difficult history between Yemen and Saudi Arabia; simply 
because they are neighbors, they are not necessarily friends.
    We need to take the lead in the organization and structure 
the range of international assistance provided, but be very 
careful about deferring to, abdicated that role to Saudi 
Arabia. Financial involvement and financial assistance are 
absolutely to be applauded, but a greater Saudi involvement in 
the security issues and in the structure of Yemen will actually 
reverberate against us.
    Thank you.
    [The prepared statement of Ambassador Bodine follows:]

Prepared Statement of Ambassador (Ret.) Barbara K. Bodine, Lecturer and 
      Diplomat in Residence, Woodrow Wilson School of Public and 
       International Affairs, Princeton University, Princeton, NJ

    To borrow from a fellow Missourian, reports of Yemen's demise are 
exaggerated. Depending on how we as well as the Yemeni Government and 
the Yemenis handle this next year, it could become a self-fulfilling 
prophesy.
    Yemen is not a failed state. It is fragile and faces challenges--
economic, demographic, political and security--that would sunder 
others. There are those who would write it off as a lost cause, dismiss 
it as a sink-hole of assistance, outsource the problems and the 
solutions to the neighbors or turn it into a Third Front when we have 
not yet completed nor been unquestioningly successful in the first two.

  <bullet> President Obama is correct that we should continue to 
        partner with Yemen to deny al-Qaeda sanctuary.
  <bullet> The Yemeni Government requested assistance, training, and 
        equipment support in this effort. We responded affirmatively. 
        This is necessary, but insufficient.
  <bullet> The administration has doubled economic assistance, but the 
        levels are inadequate in and of themselves and in comparison to 
        security assistance.
  <bullet> This must be more than an American effort, but international 
        donor conferences are rarely constructive, strategic, or 
        concrete.
  <bullet> The fundamental challenges facing Yemen are resources and 
        capacity not will.
  <bullet> What is needed, therefore, is a sustained, comprehensive 
        strategy to:

      <all>  Avoid the temptation to apply false analogies from other 
            conflicts:

          <diamond> Yemen is not Iraq, Afghanistan, or Somalia; 
            templates do not work,
          <diamond> American boots on the ground will be 
            counterproductive.

      <all> Apply the lessons of Iraq and Afghanistan wisely:

          <diamond> Efforts at security without legitimacy will not 
            bring stability,
          <diamond>  Civilian-led and civilian-focused diplomacy and 
            development are required upfront, early, and long term,
          <diamond> Build state capacity, e.g., civilian capacity; 
            professionalized civil service:

              <bullet>  Work through existing structures, not seek to 
            create new ones,
              <bullet>  Do not empower the military/police at the 
            expense of the civilian.

      <all>  Support democratic governance, including local 
            administration, civil society, the media and public 
            integrity programs:

          <diamond> Work with all parties including opposition groups.

      <all>  Support sustained investment in education at all levels:

          <diamond> People are Yemen's major natural resource. Make 
            that an asset.

      <all>  Support reconciliation solutions to northern and southern 
            conflicts:

          <diamond> This means neither appeasement nor capitulation,
          <diamond> Support regionally based negotiation efforts,
          <diamond> Support programs and capacity to address core 
            grievances.
                         a review of the basics
    Many of the basic facts are known, and much discussed in the past 
few weeks.
  <bullet> It is large, perhaps the size of France or Texas.
  <bullet> It is rugged and forbidding--mountainous along the coasts; 
        desert in the interior.
  <bullet> It is populous (20 to 25 million), perhaps exceeding the 
        population of the rest of the peninsula combined . . . and that 
        population is growing at a staggering rate.
  <bullet> It is bereft of sufficient natural resources to support its 
        own population or provide either government revenue or 
        meaningful exports. It lacks adequate arable land, surface 
        water or oil.
  <bullet> It is beset by three serious, unrelated security 
        challenges--in the north with the Houthi rebellion, in the 
        south with secession sentiments, and the east with al-Qaeda in 
        the Arabian Peninsula (AQAP).
  <bullet> And, finally, as both a reflection and a consequence of many 
        of these factors, the central government works within a 
        primordially decentralized political structure, limited 
        services and corrosive reports of corruption.

    Sounds like a failed state, but it isn't.

  <bullet> Yemen lacks the sectarian divides that exploded in Iraq. 
        They are neither Sunni nor Shia and most certainly not Wahhabi. 
        It would be a mistake to view the violence in the north, the 
        al-Houthi rebellion, through a sectarian prism or assume and 
        respond as if it were a Saudi-Iranian proxy war. The potential 
        exists but that is neither the proximate cause nor the 
        inevitable outcome.
  <bullet> Yemen lacks the ethnic/linguistic cleavages of Afghanistan. 
        Despite regional distinctions and distinct political histories, 
        expanded upon below, there is a strong sense of Yemeni identity 
        and tradition of inclusiveness. Contrary to the new 
        conventional wisdom, the writ of the state extends beyond the 
        capital.
  <bullet> Yemen lacks the tradition of clan violence found in Somalia 
        or of warlords in Afghanistan. Yemen is often described as a 
        tribal society, but it would be a mistake to understand these 
        tribes as vertical rather than horizontal structures and to 
        vest in tribal leaders too much authority. There is far more 
        fluidity to the society than the label ``tribal'' applies and 
        far greater traditional but effective participation and 
        accountability.
  <bullet> Yemen is politically more developed than any of the three 
        template states. Congress, the administration and major 
        democracy-support organizations recognize Yemen as an emerging 
        democracy with 20 years experience in free, fair, and contested 
        elections, including the last Presidential election, 
        nonsectarian, nationally based multiparties, open press, and 
        civil society. It is fragile and flawed but real.
                  political history and current events
    When I worked on Iraq I was informed by one senior official, after 
an attempt to inject a little Iraqi history in the discussions, that 
``we were smarter than history.'' We're not, and policy made absent an 
understanding of history is fatally flawed. More so in a complex and 
ancient society such as Yemen.
    In the space of less than 50 years Yemen moved from anachronistic 
political systems to what most objective observers concede is an 
indigenous, democratic system. To say that the political integration is 
not yet complete, that the infrastructure of governance is 
insufficient, is an understatement few Yemenis would argue with. That 
is not the same as failure.
    Since the 1990 unification, only 20 years ago, the size of Yemen 
has more than tripled. The unification of north and south was 
precipitated by the collapse of the South's primary patron, the Soviet 
Union, but unification had been an article of faith since at least the 
Republican Revolution in the North in the 1960s and the end of the 
British colonial status in the South in 1967.
    As a start, the former North Yemen (Yemen Arab Republic) and South 
Yemen (People's Democratic Republic of Yemen) were essentially east and 
west of each other. A significant portion of North Yemeni senior 
officials were from the South and a significant portion of South Yemeni 
officials were from the North. While the divide was roughly where the 
mountains hit the coastal plain, the divide was not along an easy Zaydi 
(not Shia) vs. Shafi (not Sunni) sectarian line.
    The unification was also more complex than the stapling together of 
an antimonarchical republic and a lapsed Marxist-Leninist state. It was 
the unification of at least three rather than two distinct political 
cultures and historical memories.

  <bullet> North Yemen: The highlands were a hereditary Zaydi theocracy 
        closed to the outside world until the 1962 Republican 
        Revolution. Saudi Arabia backed the monarchists; Nasser's Egypt 
        the Republicans. The Revolution was the defining moment in 
        modern Yemeni history. A vast majority of Yemenis live in the 
        highlands on subsistence agriculture in small, scattered 
        villages.
  <bullet> Aden Port: A British Crown Colony from 1839 until 1967 and 
        capital of Marxist South Yemen. Relatively modern, densely 
        populated, and directly governed by the British, with strong 
        ties to India and the subcontinent.
  <bullet> Aden Protectorates: 10 or so tribes, sultanates and emirates 
        to the east of Aden Port under protectorate status from 1880s/
        1890s until the early 1960s. Sparsely populated, politically 
        traditional, and socially conservative. Allowed a considerable 
        degree of autonomy under the British and an awkward fit with 
        Aden in the events leading up to and following independence in 
        1967.

    Although its international borders with Saudi Arabia were finally 
negotiated only 10 years ago, Yemen is not an artificial construct of 
the colonial era. It calculates its history in millennia not decades or 
centuries. Aden Port has been a prize for nearly as long, and there is 
evidence of a brief and unsuccessful Roman presence near Aden. Attempts 
by the Ottomans to control the north repeatedly ended in failure. Aden 
was a British Crown Colony and one of the jewels in that crown, serving 
as a major coaling station. The eastern portion, primarily the 
Hadramaut was under protectorate status only. Despite a century plus of 
British colonialism in the Aden, by and large, the Yemen highlands and 
the eastern reaches missed most of the colonial period.
    Ali Abdullah Saleh became President of North Yemen in 1978 
following the assassination of two North Yemeni Presidents, one by 
South Yemeni agents, in the space of 9 months. (The South Yemeni 
President was assassinated in the same timeframe by a hard line rival). 
Eight months later, in early 1979, the South invaded the North, 
prompting massive U.S. military assistance to the North and support 
from a broad number of Arab states, including Jordan, Saudi Arabia, and 
Egypt. The South was backed by the Soviet Union and its allies, 
including Cuba. From 1976 to 1982 the South also backed an insurgency 
in the North. What Ali Abdullah Saleh inherited in 1978 and struggled 
with into the 1980s was a state that essentially existed along the 
Sana'a-Taiz-Hodeidah roads, and in the daylight. The southern border 
with the People Democratic Republic of Yemen was volatile and the 2,000 
mile border with Saudi Arabia was contested and undemarcated.
    To compound the challenges of political histories, the union in 
1990, while a negotiated agreement, was not between equals. North 
Yemen, while impoverished and underdeveloped, had approximately 15 
million people; the South, with one of the best natural harbors in the 
world and a refinery, had less than 2 million and was abandoned by its 
patron and benefactor, the Soviets. In addition, whatever Aden's 
natural advantages, it had been decimated by the closure of the Suez 
Canal and its British infrastructure had been allowed to rot under the 
Soviets. The South brought few assets, great expectations, and a number 
of liabilities into the union.
    South Yemen was an international--or at least and American--pariah. 
It was the first state placed on the State Sponsors of Terrorism list 
for the collection of Marxist and alphabet soup terrorist group 
training camps, and ranked exceedingly low on early Human Rights 
Reports. What it also brought to the union was a bureaucracy of over 
300,000 officials, larger by several factors than that of the North. 
Finally, there remained unsettled scores between the traditional and 
disposed leaders of the former protectorates and remnants of the 
Marxist government.
    Governing Yemen is no easy undertaking. Resources have not kept 
pace with demands. Oil provided a respite but never at the levels 
commensurate with the neighbors, the needs or the expectations. Yemenis 
are fiercely independent and while demanding of government services 
will resist any heavy government hand. Their political and social 
worldviews run the gamut from well-educated, urban technocrats to 
simple farmers, from secular socialists through nationalists, a legal 
Islamist party to Salafi. It would be a mistake to assume all 
technocrats were liberals and reformers and that all farmers and 
tribesmen were Islamists or that any of these came in neat 
geographically defined packages. Yemen is not that simple.
    Any government must balance the competing needs and demands of this 
disparate and deeply politically engaged population. Any issue, 
program, official, rumor or fact will be debated at length both in 
Parliament and in the equally important qat chews.
    Patronage is an essential element of any government's ability to 
maintain power--even here--but it is not sufficient to explain the 
survival of the government over 30 years. Perhaps the best analogy is a 
juggler with plates on a stick. Each plate must be given its due 
attention or it, and perhaps all of them, will come crashing down.
    To the extent the three major security concerns--the Houthi, the 
southerners and AQAP--pose an existential threat to the survival of the 
government and the state it is not their desire or ability to replace 
the government but their ability to distract and divert attention and 
resources. This government and no foreseeable successor government can 
manage all three adequately and still provide even the basics in 
services. The juggler can only move so fast.
                      the united states and yemen
    Given the self-isolation of the North and British control of Aden, 
the United States essentially ignored The Yemens for most of its modern 
history. One major exception--a U.S. scholarship program in the late 
1940s and early 1950s for 40 young men, mostly Zaydi, to study in the 
United States. Nearly all returned to Yemen, none cast their lot with 
the royalists and many went on to serve Yemen as technocrats, 
government ministers and the core of Yemen's political evolution over 
the next 50 years. President Kennedy's decision to recognize the 
Republican government in the North in 1962, barely 3 months after the 
Revolt irritated our friends the British, French, and the Saudis. 
Finally, the United States strongly and publicly backed Yemeni unity 
during the brief civil war and looked to Yemen to be a constructive 
partner after 9/11. Earlier this month, Chairman of the Joint Chiefs, 
Admiral Mullen, gave Yemen good marks on this last count, as had the 
previous administration.
    Yemeni support for Iraq during the Iran-Iraq war and Yemeni 
mujahedeen battling the Soviets in Afghanistan (a disproportionate 
number of whom came from the south) became liabilities in the 
relationship only in retrospect.
    Beyond that, Yemen figured as a secondary player in broader cold 
war and regional politics. Nasser's Egypt squared off against the Saudi 
monarchy over the Republican Revolution. The Egyptians threw in the 
towel in 1967 following their defeat in the war with Israel, although 
at that stage the Republicans had essentially defeated the monarchists. 
South Yemeni meddling in the North reflected tensions along the Soviet-
West fault lines as inherent tensions along the Yemeni border. Our 
decision to provide massive military assistance to the North in the 
1979 border war reflected events in Afghanistan and the Horn of Africa 
as much as any intrinsic interest in North Yemen.
    U.S. economic development assistance and security cooperation with 
Yemen has been erratic and episodic. After the airlift of military 
equipment in 1979, the United States essentially walked away from any 
relationship with the Yemeni military. That equipment, or some of it, 
was still in the Yemeni inventory when I arrived almost 20 years later 
as Ambassador. Economic assistance waxed and waned. In the best of 
times it included a vibrant and still well-remembered Peace Corps 
program, major agricultural development assistance and an active 
scholarship program. At other times, we virtually zeroed it out.
    When I arrived as Ambassador in 1997 we had essentially no 
development program, no USAID personnel, no Peace Corps, and no longer 
provided scholarships. The Yemeni decision not to support the 1990 U.N. 
Security Council Resolution on Desert Shield/Desert Storm and the 1994 
Civil War are often cited as the reasons for this precipitous drop. 
However, Yemen was not alone among Arab states--including Jordan and 
Tunisia--on opposing non-Arab military action to liberate Kuwait and 
the civil war lasted barely 2 months. It hardly represented a direct or 
continuous threat to U.S. personnel. Basically, Yemen just slipped 
quietly off the radar screen. No major economic interests; no apparent 
security interest. Neither malicious nor benign neglect on our part. 
Just indifference.
    The mandate of my tenure as Ambassador, with the full backing of 
the Department of State and General Zinni at Central Command, was to 
rebuild the relationship on as broad a front as possible, including 
security cooperation, democracy support, scholarships, economic 
development, and creation of a Coast Guard. The attack on USS Cole was 
not only an attack on the United States but was seen by the Yemenis as 
an attack on them and an attack on the changing relationship.
    The perception of many Yemenis, including our friends, is that in 
recent years the aperture narrowed to security only or security first, 
and security as we defined it. We need to reopen that aperture.
                    yemen's challenges; u.s. options
    It is not difficult to curb one's enthusiasm over our announced 
doubling of economic assistance to $40 million/year along with $120 
million in military assistance. If we accept that there are somewhere 
in the neighborhood of 100-200 AQAP members in Yemen, and approximately 
25 million Yemenis not affiliated with AQAP, we have upped our 
assistance to the non-AQAP Yemenis from less than $1/per year/per 
Yemeni to about a buck sixty per and have committed over $500,000.00/
AQAP/year.
    I understand that there is not a direct dollar-to-dollar 
correlation between an effective level of development assistance and 
military assistance, but this is not good, and it's not smart and it is 
not effective.
    Yemen faces four major inherent challenges:

  <bullet> Water: Finite, inadequate and diminishing rapidly;
  <bullet> Energy: Finite, inadequate and diminishing rapidly;
  <bullet> Political Infrastructure: Finite, inadequate and vulnerable;
  <bullet> Population: Apparently infinite, abundant and expanding 
        rapidly.

    These four challenges feed the three security challenges, two 
directly and AQAP indirectly.
    In both the northern rebellion and among the southern 
secessionists, a fundamental issue is the perception, the reality, of 
inadequate provision of governmental services. This is not to say that 
the central government is no more than a mayoralty. That reflects a 
lack of appreciation for the intrinsic character of the political and 
social system. It is also not to say that there is a demand for a 
strong central government. It is a demand for a more effective, 
efficient, and responsive government, one that provides resources 
through credible support to the local administrations system and to the 
citizens.
Water
    Reports that Yemen, or at least the Sana'a Basin, will run out of 
aquifer water imminently have been circulating for decades and will 
become true at some point. Demand far exceeds the monsoons' ability to 
replenish and antiquated irrigation methods and subsidized fuel for 
pumps exacerbate the problem. Desalinization plans are hampered by the 
exorbitant cost of transporting the water over several mountain ranges 
to the populated and agricultural highlands at roughly 4,000-8,000 
feet. Proposals to relocate the entire Yemeni population to the coasts 
do not warrant extensive discussion. The financial costs and the social 
and political upheaval would be catastrophic.
Energy
    Yemen did not share its neighbors' blessings in oil or gas. What 
they had is diminishing and/or in remote and inaccessible regions. To 
put it in perspective, Yemen's oil reserves are calculated at 3 BBL. 
That is roughly half of Oman's reserves; Oman's population, however, is 
one-tenth Yemen's. Iraq, with approximately the same size population, 
has reserves of approximately 115 BBL, plus water and arable land.
Population
    Yemen has one of the highest growth rates in the world and with a 
majority of the population under 25, a sonic baby boom is in the 
offing. As the trajectory climbs steeply, the pressures on water and 
energy will only increase as resources decrease.
    The low level of education is a significant drag on the development 
of the country. Schools are few and far between and teachers too often 
are imported to supplement the lack of Yemeni teachers, while too many 
Yemenis are unemployed. Prospects for foreign investment are hampered 
by the lack of a work force with the necessary skills.
Political structure
    Despite the theories of political science, Yemen has created a 
fragile, flawed but very real democratic structure and process that 
reflects the Yemeni character and traditions. Its flaws should be a 
focus of assistance not an excuse to disengage or not engage. The 
survival of this experiment is tied to the economic future of the state 
and the role of the neighbors and the donors.
    A major and underdiscussed challenge to the political structure is 
the generational change underway. The Famous Forty are rapidly leaving 
the scene as are those from the Republican Revolution and the 
independence fight in the South. The next generation does not share 
this history or the alliances forged. Traditional tribal leaders, such 
as Paramount Shaykh Abdullah al-Ahmar, have been succeeded by a 
coalition of sons. There is most certainly a jockeying for position 
throughout the next generation--tribal, power elites, merchant families 
and technocrats. It would be presumptuous for us to declare the winner. 
We have no idea. Yemeni politics are more kaleidoscope than mosaic. It 
would be dangerous for us to insert ourselves into the process directly 
or indirectly. Whoever succeeds Ali Abdullah Saleh will need the 
affirmation of the nascent democratic structures as well as the 
blessings of the power elites. We can support the structures and 
processes; we cannot assume or pick the winners.
                 where should the united states focus?
    To focus disproportionately on immediate military and security 
capacity-building is short-sighted. If our concerns about the threats 
from Yemen are sufficient to fund $120 million in security assistance 
and an implicit understanding that development of credible security 
structures is a long-term investment, then our interest in keeping 
Yemen on the good side of the failure curve (recognizing that it may 
never be wholly prosperous) warrant an equal commitment to civilian 
capacity-building over a similar long haul. We need to do more than 
invest in extending the authority of the state and invest as well in 
the legitimacy and the capacity of the state and the society. We cannot 
grant ``legitimacy'' but we can assist in the development of those 
elements of the state that provide services to the citizens. The ``we'' 
here is the U.S. Government, the international community and the 
regional neighbors.
  <bullet> Develop a credible, efficient, and effective civil service. 
        This is not as sexy as training an army or the police. It is 
        not as telegenic. It is critical.
  <bullet> Support Yemeni efforts to mitigate opportunities for 
        diversion and corruption by the development of governmental and 
        nongovernmental accountability structures.
  <bullet> Support education and schooling, not through construction of 
        schools (that is easy) but through elementary and secondary 
        teacher training. Human capital is Yemen's untapped natural 
        resource.
  <bullet> Support governance initiatives in all three branches of 
        government and civil society. Civil society development creates 
        a cadre of next generation officials; e.g., the current 
        Minister of Water was the head of an NGO.
  <bullet> Support training of primary health care system such as the 
        midwifery training in the 1990s.
  <bullet> Support restoration of Aden Port as a major entrepot for the 
        Indian Ocean rim. This is Yemen's second major natural 
        resource. Development of the Port would create employment and 
        mitigate north-south tensions.
 some final thoughts and cautionary tales--civilian capacity not just 
                          military capability
    In shaping a U.S. strategy going forward in Yemen, we need to bear 
a few lessons of our own recent history as well as Yemen's long history 
in mind. We are not smarter than their history or our own.

  <bullet> We are dealing with a sovereign state, not a failed state, 
        that has proven to be a credible if not always capable partner.
  <bullet> The Yemeni Government will undertake those actions that are 
        in its own best national interest. We have shared priorities, 
        but perhaps not in the same priority order.
  <bullet> Our commitment needs to be to build state capacity, 
        including efforts to assist the development of a civil service, 
        Parliament, judiciary and media/civil society--within a Yemeni 
        context.
  <bullet> Our involvement in state and human capacity development 
        needs to equal if not exceed our commitment to build a military 
        and police capability.

    None of this guarantees success, however defined. However, a short-
sighted, security-centric and episodic engagement with Yemen could 
create the very failed state neither we nor the Yemenis want or can 
afford. If this set of proposals looks costly, the cost of dealing with 
the ramifications of state failure will be far greater.

    The Chairman. Thank you very much. Appreciate it.
    Dr. Kagan.

STATEMENT OF FREDERICK W. KAGAN, RESIDENT SCHOLAR AND DIRECTOR, 
   AMERICAN ENTERPRISE INSTITUTE'S CRITICAL THREATS PROJECT, 
                         WASHINGTON, DC

    Dr. Kagan. Senator Kerry, thank you for convening this 
hearing. Senator Lugar, thank you for inviting me.
    I will speak very briefly, and I will focus on the issue 
that you raised, Mr. Chairman, about the question of interest 
alignment, because I actually think that that's the most 
important discordant note that has not received, I think, quite 
enough attention in these discussions.
    I do not think that we will be very successful in 
persuading President Saleh that al-Qaeda in the Arabian 
Peninsula is the most important threat that he faces. There are 
very good reasons why he sees the al-Houthi insurgency as a 
much more significant threat to his rule. That isn't to say 
that he's right, it isn't to say that the Houthis are wrong, 
and it isn't to say that there's any particular outcome to the 
solution. But, it is to say that I think we're going to have an 
extraordinarily difficult time persuading him that fighting a 
group that he's more likely to perceive as our enemies than his 
enemies should take precedence over fighting a group that--
whose ideology fundamentally undermines the rationale and 
legitimacy of his rule. And I think that we have to understand 
that and take that into account.
    The same is true, to a lesser extent, with the southern 
secessionist movement. I suspect that President Saleh, who, 
after all, defeated the southern secessionists, if you will, 
once before, probably doesn't see them as quite as serious a 
threat to his legitimacy as the core ideological attack that 
you could see in some of the Houthi ideology. And again, I'm 
not saying that--I'm not taking sides on this. But, he is 
likely to see anything that has as its objective the fracturing 
of his state as a more significant threat, and something that 
he needs to combat more seriously, than a group which has 
recently shifted its attention, actually, away from attacking 
the Yemeni Government, toward attacking us. And the fact that 
the Christmas Day bombing attempt makes AQAP more dangerous for 
us is not likely to be an argument that's necessarily going to 
hold sway with President Saleh over the long term about what 
kind of threat it poses to him.
    And I think--I--it's too early to judge the issue of 
whether the Yemeni Government has made a decisive turn against 
AQAP, and really decided to do all of this stuff. We've seen 
this a little bit before, when the Yemeni Government had--you 
know, decided to go after al-Qaeda earlier on, in the last 
decade. And actually, we did very significant damage to the 
group, and then 23 al-Qaeda prisoners escaped, or were allowed 
to escape, and then we've had a little bit of catch-and-release 
program.
    And so, the question of the duration of any kind of Yemeni 
Government commitment to doing this, fighting AQAP, as opposed 
to other things, is a real open question.
    But, one of the things that I want to really emphasize is 
that we have to recognize the fact that, given the strategy 
that the administration has outlined, we have taken sides in 
Yemen on the question of the al-Houthi insurgency and the 
southern secessionist movement. You cannot say that our 
strategy is based on a close partnership with President Saleh, 
who is the President of Yemen now, and also say that we're 
agnostic about how these insurgencies come out. It's simply not 
going to work, whatever we think the merits of these cases are. 
Now, I'm not saying that there's a military solution. Frankly, 
I find that that's a straw man. Other than a handful of people 
on the far right, who are in favor of the Tamerlane pillars-of-
skulls approach to counterinsurgency, which I don't support, 
there is no military solution to an insurgency at all, which 
doesn't mean there's not a military component. But, we will 
have to end up helping President Saleh come to a resolution of 
these two insurgencies that he finds acceptable as the price 
for having him cooperate with us on fighting al-Qaeda, which he 
is likely to find is a tertiary threat. And as long as we spend 
our time telling ourselves that we need to find a way to 
reorient him away from things that he finds very threatening, 
to things that we would like him to do, and simultaneously say 
that we don't really have an opinion about how those things 
that he cares about are going to come out, the likelihood of 
being able to establish a long-term, enduring, effective 
partnership, I think, is very low.
    [The article submitted by Dr. Kagan as his prepared 
statement follows:]

Article Submitted by Frederick W. Kagan, Resident Scholar and Director, 
 Critical Threats Project, American Enterprise Insitute, Washington, DC

             [From the Wall Street Journal, Jan. 13, 2010]

                 How to Apply ``Smart Power'' in Yemen

            (By Frederick W. Kagan and Christopher Harnisch)

The Salah government will side with us against al-Qaeda if we side with 
it against insurgents.

    President Barack Obama has made it clear that he does not intend to 
send American ground forces into Yemen, and rightly so. But American 
policy toward Yemen, even after the Christmas terrorist attempt, 
remains focused on limited counterterrorist approaches that failed in 
Afghanistan in the 1990s and have created tension in Pakistan since 
2001.
    Yemen faces enormous challenges. Its 24 million people are divided 
into three antagonistic groups: a Zaydi Shiite minority now fighting 
against the central government (the Houthi rebellion); the inhabitants 
of the former Yemen Arab Republic (in the north); and the inhabitants 
of the former Peoples Democratic Republic of Yemen (in the south), many 
of whom are engaged in a secessionist rebellion. Its government is 
corrupt, its security forces have limited capabilities, and a large 
swath of its population is addicted to a drug called qat.
    The World Bank estimates that Yemen will stop earning a profit on 
its oil production by 2017 (oil now accounts for more than half of the 
country's export income). Only 46 percent of rural Yemenis have access 
to adequate water (40 percent of the country's water goes to growing 
qat), and some estimates suggest Yemen will run out of water for its 
people within a decade.
    American policy in Yemen has focused heavily on fighting al-Qaeda, 
but it has failed to address the conditions that make the country a 
terrorist safe haven. Targeted strikes in 2002 killed key al-Qaeda 
leaders in Yemen, and the group went relatively quiet for several 
years. The U.S. military has been working to build up the Yemeni Coast 
Guard (to prevent attacks similar to the one on the USS Cole in 2000) 
and to improve the counterterrorist capabilities of the Yemeni military 
in general.
    But the U.S. has resisted supporting President Ali Abdallah Salah's 
efforts to defeat the Houthi insurgency, generating understandable 
friction with our would-be partner. As we have found repeatedly in 
similar situations around the world (particularly in Pakistan), local 
governments will not focus on terrorist groups that primarily threaten 
the U.S. or their neighbors at the expense of security challenges that 
threaten them directly. A strategy that attempts to pressure or bribe 
them to go after our enemies is likely to fail.
    Mr. Salah is an unpalatable partner, and we don't want to be drawn 
into Yemen's internal conflicts more than necessary. But he is the only 
partner we have in Yemen. If we want him to take our side in the fight 
against al-Qaeda, we have to take his side in the fight against the 
Houthis.
    The U.S. must also develop a coherent approach that will help 
Yemen's government improve itself, address its looming economic and 
social catastrophes, and improve the ability of its military, 
intelligence and police organs to establish security throughout the 
country. The U.S. now maintains an earnest but understaffed and 
underresourced USAID mission in the American Embassy in Sana, the 
country's capital. But because of security concerns, U.S. officials are 
largely restricted to Sana and therefore cannot directly oversee the 
limited programs they support, let alone help address systemic 
governance failures.
    Yemen received $150 million in USAID funds in 2009--one-tenth the 
amount dispensed in Afghanistan; less than one-fifth the amount 
provided to Gaza and the West Bank; and roughly half of what Nigeria 
received. The Pentagon recently said it would like to double the 
roughly $70 million Yemen received in security assistance. But the 
total pool from which that money would come from in 2010 is only $350 
million, according to Pentagon spokesman Geoff Morrell, and there are 
other pressing demands for those funds.
    The problems in Yemen will not be solved simply by throwing 
American money at them. But dollars are the soldiers of the smart power 
approach. Having a lot of them does not guarantee success, but having 
too few does guarantee failure.
    Developing a coherent strategy focused on the right objectives is 
important, and hard to do. The country team in any normal American 
embassy (like the one in Sana) does not have the staff, resources or 
experience to do so. The limited American military presence in Yemen 
does not either. Despite years of talk about the need to develop this 
kind of capability in the State Department or elsewhere in Washington, 
it does not exist. It must be built now, and quickly.
    The President could do that by instructing Secretary of State 
Hillary Clinton to form a Joint Interagency Task Force on Yemen. Its 
mission would be to develop and implement a strategy to improve the 
effectiveness of the Yemeni government and security forces, reestablish 
civil order, and eliminate the al-Qaeda safe haven. Its personnel 
should include the Yemen country team, headed by the ambassador, and 
experts from other relevant U.S. agencies as well as sufficient staff 
to develop and execute programs. An immediate priority must be to 
provide security to American officials in Yemen that will enable them 
to travel around, even though there will not be American forces on the 
ground to protect them.
    This strategy will require helping Yemen defeat the Houthi 
insurgency and resolve the southern secessionist tensions without 
creating a full-blown insurgency in the south. It will also require a 
nuanced strategy to help the Yemeni government disentangle al-Qaeda 
from the southern tribes that now support or tolerate it.
    One of the key errors the Bush administration made in Afghanistan 
and Iraq was to focus excessively on solving immediate security 
problems without preparing for the aftermath. Too narrow a focus on 
improving counterterrorist strikes in Yemen without addressing the 
larger context of the terrorist threat growing in that country may well 
lead to similar results. If the Obama administration wants to avoid 
sending troops to Yemen, it must act boldly now.

    The Chairman. Appreciate it. Thank you very much.
    Dr. Nakhleh.

STATEMENT OF EMILE NAKHLEH, FORMER SENIOR INTELLIGENCE SERVICE 
   OFFICER, FORMER DIRECTOR OF THE POLITICAL ISLAM STRATEGIC 
 ANALYSIS PROGRAM, CENTRAL INTELLIGENCE AGENCY, ALBUQUERQUE, NM

    Dr. Nakhleh. Thank you, Mr. Chairman.
    I would like to add to what my two colleagues said about 
Yemen. And the first point I would like to make is that in 
order to understand the radical paradigm in Yemen, we need to 
understand the realities of the country, the regional context 
in which the country operates, and the fortunes of al-Qaeda and 
AQAP in Yemen.
    Yemen, as was correctly indicated, includes an 
authoritarian regime, a serious demographic problem, weak and 
ineffective government authority, nonexistent rule of law, 
tribal fiefdoms, sectarian conflicts in the north, dwindling 
resources, a Shia or Zaydi rebellion, and a secessionist 
insurgency in the south. It also has deep poverty, poor 
education, and high illiteracy. It has, also, a tradition--a 
long tradition of Islamic jihad and Islamic radicalism.
    The regime in Yemen is characterized by corruption, 
nepotism, repression, denial of human rights, a lukewarm 
commitment to reform, poor economic policies, and above all--
above all--alliances with shady characters and centers of power 
in order to survive and bequeath his rule to his family. The 
population of Yemen basically is large, young, poor, 
unemployed, poorly educated, antiregime, anti-United States, 
and is becoming more Islamized.
    The Chairman. Do you have a plus list there? [Laughter.]
    Dr. Nakhleh. Yes. I'm coming to that.
    The--radicalism in Yemen has operated in a regional context 
for years. Of course, as you correctly pointed out, Mr. 
Chairman, Yemen is close to Somalia, Bab el Mandeb, the Red 
Sea, the Arabian Gulf--the Arabian Sea and Persian Gulf. Al-
Qaeda is losing, on the global level, and therefore we see more 
local organizations emerge in Yemen and elsewhere.
    Now, what does this mean, and what to do about it? It seems 
to me that al-Qaeda central and AQAP would want us to declare 
Yemen a new front in the war on terror, hoping we would 
initiate massive military operations in that country. We should 
not, it seems to me, fall in that trap. ``Invasion'' of yet 
another Muslim country, especially one located in the Greater 
Land of the Two Holy Mosques, will be a propaganda bonanza for 
al-Qaeda and other radical organizations. Like the ``invasion 
of Iraq and Afghanistan'' large U.S. military operations in 
Yemen will be used to recruit new terrorists and jihadists.
    Defeating al-Qaeda and similar organizations requires, it 
seems to me, a two-pronged operation and a strategy. One is 
that radical AQAP operatives, leaders, and recruiting or 
enabling clerics might be--might not represent the entire 
network, but--neutralizing them from the scene will not 
eliminate the terror threat, but will go a long way toward 
weakening al-Qaeda and AQAP.
    The second is that the engagement strategy that was 
enunciated by President Obama in the Cairo speech should be 
pursued at a multilevel--pursued in a multilevel approach.
    So, in order to have a chance of success, we must view this 
envisaged relationship between us and the Muslim world as a 
long-term generational project which would require patience, 
expertise, a national commitment at the highest levels of our 
government. It will also have to involve our European allies 
and a number of modernist Muslim countries, particularly 
Indonesia and Turkey.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Nakhleh follows:]

        Prepared Statement of Dr. Emile Nakhleh, Albuquerque, NM

    turmoil in yemen: how understanding the challenges can help us 
              undermine al-qa'ida and the radical paradigm
    Good morning. Thank you, Mr. Chairman, for inviting me to share my 
thoughts about Yemen with you and members of the committee.
    In order to undermine the radical paradigm and disable the 
terrorist threat to the homeland, it is imperative that we understand 
the nexus between Yemen and both al-Qa'ida Central and al-Qa'ida in the 
Arabian Peninsula (AQAP) and the realities that have made Yemen a 
hospitable environment for global jihadis and terrorists. The 
challenges we face in Yemen unfortunately are not unique; in fact, they 
are similar to other challenges that we have encountered in other 
countries and regions in which Al-Qa'ida and its affiliates have found 
a safe haven. We need to be cognizant of these challenges in order to 
counter al-Qa'ida.
    The threat is not new, and Islamic radicalism in Yemen goes back 
many years. This threat did not develop with the failed terrorist plot 
on Christmas Day, nor will it end with putting him away. Furthermore, 
the terrorist threat in Yemen cannot be viewed in isolation. We should 
analyze it in at least three different but inter-related contexts: the 
domestic realities of Yemen; the regional Arab Islamic environment; and 
the changing global reach of al-Qa'ida.
    Please allow me to say a few words on each of the three contexts.
Yemen
    The country possesses all the factors that often drive radicalism 
and extremism, including an authoritarian regime; a serious demographic 
problem; weak and ineffective government authority; nonexistent rule of 
law; tribal fiefdoms and jealousies; sectarian conflicts; dwindling 
resources; a Shia (Zaydi) rebellion in the north and secessionist 
insurgency in the South; deep poverty; poor education; high illiteracy; 
and a long tradition of Islamic jihad. Yemen is a state at risk.

  <bullet> Because of rampant lawlessness and weak governance, numerous 
        radical tribal clerics who act as radicalizers, trainers, and 
        recruiters roam the countryside in relative freedom.

    Regime. Ali Abdallah Saleh's regime has long been characterized by 
corruption, nepotism, repression, denial of human rights, a lukewarm 
commitment to reform, poor economic policies, and above all the 
willingness to make alliances with shady characters and centers of 
power in order to survive and bequeath his rule to his family.

  <bullet> Saleh's son, Ahmad, groomed to become the next President, 
        heads the country's Republican guard and Special Forces. His 
        three nephews--Amar, Yahya, and Tarek--hold key national 
        security positions and the Presidential Guard. Saleh's half 
        brother, Muhammad Saleh al-Ahmar, heads the air force. He has 
        consolidated his control over the country through his family 
        and has made Yemen a ``Family, Inc.''
  <bullet> Saleh's ``alliances'' with different tribal chiefs and 
        radical Islamic centers of power and his use of coercion and 
        cooptation have been designed to keep his regime in power. As 
        the income from oil dwindles, Saleh's influence over tribal 
        chiefs is receding and his authority beyond San'a is waning. 
        Government authority beyond the capital is ineffective and 
        almost nonexistent; tribal chiefs and centers of power are the 
        law in the provinces.
  <bullet> Equally critical, for Saleh the key threat has always come 
        from the Shia rebellion in the north and the secessionist 
        Movement in the South. He has viewed Islamic radicalism and al-
        Qa'ida as a manageable threat he could contain and make deals 
        with. He has believed for many years that al-Qa'ida's strategic 
        goal has been to topple the Al Saud regime but not his. 
        According to a Yemeni academic, ``The Saudis are the real prize 
        for al-Qa'ida, Yemen is the platform.''
  <bullet> Saleh's cynical use of radical Sunni Islamic ideology in 
        recent years to combat the other internal threats (for example, 
        the Houthis in the north and the secessionist movement in the 
        South) has inadvertently helped spread the Wahhabi Islamization 
        in parts of Yemeni society, which made it a hospitable 
        environment for radicalism and al-Qa'ida supporters. The 
        Islamic political party, Islah, which has worked with Saleh 
        previously against internal challenges has lost confidence in 
        Saleh's leadership and is turning against him.
  <bullet> Saleh's legendary ability to juggle the different forces and 
        ideological centers in Yemen in the past 30 years to maintain 
        his hold on power has run its course. Hitching his wagon to 
        ``America's war against al-Qa'ida'' would not stabilize his 
        regime or keep Yemen from descending into chaos.

    Demographics. Yemen's demographics present another discouraging 
picture.

  <bullet> Almost half of Yemen's 24 million total population is under 
        16 years old. Yemen has one of the highest rates of population 
        growth in the world (3.45 percent).
  <bullet> Yemen suffers from deep poverty--unemployment hovers around 
        35 percent, and almost half the population is below the poverty 
        line. The rate of economic growth is below 3 percent and the 
        rate of inflation is around 18 percent. Unemployment is even 
        higher among the young.
  <bullet> Like other states at risk, Yemen's population is large, 
        young, poor, unemployed, poorly educated, antiregime, and 
        becoming more Islamized. The old traditional social contract, 
        which allowed the regime a wide leeway to rule in lieu of state 
        support for the safety and well-being of the citizens, has all 
        but disappeared. Literacy is barely 50 percent.
  <bullet> If demographic, economic, and political trends continue, it 
        is not unthinkable to see Yemen become a failed state in the 
        next 3 years.

    Islamic Radicalism. As a country and a seafaring people, Yemen has 
had a long experience with Islamic movements, Islamic activism, and 
Islamic radical ideologies. In fact, Yemen and Islamic activism have 
intermingled since the early days of Islam in the seventh century.

  <bullet> Yemen's Islam over the centuries has consisted of Sunnis 
        belonging to the relatively moderate Shafi'i School of 
        jurisprudence and of Zaydi Shia, especially in the north. 
        Yemen's Islam has on many occasions been in the forefront of 
        the fight against perceived unjust rulers and other enemies of 
        Islam.
  <bullet> Much of Yemen's Islamic militancy in past decades emerged 
        among the tribes in rural provinces, including in Hadramaut--
        the ancestral home of Usama Bin Ladin.
  <bullet> Wahhabi and other radical ideologies--Sunni and Shia--began 
        to spread in Yemen in recent decades and to spearhead the 
        struggle against domestic and regional rulers and against 
        Western interests, policies, and personnel--the so-called near 
        and far enemies.
  <bullet> In the past three decades, Yemen exported many of its youth 
        to do jihad in the name of Islam in Southeast Asia, 
        Afghanistan, Iraq, Saudi Arabia, and other parts of the gulf.
  <bullet> Numerous Muslim youth and activists from Southeast Asia, 
        especially from Indonesia, have been radicalized in Yemen 
        through education and training at conservative and radical 
        institutions.
  <bullet> Activists in Yemen--Islamists and traditional secularists, 
        including socialists, Marxists, Ba'thists, and Arab 
        nationalists--no longer believe that gradual reform and change 
        are possible from within through peaceful means. More and more 
        groups and movements, including Islamic radicals and 
        extremists, are turning to violence as the only way to wrest 
        power from the regime and consolidate their own power over 
        parts of the country.

    Radical Salafism. In the past 5 years, Yemen has witnessed the 
emergence of a new brand of Salafi ideology that offers a conservative, 
rigid, intolerant, and exclusivist interpretation of the Koran and the 
Hadith.

  <bullet> This intolerant ideology has spread in countries struggling 
        with youth bulges and weak economies, including Yemen, Egypt, 
        Palestine, Pakistan, Lebanon, Iraq, Morocco, Sudan, Chad, 
        Somalia, Afghanistan, and parts of Saudi Arabia and the Arab 
        states of the Persian Gulf.
  <bullet> The Salafi ideology shuns politics and has been critical of 
        Islamic political parties for participating in elections. Such 
        parties--for example, the Muslim Brotherhood, Hamas, Justice 
        and Development in Morocco, Islamic Constitutional Movement in 
        Kuwait, AKP in Turkey, PAS in Malaysia, and Hizballah--have 
        strongly rejected the Salafi ideology for its religious 
        rigidity.
  <bullet> Salafists in Yemen, as in other Muslim countries, have 
        cooperated closely with al-Qa'ida jihadists against existing 
        regimes and their close association with the United States. 
        Salafis have accused the US of waging a war on Islam.
  <bullet> Saleh, like some other authoritarian regimes, has cynically 
        used the Salafi ideology to weaken established Islamic 
        political parties--for example, the Islah Party--and other 
        antiregime movements, including the Houthi rebellion and the 
        Movement of the South.
  <bullet> AQAP has indirectly benefited from the cozy regime-Salafi 
        relationship.

    The Houthi Shia Uprising. Yemeni Zaydi Shia (one of the three Shia 
branches in the world; the other two being the Twelvers and the 
Isma'ilis) have lived in Yemen and have managed to live peacefully with 
Sunnis and others in that country. Zaydis Shia imams ruled Yemen from 
the late nineth century until 1962; currently the Zaydis constitute 
approximately 40 percent of the population. Of all Shia factions, 
Yemeni Zaydis are the closest to Sunni Islam.

  <bullet> In recent years, however, the rise of radical Sunni 
        activism, especially with the return of Sunni Jihadists from 
        Afghanistan in the late 1980s and early 1990s, Zaydis began to 
        feel threatened by the anti-Shia radical Sunnis and Wahhabis.
  <bullet> Hussein al-Houthi, who was a member of the Yemeni Parliament 
        in the 1990s and is fiercely anti-Wahhabi and anti-al-Qa'ida, 
        started the uprising with his ``The Young Believers'' this past 
        year because of his objections to the Saleh regime, the pro-
        U.S. policies of the Saleh government, and the ascendant Sunni 
        radicalism.
  <bullet> In trying to crush the uprising, the regime has called on 
        the Saudi military for help and direct involvement in the 
        fighting. He has also enlisted Sunni radical groups to fight 
        what he has described as a pro-Iranian ``Shia'' movement. In 
        fact, pro-al-Qa'ida Yemeni radical Sunni figures, like Abd al-
        Majid al-Zindani, former head of the Islah Party and a close 
        ally of Bin Ladin, criticized the uprising as a ``sedition'' or 
        ``fitna.''
  <bullet> The Houthi uprising has become a proxy war between Saudi 
        Arabia and Iran. Houthi's antiregime stance, however, has found 
        resonance among Zaydi and non-Zaydi Yemenis, especially as the 
        regime's overwhelming force has been unable to crush the 
        uprising.

    Saleh's growing support of U.S. military actions against AQAP will 
likely weaken his position among Sunnis and undermine his efforts to 
fight the uprising in the north and the secessionist movement in the 
south. It is too soon, however, to predict how Saleh will solve this 
strategic dilemma. Two strategic questions come to mind:

  <bullet> First, will Saleh support the U.S. and fail to defeat the 
        domestic threats to his regime in the north and in the south or 
        will he pay only lip service to the fight against AQAP and 
        retain the support of the Sunnis?
  <bullet> Second, as the Houthi uprising continues, as Iran and Saudi 
        Arabia become more deeply involved in northern Yemen, and as 
        Yemeni Shia forge closer relations with other Shia groups in 
        the Arabian Peninsula--particularly in Saudi Arabia, UAE, 
        Bahrain, and Kuwait--will Saleh be forced to treat the uprising 
        as a regional issue rather than a purely domestic matter, and 
        will he abandon the fight against al-Qa'ida in order to regain 
        the upper hand domestically? Or has time simply run out on such 
        a calculation?

    Southern Movement. The new Yemen was created in 1990, following the 
collapse of the Soviet Union and the loss of the Marxist south's 
international patron, when the north (San'a) and the south (Aden) 
merged into one state. The ``republican'' north reflected a tradition 
of military authoritarianism, nationalism, and Islamism; the south's 
background was socialist, Marxist, and populist. Almost two decades 
since the merger, some people in the south still harbor the view that 
the union was rammed down their throats and that they are under 
``occupation'' by the ``Saleh family-run dictatorial north.''
    The merger faced its first shock in 1994 when army units from the 
``socialist South'' revolted against the ``corrupt, crony'' Saleh 
regime in the north. Saleh enlisted both the Saudis and the radical 
Salafi Islamists to fight the formerly Marxist forces and was able to 
crush the secessionist movement.

  <bullet> Saleh's tactical reliance on the Saudis and the radical 
        Salafis against his domestic enemies was the first in a series 
        of such entanglements. Such arrangements reflect Saleh's deeply 
        held view that the Wahhabi-Salafi ideology, the cornerstone of 
        the al-Qa'ida, is not a threat to him and that he could work 
        with activists and jihadists who hold these views.
  <bullet> That view was dealt a severe blow when in early 2009, Tariq 
        al-Fadhli, an Arab Afghan jihadist from the south, broke with 
        the Saleh regime and joined the ``Southern Movement'' and since 
        then he's become its leader.
  <bullet> Salafi jihadists, tribal leaders, and traditional 
        secularists in the south and across the country seem to be 
        coalescing in a jihadist front against Saleh, which does not 
        bode well for his ``one-man, family-run'' regime, particularly 
        at this juncture when he is under tremendous pressure from the 
        U.S. to support its counterterrorism war against AQAP.
Regional Context
    The counterterrorism war against AQAP in Yemen is now organically 
linked to regional issues, players, and developments. The 
regionalization and internationalization of this effort, much to 
Saleh's dismay, is no longer a domestic Yemeni affair, which Saleh 
could manipulate like pieces on a chessboard. The regional context 
comprises the following 10 components:

  <bullet> Growing U.S. military involvement--albeit so far by proxy--
        in the Middle East outside Iraq.
  <bullet> Saudi-Iranian military activity in the Arabian Peninsula and 
        on-going Iranian support of Sunni and radical Islamist groups 
        across the region.
  <bullet> Yemen's geostrategic linkages to the Horn of Africa, the 
        strategic Bab el-Mandab waterway between the Gulf of Aden and 
        the Red Sea, the Gulf of Oman, and the Persian Gulf.
  <bullet> A rising radical Salafi trend across parts of the Muslim 
        world.
  <bullet> The waning fortunes of al-Qa'ida Central and the franchising 
        of its terror operation into nations at risk, including Yemen, 
        Somalia, the Maghreb, and other places.
  <bullet> Continued Islamization of Arab politics.
  <bullet> Entrenched regime authoritarianism, corruption, nepotism, 
        and denial of human rights in many parts of the Middle East, 
        including in Yemen.
  <bullet> On-going anti-al-Qa'ida and anti-Taliban military operations 
        in Afghanistan and Pakistan.
  <bullet> Unresolved Israeli-Palestinian conflict and deepening misery 
        in Gaza.
  <bullet> Turkey's growing shift to the Arab Islamic south and 
        expanding involvement in Arab and Islamic issues.
Al-Qa'ida
    The good news on the counterterrorism front is that more and more 
Muslim thinkers, writers, and media editorialists are openly 
criticizing al-Qa'ida's violence and wanton terrorism. In fact, 2 days 
ago, a prominent U.K. Muslim group, ``Minhaj-ul-Quran,'' issued a 
lengthy fatwa (religious ruling) declaring suicide bombings, terrorism, 
and the killing of innocent civilians as ``absolutely against the 
teachings of Islam.''

  <bullet> Al-Qa'ida is losing the moral ethical argument it had 
        advanced previously, namely that the killing of innocent 
        civilians, including many Muslims, was justified in the defense 
        of Islam.
  <bullet> According to Arab and Muslim media analysis and reports, al-
        Qa'ida's inability to provide Muslim youth with jobs, 
        education, economic development, and women and human rights, 
        has plunged the organization in a crisis of legitimacy and 
        authority.
  <bullet> The recent formation of AQAP and its publicly promoted plots 
        out of Yemen do not mask the crisis in recruiting, fund 
        raising, and thinning bench of terror expertise that al-Qa'ida 
        Central is facing. Operations in Yemen might also indicate that 
        al-Qa'ida Central in the Afghanistan-Pakistan border region has 
        suffered under U.S. predator and other attacks.
  <bullet> President Obama's ``new beginning'' speech in Cairo June 4 
        of last year created a bounce in the Arab Muslim world about a 
        better future relationship between the United States and the 
        Muslim world, according to Arab and Muslim media reports.
  <bullet> According to John Brennan, the President's senior advisor on 
        counterterrorism, our values as a nation and our commitment to 
        justice, respect, fairness, and peace are the most effective 
        weapon we have in our arsenal to fight the forces of radicalism 
        and terrorism. In addition, bringing hope, educational promise, 
        and economic opportunity to the youth in Muslim societies is 
        the best defense against the false promises of death and 
        destruction promoted by al-Qa'ida and its affiliates.
  <bullet> Brennan's statement was a response to Muslim media reports 
        that the bounce from President Obama's conciliatory rhetoric 
        among Arabs and Muslims would be long-lasting if it were 
        followed by significant policy shifts on human rights, 
        political reform, democracy, war crimes, closing Guantanamo, 
        and by renewed efforts at the highest level to resolve the 
        Israeli-Palestinian conflict.
              what does this mean and what to do about it?
    Al-Qa'ida Central and AQAP would want the United States to declare 
Yemen a new front in the war on terror hoping we would initiate massive 
military operations in that country. We should not fall in their trap! 
``Invasion'' of yet another Muslim country, especially one located in 
the greater ``Land of the Two Holy Mosques,'' will be a propaganda 
bonanza for al-Qa'ida and other radical organizations. Like the 
``invasion'' of Iraq and Afghanistan, large U.S. military operations in 
Yemen will be used to recruit new terrorists and jihadists; the last 
thing we need to do is to inadvertently help energize al-Qa'ida and its 
affiliates.
    Al-Qa'ida and other radical and extremist groups will be present in 
many Muslim countries regardless of the fortunes of Al-Qa'ida Central. 
Al-Qa'ida and other ideologically like-minded groups will continue to 
pose a threat to Western countries and to the Homeland and to American 
interests and personnel overseas.

  <bullet> Regime behavior and policies in many Muslim countries--
        including authoritarianism, corruption, nepotism, and denial of 
        human rights--as well as social and economic realities have 
        inadvertently contributed to the rise of extremism in those 
        countries.
  <bullet> In Yemen as elsewhere, however, fighting and defeating these 
        groups cannot and will not be accomplished by the force of arms 
        alone.

    Defeating al-Qa'ida, AQAP, and similar terrorist groups requires a 
two-pronged long-term strategy.
    First, a continued, concerted effort to target and neutralize al-
Qa'ida leaders, operations, and training camps in Yemen and other 
countries where these leaders operate.

  <bullet> Radical AQAP operatives, leaders, and recruiting or enabling 
        clerics--including Nasir al-Wuhayshi, Sa'id al-Shehri, Qasim 
        al-Raymi, Hizam al-Mujali, and Anwar al-Awlaki--might not 
        represent the entire network and removing them from the scene 
        might not eliminate the terror threat, but neutralizing them 
        goes a long way toward weakening al-Qa'ida, AQAP, and their 
        affiliates.
  <bullet> Effective targeting operations require intensive collection, 
        analysis, and sharing of intelligence at home; transnational 
        intelligence cooperation among intelligence services; a long-
        term commitment in resources and personnel; blocking recruiting 
        on radical Web sites; and deep expertise in the radicalization 
        process as well as in Yemen and other Muslim societies.
  <bullet> Bilateral and transnational intelligence sharing can be most 
        effective in undermining al-Qa'ida and its affiliates in Yemen 
        and elsewhere when it is based on professionalism, good 
        tradecraft, genuine exchange of information, a strategic shared 
        interest in fighting al-Qa'ida, and a willingness to share 
        relevant and appropriate intelligence and information.
  <bullet> Several authoritarian regimes and security services, 
        unfortunately, in Yemen and elsewhere have used the fight 
        against terrorism as an excuse to muzzle peaceful, proreform 
        civil society institutions and to deny their peoples the right 
        to participate in the political process freely, openly, and 
        without harassment.

    Second, as President Obama and his senior counterterrorism advisor 
have said before and since the Christmas Day failed terrorist plot, 
U.S. national interest dictates that we engage broader segments of 
Muslim societies in an effort to delegitimize the radical paradigm and 
undercut the extremist message of al-Qa'ida. Such engagement should 
target Muslim communities and centers focusing on tangible initiatives 
in elementary and secondary education, microinvestment and economic 
development, political reform, public health, clean water, agriculture, 
and science and technology.
    Although we would continue to engage regimes for national security 
reasons, the broader engagement should involve indigenous, credible and 
legitimate religious and political civil society communities that are 
committed to the welfare of their societies and the well being of their 
citizens. In Yemen, the Islah Party and private associations in the 
San'a and Aden regions should be involved. The strategic goal of this 
engagement is to present Yemeni and other Muslim youth with a more 
hopeful future vision than the empty promises of al-Qa'ida.

  <bullet> Although some authoritarian regime, including Saleh of 
        Yemen, will object to such a broad effort by the United States, 
        our policymakers working in concert with our European allies 
        and a few moderate Islamic states will have to find ways to 
        convince skeptical regimes that engaging their nongovernmental 
        institutions will not necessarily undermine the country's 
        stability. On the contrary, such an engagement will likely 
        eradicate civil conflict and promote peaceful regime-society 
        relations.

    In order to have a chance of success, we must view the envisioned 
relationship between the United States and the Muslim world as a long-
term, generational project, which would require patience, expertise, 
and a national commitment at the highest levels of our government. It 
will also have to involve our European allies and a number of modernist 
Muslim states such as Indonesia and Turkey.
    In the past four centuries, Yemeni citizens, seafarers, and 
merchants have traveled to and settled in Indonesia. Their descendants 
have prospered in that country and attained senior positions in the 
Indonesian Government and economy as well as in Indonesia's two largest 
Islamic NGOs--Muhammadiyya and Nahdlatul Ulama. Many Indonesian Muslim 
families have maintained familial relations with their Yemeni relatives 
and have sent their teenage children to study Arabic and the Muslim 
religion in Islamic madrasas in Yemen.
    Turkey's resurgence as a key player in the Arab Muslim world could 
be a positive factor in promoting tolerance and moderation in Yemen and 
other Arab and Muslim countries. Recent polling data from several Arab 
countries shows that majorities of respondents view Turkey positively 
and favor its growing involvement in the region. In education, 
business, and civil society, Turkey offers a tangible proof of the 
compatibility of Islam and democracy and could work with indigenous 
NGOs in Yemen and elsewhere to promote a more tolerant and modernizing 
vision of Islam.
    Finally, now that we are directing our attention to Yemen and to 
fighting AQAP in that unfortunate country, we should not lose sight of 
the social factors that drive radicalism and of the regional context of 
Yemen. As the administration proceeds with implementing some of the 
principles enunciated by the President in the Cairo speech, 
policymakers will have to demonstrate to our citizens and to the global 
community that terrorism threatens Muslim and non-Muslim countries 
alike; that engaging Muslim communities serves our national interest; 
that the process might not show results for several years; and that it 
requires deep expertise and resources. The utilization of the full 
array of U.S. power and influence through diplomacy and other means 
complements the military in significant ways. Long-term engagement, if 
done smartly, selectively, and consistently, will help erode radicalism 
and discredit the recruiters of suicide bombers and the preachers of 
hate and terrorism.

    The Chairman. Thank you very much, Dr. Nakhleh. Appreciate 
it.
    Mr. Johnsen.

STATEMENT OF GREGORY JOHNSEN, PRINCETON UNIVERSITY, PRINCETON, 
                               NJ

    Mr. Johnsen. Thank you, Chairman Kerry.
    In order to fully understand the realities of political 
life in Yemen, I think one has to realize that the Yemeni state 
is beset by three distinct layers of conflict, and that these 
three layers will increasingly plague the country in the coming 
years. All of these layers, although they are distinct, are 
exacerbating one another in ways that aren't wholly knowable or 
predictable at this time.
    At the top we have a struggle for power among the elite. 
This is taking place out of sight and behind closed doors. In 
the middle are the trio of security crises that we've talked 
about here today: the resurgence of al-Qaeda, the al-Houthi 
insurgency, and the threat of southern secession.
    Underlying both of these challenges is, I think, a bedrock 
layer of what might be called ``structural challenges.'' This 
encompasses things like Yemen's rapidly dwindling oil reserves, 
its nearly depleted water table, chronic unemployment, poverty, 
explosive birthrate, rampant corruption, low literacy rate, and 
an antiquated infrastructure. The laundry list goes on and on.
    Yemen's many problems defy easy or quick solutions, and 
there's a limit both to the influence and the impact the United 
States, its allies, and regional partners can have on the 
country's future. Certainly, action must be taken. But, this 
action must be both considered and cautious. Yemen's problems 
did not arise overnight, and they will not be solved in a day. 
The odds are quite long against the type of success that will 
transform Yemen into a stable, durable, and fully democratic 
state. But, the costs of inaction or failure will be 
exceedingly high.
    Let me just say a word about al-Qaeda. I think the--in 
Yemen, we're long past the point of what I would call a ``magic 
missile solution'' to the al-Qaeda problem. Al-Qaeda is now 
much too strong and much too entrenched to be destroyed in the 
way it was in 2002, when the United States assassinated Abu Ali 
al-Harthi. Lapsed vigilance by both the United States and the 
Yemeni Government allowed al-Qaeda to rebuild and reorganize 
itself, essentially resurrect itself up from the ashes, and so 
what we're dealing with now is the second incarnation of al-
Qaeda, which has learned a great deal from its earlier 
mistakes.
    Al-Qaeda in Yemen is, as I mentioned, now much stronger 
than it has ever been in the past, and whether or not it 
realizes this, the United States is in a propaganda war with 
al-Qaeda in the Arabian Peninsula, and it's losing, and losing 
quite badly. Al-Qaeda's narrative, with the notable exception 
of suicide attacks within the country, is broadly popular in 
Yemen. It has put itself on the right side of nearly every 
issue, from local corruption to the case of Guantanamo to 
Palestine.
    One of the things that most stood out to me on a recent 
trip, in August 2009, was a statement by a Yemeni friend of 
mine who said he could no longer tell the difference between 
al-Qaeda in the mosques and al-Qaeda in the caves, and I think 
what should be of most concern for us here today is that, in my 
view, al-Qaeda in Yemen is the most representative organization 
in the country.
    As I mentioned, Yemen's many problems defy easy or quick 
solutions, and we should be honest with ourselves about the 
limited amount of influence and impact that the United States, 
its allies, and regional partners can have on Yemen's future. 
Much of the country's future will continue to remain beyond 
human engineering, and even a near-perfect strategy will leave 
too much to chance.
    In the absence of any easy or obvious solutions, Yemeni 
advisers and a surprising number of foreign experts are putting 
their faith in the country's blind ability to muddle through 
the multitude of challenges it's going to face in the near 
future. This belief is supported by an intimate knowledge of 
the past. Yemen, they claim, has seen much worse, and still it 
survives. But, such as argument, I believe, confuses history 
with analysis, and in Yemen, hope--and even desperate hope--is 
not really a strategy.
    Thank you very much.
    [The prepared statement of Mr. Johnsen follows:]

Prepared Statement of Gregory D. Johnsen, Ph.D. Candidate, Near Eastern 
              Studies, Princeton University, Princeton, NJ

                              introduction
    Thank you, Chairman Kerry, Senator Lugar, and members of the 
Foreign Relations Committee for inviting me here to speak to you today. 
I appreciate the attention this committee and Congress as a whole is 
paying to Yemen and the multitude of challenges that country is 
currently facing.
    Yemen is teetering on the brink of disaster but its problems, while 
extensive, are neither new nor unknown. They are, however, 
overwhelming. The numerous different crises are nearly debilitating in 
their totality.
    There are, simply put, too many problems of too severe a nature to 
deal with independently of one another or on a crisis-to-crisis basis. 
Instead Yemen and its challenges have to be understood and dealt with 
as a whole.
    In order to fully understand the realities of political life in 
Yemen one has to realize that the Yemeni state is beset by three 
distinct layers of conflict, only one of which is visible to outside 
observers, and that these three layers will increasingly plague the 
country in the coming years. All of these layers, while distinct, are 
exacerbating one another in ways that are not wholly knowable or 
predictable at this time.
    At the top is the struggle for power among the elite, which will 
take place out of sight, behind closed doors. In the middle is the trio 
of security challenges--
al-Qaeda, the Huthi rebellion and the threat of southern secession--
which the state is currently combating. Underlying both of these is the 
bedrock layer of what might be called structural challenges. This 
encompasses things like Yemen's rapidly dwindling oil reserves and its 
nearly depleted water table as well as chronic unemployment, poverty, 
an explosive birth rate, rampant corruption, low literacy rates, and an 
antiquated infrastructure.
    Yemen's many problems defy easy or quick solutions and there is a 
limit both to the influence and the impact that the United States, its 
allies and regional partners can have on the country's future. 
Certainly action must be taken, but this action must be both considered 
and cautious. Yemen's problems did not arise overnight and they will 
not be solved in a day. The odds are quite long against the type of 
success that will transform Yemen in a stable, durable, and fully 
democratic state, but the costs of inaction or failure will be 
exceedingly high.
                            i. elite rivalry
    In a country where his two immediate predecessors were assassinated 
within a year of each other, President Ali Abdullah Salih has survived 
31 years in power by maintaining a great deal of political dexterity 
and by surrounding himself with relatives, childhood friends, and close 
confidantes. The military and intelligence command structures resemble 
a Sanhan family tree. Both the style and the structure of his rule are 
now beginning to fracture.
    Yemen's economic straits means that he has less money to maintain 
his own patronage network as well as to play different factions off 
against one another as a way of keeping potential opposition groups 
perpetually dependent. Within his own Sanhan tribe the once strong 
bonds of loyalty are starting to show signs of strain.
    His oldest son and a quartet of nephews appear to be preparing for 
a post-Salih scramble for power, while another member of Sanhan, Ali 
Muhsin al-Ahmar, remains the most powerful military commander in the 
country in charge of the 1st Armored Division. The downside of doling 
out military and intelligence commands to relatives is that there is a 
tendency for them to use their troops as personal instruments. Salih's 
efforts to tilt the game in favor of his son by forcibly retiring well-
placed allies of al-Ahmar have created a great deal of animosity and 
anger within the ranks.
    Nor is the struggle just within the family. President Ali Abdullah 
Salih and other members of his family, which is often referred to as 
bayt al-Ahmar, after the name of his village, are all Zaydis. None, 
however, identify primarily as Zaydis, and indeed if they accepted all 
the teachings of traditional Zaydism they would be unacceptable as 
rulers.
    Another traditionally powerful family of 10 brothers--also known as 
bayt al-Ahmar--is also looking to turn its tribal and business muscle 
into political power. This family, which is unrelated to the 
President's family, is also Zaydi. Shaykh Abdullah al-Ahmar headed this 
family until his death from cancer in December 2007. He was also the 
paramount shaykh of the Hashid tribal confederation, Speaker of 
Parliament and head of the Islah Party. His sons have had difficulty 
inheriting the full mantle of his leadership, and no one person has 
been able to consolidate the same amount of power that Shaykh Abdullah 
was able to command. His eldest son, Sadiq, was elected to succeed him 
as Shaykh ma-shaykh (paramount Shaykh) of Hashid, while a younger son, 
Hamid, is the most politically astute and active of his 10 sons. This 
family, however, derives much of its power and prestige from its 
position within Hashid. It is also a favorite family of Saudi Arabia, 
who is quite active in supporting it financially. The members of this 
family self-identify more as tribesman from Hashid than they do as 
Zaydis, although it is impossible to be the former without also being 
the latter. Yemenis often speak of the contest for power between the 
two families, in a bit of Arabic pun, as a dispute between the two Bayt 
al-Ahmars.
    Shaykh Abdullah al-Ahmar and President Salih were never rivals in 
the traditional political sense that they were competing for the same 
constituency or even had the same political goals. Salih's Sanhan tribe 
is part of the Hashid confederation of which al-Ahmar was the shaykh 
ma-shaykh, while Salih is President of the republic of which al-Ahmar 
was a citizen. The two were bound to and dependent on each other in so 
many various ways that outright rivalry was precluded. Salih always 
supported al-Ahmar's candidacy for Speaker of Parliament even when his 
own party put forth a candidate, while al-Ahmar reciprocated by 
publicly backing Salih's Presidential bids regardless of whether or not 
Islah put forth a candidate.
    Even their names seem designed to confuse outsiders as to their 
complicated relationship. President Salih came from the village of Bayt 
al-Ahmar, and many of his prominent relatives and comrades--Ali Muhsin, 
Muhammad Abdullah and Ali Salih--continued to use al-Ahmar as a 
surname. For those with little experience in the country the result was 
an obscure jumble of similar names. Untangling the threads of which al-
Ahmar belonged to which family was a task few had patience for.
    This delicate balance of power has not been maintained in the wake 
of al-Ahmar's death, and now the rivalry between the two Bayt al-Ahmars 
is an open source of conflict in the country. The President has, for 
the moment, successfully co-opted the two youngest brothers into his 
security detail, but maintaining such an advantage will be increasingly 
difficult. In the midst of all this familial bickering the country 
continues to dissolve into semiautonomous regions and various 
rebellions.
    It would be a mistake to judge the political scene on either 
electoral results or political affiliation. Neither is an accurate 
barometer of the political reality. The personalized networks of 
patronage are a much more accurate means of deciphering political 
loyalty. Generally speaking, western observers tend to ascribe more 
importance to political parties than they actually warrant. Instead, it 
is best to think in terms of power blocs and patronage networks.
                        ii. security challenges
A. Al-Qaeda
    I will begin with a word of caution: We are long past the point in 
Yemen of a magic missile solution to the al-Qaeda problem. Al-Qaeda is 
now too strong and too entrenched to be destroyed like it was in 2002, 
when the United States assassinated Abu Ali al-Harthi. Lapsed vigilance 
by both the United States and Yemeni Government allowed al-Qaeda to 
reorganize and rebuild itself; to essentially resurrect itself up from 
the ashes of its initial defeat.
    Al-Qaeda in Yemen is now stronger than it has ever been in the past 
and whether it realizes it or not the United States is in a propaganda 
war in Yemen with
al-Qaeda and it is losing and losing badly. Al-Qaeda's narrative--with 
the notable exception of suicide attacks within the country--is broadly 
popular in Yemen. It has put itself on the right side of nearly every 
issue.
    At the same time U.S. policy toward Yemen has been a dangerous 
mixture of ignorance and arrogance. Its continued insistence on seeing 
the country only through the prism of counterterrorism has induced 
exactly the type of results it is hoping to avoid. By focusing on al-
Qaeda to the exclusion of nearly every other threat and by linking most 
of its aid to this single issue, the United States has ensured that it 
will always exist.\1\
---------------------------------------------------------------------------
    \1\ Gregory D. Johnsen, ``Welcome to Qaedastan,'' Foreign Policy, 
January/February 2010. See also: Gregory D. Johnsen, ``The Expansion 
Strategy of al-Qa'ida in the Arabian Peninsula,'' CTC Sentinel, 
September 2009, pgs. 8-11.
---------------------------------------------------------------------------
The First Phase: 2001-2003
    Al-Qaeda has regrouped and reorganized itself in Yemen. This is not 
the result of U.S. successes elsewhere, but rather the result of U.S. 
and Yemeni failures in Yemen.
    There have been two distinct phases of the war against al-Qaeda in 
Yemen. The first of which ran from October 2000-November 2003, while 
the second and current phase of the war began in February 2006 with the 
prison break of 23 al-Qaeda suspects. In between these two phases there 
was an interlude of a little over 2 years in which it appeared as 
though al-Qaeda had largely been defeated in Yemen.
    But instead of securing the win, both the U.S. and Yemeni 
Governments treated the victory as absolute, failing to realize that a 
defeated enemy is not a vanquished one. In effect, al-Qaeda was crossed 
off both countries' list of priorities and replaced by other, seemingly 
more pressing concerns. While the threat from al-Qaeda was not 
necessarily forgotten in 2004 and 2005 it was mostly ignored. This 
lapse of vigilance by both the United States and Yemen, I believe, is 
largely responsible for the relative ease that one of Osama bin Laden's 
former secretaries had in rebuilding
al-Qaeda in Yemen in the wake of his escape from prison.
    The roots of al-Qaeda's involvement in Yemen predate by nearly a 
decade the September 11 attacks, but it was only those attacks and the 
implicit threat of U.S. retaliation that finally compelled the Yemeni 
Government to take the fight to al-Qaeda operatives in the country. 
Yemen's initial support for many returning Afghan Arabs, and the refuge 
it provided them when they were banned from returning to their home 
countries, eventually took its toll on the country when the USS Cole 
was attacked in October 2000. The attack killed 17 U.S. sailors, and 
caused insurance rates for the port of Aden to skyrocket, resulting in 
a diplomatic and economic crisis for the Yemeni Government.
    Following the attack on the USS Cole in 2000 and particularly after 
the September 11 attacks in 2001, Yemen went out of its way to 
demonstrate its support for the war against al-Qaeda. For President 
Salih and others in the Yemeni Government there was a distinct desire 
to avoid making the same mistakes it made in 1990 when it served on the 
U.N. Security Council. Yemen paid a heavy price--both politically and 
economically--for its failure to support the United States against Iraq 
in the buildup to the first gulf war.
    Motivated by fear and worried that if it did not take serious and 
significant steps someone else would, the Yemeni Government began 
arresting anyone it suspected of harboring sympathies for al-Qaeda. Men 
who had spent time in Afghanistan, particularly those that returned to 
Yemen in the weeks surrounding the attacks were obvious targets, but 
the dragnet quickly expanded to include young men deemed to be security 
threats in governorates across the country. Within months Yemen's jails 
were full of hundreds of suspects many of whom the government had 
little if any evidence against. These men were tossed in security 
prisons with other more experienced fighters who did much to radicalize 
their younger more impressionable fellow inmates in the shared cells. 
This problem was largely overlooked at the time--what mattered was the 
moment and preventing any more immediate attacks--but this short-term 
solution would be one that would come back to haunt both Yemen and the 
United States throughout multiple phases of the war against al-Qaeda.
    For the Yemeni Government that was the strategy: corral as many 
people as it could in the hopes that the United States would not 
attack. It was simple, brutal, and not at all sustainable, but at least 
in the short term it did exactly what it was designed to: prevent an 
American attack. In retrospect it seems clear that the United States 
was never going to strike Yemen, but in those early days no one knew 
what a wounded and enraged United States was going to do.
    The problem for the United States in Yemen is how to separate the 
al-Qaeda members out from those who only love jihad and work for the 
establishment of Shari'a law. Because if the United States expands the 
war to include both--and it is incredibly easy to do so, the extension 
makes sense even--then it will end up fighting most of the country. It 
is a dilemma that in the early days of the war was never understood and 
now, when it is understood, never solved.
    The overreaction of governments like Yemen, largely as a result of 
U.S. pressure, arresting nearly everyone it could link to al-Qaeda, 
with or without evidence, did not reduce radicalization but had the 
opposite effect. Young men left Yemen's security prisons more radical 
than when they were initially incarcerated. Many of these men were 
prepared for recruitment by their time in prison. The groundwork in 
numerous cases was not done not by al-Qaeda but rather by the 
government, which made these men tempting targets when they were 
eventually released.
    During a November 2001 visit to Washington, President Salih made 
sure that the United States knew what side his country was on. Yemen 
followed Salih's words with actions, arresting anyone it suspected of 
harboring sympathy for al-Qaeda. It also worked closely with U.S. 
intelligence services, coordinating the November 2002 strike on al-
Qaeda's head in Yemen, Abu Ali al-Harithi, which was conducted by an 
unmanned CIA drone.
    But this attack was the high-water mark of U.S.-Yemeni cooperation, 
as a Pentagon leak, destroyed the cover story on which both countries 
had agreed. The United States, it seems need a victory in the war on 
terror, and the assassination of an al-Qaeda leader was too good to 
pass up. Yemen, quite rightly, felt as though it had been sold out to 
domestic political concerns. Salih paid a high price domestically for 
allowing the United States to carry out an attack in Yemen, and it took 
more than a year for the government to publicly admit that it had 
authorized Washington to act.
    The United States was still paying the price for hubris a year 
later, in November 2003, when Yemen captured Muhammad Hamdi al-Ahdal, 
al-Harithi's replacement. Instead of being granted direct access to the 
prisoner, U.S. officials were forced to work through intermediaries. 
With the group's leadership dead or in jail, its infrastructure largely 
destroyed and the militants still at large more attracted to the 
fighting in Iraq than a dying jihad at home, al-Qaeda looked to be 
largely defeated.
    It is probably misleading to talk about al-Qaeda in Yemen from 
2001-2003 as if it was a coherent organization. Certainly there were 
al-Qaeda members in the country and these men had both motivation and 
weapons but they lacked the infrastructure and leadership to compose 
the type of fully formed strategy that their colleagues in Saudi Arabia 
were developing at the same time. In Yemen, al-Qaeda is more accurately 
described as individuals and groups of individuals, who began reacting 
against government pressure. The Yemeni Government initiated the fight 
and al-Qaeda was largely unprepared to carry out the type of campaign 
that it would need to in order to be successful in Yemen. Its members 
had to readjust to Yemen's changing environment and organize on the 
run. The threat they posed at the time was limited; they were able to 
plan and launch attacks, but these tended to be narrow in scope and 
scale and impossible to build upon given the lack of any organizational 
direction. Instead of a sustained campaign of attacks that targeted 
government and Western interests throughout the country, al-Qaeda 
operatives were only able to carry out a series of one-off attacks that 
seemed more worrying than they actually were.
    For Yemen, al-Qaeda and Islamic militancy has always been a largely 
Western problem that affects the country indirectly, but is nowhere 
near as pressing as the uprising in the north or threats of secession 
from the south. The latter are security issues that directly threaten 
the survival of the regime--existential threats--while al-Qaeda, at 
least in Yemen's calculus, does not.
    Throughout 2004, both Yemen and the United States slowly began to 
act as if the threat from al-Qaeda had been neutralized. Yemen became 
increasingly more occupied in turning its limited resources toward 
putting down the Huthi revolt in and around the northern governorate of 
Sa'dah and implementing bitter economic reforms that led to riots and 
widespread dissatisfaction. On the U.S. side, there was a lack of clear 
policy goals. The United States lost interest in the country, as 
illustrated by aid to Yemen in 2004-2007, and what little attention the 
United States was paying to the country was directed toward things such 
as anticorruption reforms and encouraging the country to take steps 
toward becoming a fully formed democratic republic as part of the Bush 
administration's attempt to remake the Middle East.
    During a November 2005 trip to the United States, Salih was told 
that the Yemeni Government was being suspended from a U.S. aid program. 
The suspension shocked Salih, who was under the impression that he was 
going to be rewarded for Yemen's help in the war against al-Qaeda. 
Instead he was stung by the loss of $20 million in aid. The following 
day, his anger was compounded, when the World Bank told him that it was 
cutting aid from $420 to $280 million. Both cuts were attributed to 
rampant corruption within the Yemeni Government.
The Second Phase: 2006--Present
    Mistakes of policy and vigilance could be concealed when al-Qaeda 
was largely dormant in the country. But that dynamic changed with the 
February 2006 prison break, when 23 al-Qaeda suspects tunneled out of 
their two-room prison cell into a neighboring mosque where they 
performed the dawn prayers before walking out the front door to 
freedom.
    Among the escapees, were Jamal al-Badawi and Jabir al-Banna both of 
whom are on U.S. most-wanted lists. Consequently, the United States put 
a great deal of pressure on Yemen to track both men down. But, as is 
often the case, it was not the people the United States was worried 
most about that caused the biggest problems, rather it was those it 
knew too little about that proved to be the most dangerous.
    Instead, of al-Badawi and al-Banna it would be Nasir al-Wahayshi 
and Qasim
al-Raymi that subsequently proved to be problematic. Seven of the 
original 23 escapees have been killed (including one by U.S. shelling 
in Somalia), while the rest have either been recaptured or 
surrendered--although there are some conflicting reports.\2\
---------------------------------------------------------------------------
    \2\ Gregory D. Johnsen, ``Tracking Yemen's 23 Escaped Jihadi 
Operatives--Parts I and II,'' Jamestown Foundation, September 27 and 
October 11, 2007.
---------------------------------------------------------------------------
    Nasir al-Wahayshi, the current head of al-Qaeda in Yemen, is a 34-
year-old Yemeni from the southern government of Abyan. He spent time in 
one of Yemen's religious institutes before traveling to Afghanistan in 
the late 1990s, where he eventually became one of Osama bin Laden's 
assistants. He fought at the battle of Tora Bora before escaping over 
the border into Iran, where he was eventually arrested and extradited 
to Yemen in November 2003. His presence along with that of his deputy, 
Qasim al-Raymi, as the commanders of al-Qaeda illustrate what I think 
is one of the more worrying factors about the current version of al-
Qaeda in Yemen--namely, how representative it is.
    Al-Qaeda is the most representative organization in Yemen. It 
transcends class, tribe, and regional identity in a way that no other 
organization or political party does. Nasir al-Wahayshi and others 
within the organization have proven particularly talented at creating a 
narrative of events that is designed to appeal to a local audience. 
Something both the United States and Yemen have been incapable of 
doing. In a sense, both have ceded the field of debate and discussion 
to al-Qaeda.
    Since its reorganization following a February 2006 prison break al-
Qaeda in Yemen has went through three phases.
    1. Rebuilding in Yemen: 2006-2007.
    2. Relevancy in Yemen: 2008 campaign in Yemen.
    3. Regional Franchise: 2009.
    In each phase, al-Qaeda has publicly articulated its goals and then 
worked to square its actions with its rhetoric.
2006-2007
    Rebuilding the organization in Yemen after years of setbacks and 
neglect was not easy. The first attack, a dual suicide attack on oil 
and gas facilities in Marib and Hadramawt on the eve of the 2006 
Presidential election did little damage. The mastermind of the attack, 
Fawaz al-Rabi'i, was killed less than a month later in a shootout with 
Yemeni security forces. In many ways, al-Rabi'i's death paved the way 
for one of his fellow escapees, Nasir al-Wahayshi, to assume control of 
the organization in Yemen.
    Al-Wahayshi, who had served as a secretary to Osama bin Laden in 
Afghanistan, utilized his personal connections to this earlier 
generation of al-Qaeda leaders to build a following after his escape 
from prison. In late June 2007, Qasim al-Raymi posted an audiotape to 
Islamists forums and jihadi chatrooms stating that Nasir al-Wahayshi 
had been selected as the new amir, or commander, of al-Qaeda in Yemen. 
The message also served as a warning to the older generation of al-
Qaeda militants in Yemen, who had come to a tacit nonaggression pact 
with the government.\3\
---------------------------------------------------------------------------
    \3\ Gregory D. Johnsen and Brian O'Neill, ``Yemen Attacks Reveals 
Struggle Among al-Qaeda's Ranks,'' Terrorism Focus, 4 (22) July 10, 
2007.
---------------------------------------------------------------------------
    This agreement, the message stated, was tantamount to a 
``treasonous alliance with tyrants.'' The Yemeni Government had managed 
to convince the militants not that their beliefs are incorrect, but 
rather that they were hurting their own cause and base of operations by 
acting violently within the borders of the state.\4\ Days later a 
second message was released, this time aimed at the Yemeni Government, 
demanding, among other things, the release of al-Qaeda members in 
Yemeni prisons. The message also pledged revenge against those 
responsible for the assassination of al-Harithi in 2002. Already, in 
March 2007, al-Qaeda had assassinated Ali Mahmud al-Qasaylah, the Chief 
Criminal Investigator in Marib, for his alleged role in the 
assassination.\5\
---------------------------------------------------------------------------
    \4\ Kathy Gannon, ``Yemen Employs New Terror Approach,'' Associated 
Press, July 4, 2007.
    \5\ Gregory D. Johnsen ``Is al-Qaeda in Yemen Regrouping?'' 
Terrorism Focus, 4 (15) May 22, 2007.
---------------------------------------------------------------------------
    Less than 2 weeks after al-Raymi's first message, on July 2, al-
Qaeda struck again. This time a suicide bomber attacked a tourist 
convoy in Marib, killing 8 Spanish tourists and two Yemeni drivers. One 
month later, on August 4, Yemeni special forces launched an early 
morning raid on an al-Qaeda safe house in the Marib and al-Jawf border 
region, killing four al-Qaeda militants, including one suicide bomber 
in training. The other three men had been implicated in both the 
assassination of al-Qasaylah and the attack on the Spanish tourists.\6\ 
Publicly al-Qaeda reacted to the strike with silence, but privately it 
was working under al-Wahayshi's leadership to rebuild and plan for the 
future.
---------------------------------------------------------------------------
    \6\ Gregory D. Johnsen ``Yemen Faces Second Generation of Islamist 
Militants,'' Terrorism Focus 4 (27) August 14, 2007.
---------------------------------------------------------------------------
2008
    In January 2008, it released the first issue of ``Sada al-Malahim'' 
(The Echo of Battles), its bimonthly online journal. Once again, the 
public release was followed within days by another attack, this time on 
group of Belgian tourists in Hadramawt, which left two of them dead 
along with two Yemeni drivers.\7\ Little more than a month later, on 
February 24, a previously unknown group calling itself The al-Qaeda 
Organization of Jihad in the Arabian Peninsula: The Soldiers Brigades 
of Yemen released a one-page statement on al-Ikhlas, a prominent 
password-protected jihadi forum, taking credit for the attack on the 
Belgian tourists as well as the assassination of Qasaylah and the 
suicide attack on the Spanish tourists.\8\
---------------------------------------------------------------------------
    \7\ Gregory D. Johnsen, ``Al-Qaeda in Yemen's 2008 Campaign,'' CTC 
Sentinel, April 2008, pgs. 1-4. See also: Gregory D. Johnsen, ``Attacks 
on Oil Industry are First Priority for al-Qaeda in Yemen,'' Terrorism 
Focus 5 (15) February 5, 2008.
    \8\ Ibid; see also: The Soldiers Brigades of Yemen, ``Statement 1'' 
www.al-ekhlaas.net, February 24, 2008. Al-Ikhlas, of course, was hacked 
on September 10, 2007, and its archives are now unavailable. I do, 
however, have hard copies of all 13 of the Soldiers Brigades of Yemen's 
statements.
---------------------------------------------------------------------------
    Initially, some intelligence officers in Yemen thought the group 
was a fiction that existed only on the Internet to steal credit from 
al-Wahayshi's group. Other Western analysts hypothesized that the 
Soldiers Brigades of Yemen had split from al-Wahayshi's group over 
strategic differences.\9\ Both were wrong.
---------------------------------------------------------------------------
    \9\ This theory of the split has been most forcefully expressed by 
Nicole Strake of the Gulf Research Center. See, for example, Nicole 
Strake, ``Al-Qaeda in Yemen Divided but Dangerous,'' The Peninsula, 
June 2008.
---------------------------------------------------------------------------
    Over the course of the spring and summer of 2008 it emerged that 
the Soldiers Brigades of Yemen were merely a semiautonomous group of 
cells with some operational independence under the direct control of 
Hamza al-Qu'ayti, while still maintaining its allegiance to al-
Wahayshi.\10\
---------------------------------------------------------------------------
    \10\ Gregory D. Johnsen, ``Assessing the Strength of al-Qa'ida in 
Yemen,'' CTC Sentinel, November 2008, pgs. 10-13.
---------------------------------------------------------------------------
    In March 2008, al-Qaeda in Yemen released the second issue of 
``Sada al-Malahim.'' This issue, like the previous one, included a 
number of articles and interviews, but it also announced that the 
organization was changing its name from
al-Qaeda in Yemen to the al-Qaeda Organization of Jihad in the South of 
the Arabian Peninsula.
    A statement of responsibility posted to al-Ikhlas followed all of 
the attacks during the 2008 campaign, many of which were minor. On 23 
July 2008, the Soldiers Brigades of Yemen posted an audiotape to al-
Ikhlas threatening more attacks if al-Qaeda prisoners in Yemen's al-
Mansurah prison in Aden were not released. The speaker on the tape 
identified himself as Hamza al-Qu'ayti. Two days later, he made good on 
his threat when a suicide bomber attacked a military compound in 
Sa'yyun. Yemen responded weeks later when, acting on a tip from a local 
resident, it surrounded a suspected al-Qaeda safe house in Tarim. The 
ensuing shootout resulted in the deaths of five al-Qaeda members, 
including al-Qu'ayti, and the arrest of two others. The raid was widely 
seen as a much-needed victory for Yemen. It claimed that with al-
Qu'ayti's death it had killed the mastermind of the attacks that had 
been plaguing Yemen since the February 2006 prison break. To some 
degree, both the United States and the United Kingdom bought this 
story, as both relaxed travel restrictions to the country. 
Unfortunately, all three governments overlooked the localized nature of 
al-Qu'ayti's cell, which should have suggested a diffusion of strength 
for al-Qaeda in Yemen. Five members of the cell were from al-Mukalla, 
while the other two came from the neighboring towns of Shabwa and al-
Qatin.
    Al-Qaeda responded on September 17, which corresponded to Ramadan 
17 the anniversary of the Battle of Badr, with an attack on the U.S. 
Embassy in San'a, killing at least 19 people including the 7 attackers. 
Following the attacks, issues five and six of ``Sada al-Malahim'' were 
released.\11\ Both issues, but particularly issue six, show a strong 
Saudi influence and a marked increase in the quality of the religious 
scholarship in the journal. In my view, al-Qaeda in Yemen was the 
beneficiary of an influx of Saudi talent. In issue six it also began 
soliciting questions from its readership to which it said it would 
respond with fatawa (religious opinions) from its Shariah Committee. 
(Despite issuing some fatawa, it has since discontinued this practice.) 
This is a major mile marker along the organization's road to maturity. 
The journal also began to show itself adept at tapping into domestic 
Yemeni concerns, and using these to enhance its reputation as a truly 
representative movement with members from all regions and segments of 
society.
---------------------------------------------------------------------------
    \11\ The two issues appear to have been released together due to 
the loss of al-Ikhlas as a forum. When al-Ikhlas went down on September 
10, there was already a banner ad teasing the upcoming release of issue 
five of Sada al-Malahim. Following the loss of al-Ikhlas it took al-
Qaeda in Yemen another couple of months to regroup before it was able 
to publish both issue five and six on al-Faloja.net, with a short note 
apologizing for ``technical difficulties.''
---------------------------------------------------------------------------
2009
    In January 2009, the group announced that the Yemeni and Saudi 
branches of al-Qaeda were merging to form a single, unified 
organization to be known as AQAP. This merger, which effectively 
transformed al-Qaeda from a local chapter to a regional franchise, 
indicated the organization's desire for regional reach.
    In many ways this new regional organization, which goes by the name 
al-Qaeda in the Arabian Peninsula, was indicative of al-Wahayshi's 
growing ambition. Throughout the first couple of years of his 
leadership--2007 and 2008--he worked hard to create a durable 
organizational infrastructure that could survive the loss of key 
commanders, which is why even though someone like Hamza al-Qu'ayti was 
killed in August 2008, al-Qaeda was still able to launch an attack on 
the U.S. Embassy only a month later.
    The Christmas day attempt was the logical extension of AQAP's 
ambitions to date, but one that few believed the group to be capable of 
at the time. AQAP and its predecessor, al-Qaeda in Yemen, have quickly 
moved through the stages of development in their bid to be capable of 
such an attack. The attempt also illustrates the extent to which Nasir 
al-Wahayshi, the current amir of AQAP, has modeled not only his own 
leadership style on that of Osama bin Laden, his former boss, but also 
fashioned his organization's goals on the template constructed by bin 
Laden in Afghanistan.
    Throughout 2009, AQAP carried out a number of attacks that 
illustrated the group's growing ambition and capabilities. In March, it 
dispatched a suicide bomber who killed South Korean tourists in 
Hadramawt. Days later it struck again, attacking a convoy of South 
Korean officials sent to investigate the attack. Later that summer, in 
August, the group launched one of its most ingenious attacks, an 
attempted assassination of Saudi Arabia's counterterrorism chief and 
Deputy Minister of the Interior, Muhammad bin Nayif. The bomber, 
Abdullah Asiri, reportedly hid PETN explosives in his rectum as a way 
to avoid detection. That attack, of course, was eerily echoed by 
Abdumutallab's attempt on Christmas Day.\12\
---------------------------------------------------------------------------
    \12\ Gregory D. Johnsen ``AQAP in Yemen and the Christmas Day 
Attack,'' CTC Sentinel (Special Yemen Issue) January 2010, pgs. 1-4.
---------------------------------------------------------------------------
    AQAP learned from this initial failure with PETN. Many analysts 
believe that the reason Asiri's attempt was unsuccessful was that his 
body absorbed the majority of the blast--something the gruesome 
pictures of the bomb's aftermath also illustrate--which is why 
Abdumutalab hid the explosives in his underwear instead of inside his 
body.
    Saudi Arabia dodged another major strike in October 2009, when a 
roving police checkpoint stumbled across an al-Qaeda cell. The three 
al-Qaeda members had already made their way across the border into 
Saudi Arabia from Yemen when their Chevy Suburban was stopped at a 
checkpoint. One was driving and the other two were disguised as women 
in the back seat. The Saudi police unit had a female officer 
accompanying them and when she approached the car to inspect the 
women's identity the two individuals in the backseat--Ra'id al-Harbi 
and Yusif al-Shihri, a former Guantanamo Bay detainee and the brother-
in-law of Said al-Shihri, AQAP's deputy commander--opened fire. Both 
men were killed in the fighting while the driver was arrested and 
interrogated. His confessions led Saudi authorities to a number of 
other al-Qaeda operatives in the country.
    In the shadowy world of intelligence analysis too much often has to 
be pieced together from too little evidence, but the above account 
appears to be confirmed by the release of al-Harbi and al-Shihri's 
wills by AQAP in December 2009. The wills, which were recorded before 
the pair traveled to Saudi Arabia, appear to indicate that the pair was 
on a suicide mission.
    Shortly after the wills were released online, the United States and 
Yemen coordinate a trio of strikes against al-Qaeda targets in Yemen. 
It is still unclear what role the United States played in the strikes 
but, according to the New York Times, it was intimately involved in the 
operations.\13\ One target was reportedly an al-Qaeda training camp in 
the southern governorate of Abyan, although others have disputed that 
characterization. That raid, which likely involved U.S. firepower, 
killed a number of individuals, including al-Qaeda suspects as well as 
a number of women and children. The casualty numbers vary widely 
depending on the source, but Deputy Prime Minister for Defense and 
Security Affairs, Rashid al-Alimi told Members of Parliament on 
December 23 that an investigation was being conducted into the deaths 
of civilians.
---------------------------------------------------------------------------
    \13\ David E. Sanger and Eric Schmitt, ``Threats Led to Embassy 
Closings, Officials Say'' New York Times, January 3, 2010.
---------------------------------------------------------------------------
    It is debatable whether the civilian casualties could have been 
justified if the United States and Yemeni Governments had killed al-
Raymi--I would still argue they wouldn't and that it is a self-
defeating strategy that expands rather than limits the al-Qaeda threat 
in Yemen, but I do concede there is a debate here--but I don't think 
the casualties can be justified if al-Raymi escaped. There are already 
a slew of pictures of dead children, mangled infants and corpses on 
jihadi forums. This is not something the Obama administration wants to 
see underlined with a ``Made in the USA'' caption.
    Yemeni forces also conducted raids on two other al-Qaeda hideouts 
in and around San'a on December 17. In San'a, they arrested 14 
individuals they accused of providing material assistance to al-Qaeda. 
Northeast of the capital in the Arhab tribal region, Yemeni 
counterterrorism forces raided a suspected al-Qaeda safe house. The 
raid resulted in the deaths of three al-Qaeda suspects, including a 
former Guantanamo Bay detainee, Hani al-Sha'lan.\14\ But the target of 
the raid, Qasim al-Raymi, escaped the government's siege along with a 
fellow al-Qaeda suspect Hizam Mujali.
---------------------------------------------------------------------------
    \14\ ``Security Report Discusses the Details of Operations 
Targeting al-Qaeda,'' (Arabic) Mareb Press, December 27, 2009.
---------------------------------------------------------------------------
    Days later, on December 21, an al-Qaeda member later identified as 
Muhammad Salih al-Awlaqi returned to the scene of the strike in Abyan 
and gave a short, impromptu speech to a rally protesting the attack 
that Al Jazeera caught on video.
    Fighter planes, apparently acting on U.S. intelligence, tracked al-
Awlaqi back to his tribal region in Shabwa and attacked a position 
where he was believes to be hiding on December 22. The initial bombing 
raid was unsuccessful, but 2 days later another strike on the same 
position succeeded in killing al-Awlaqi as well as a handful of other 
al-Qaeda suspects. Subsequent rumors that the target of the attack was 
a leadership meeting between Nasir al-Wahayshi, Said Ali al-Shihri and 
Anwar al-Awlaqi appear to be unfounded and none of the three are 
believed to be dead.
    The next day, of course, Umar Faruq Abdumutallab attempted to bring 
down a plane over Detroit. The subsequent statement released by AQAP on 
December 28 claimed that the attempt was in retaliation for the week of 
strikes, which it claimed were the carried out by United States with 
Cruise missiles, but the chronology of Abdumutallab's travel make this 
more propaganda than fact.
    There is still much that is not known about Abdumutallab's time in 
Yemen. Not only where he went and who he spent time with but also 
whether he was a sort of trial balloon for AQAP or just the first of 
several bombers. For AQAP this was a relatively low-cost and low-risk 
operation. It did not send one of its own members, but rather someone 
who sought the group out and who was, from an organizational 
perspective, dispensable. One thing that may help shed some light on 
this subject is whether or not Abdumutallab recorded a will that he 
left with AQAP leaders in Yemen. But even if he did it is doubtful that 
the organization would release it given his failed attempt.
    AQAP has always welcomed attacks on U.S. interests anywhere in the 
world, but this was the first time the organization attempted to carry 
out an attack outside of the Arabian Peninsula. Even in the statement 
put out by AQAP claiming credit for the failed attack it focused on 
``expelling the infidels from the Arabian Peninsula,'' the group's 
stated raison d'etre. Although it did raise the rhetoric slightly, 
calling for ``total war on all Crusaders in the peninsula.''
    What this means for the future of the group is still far from 
clear. But one worry is that the reaction that the United States has 
had to the unsuccessful attack may induce AQAP to devote more time and 
resources to similar attempts in the future. This, however, is largely 
dependent on the group's resources. Certainly there are talented and 
innovative individuals working within the organization in Yemen and 
these tend to attract motivated students and recruits. This should be a 
cause for concern.
    The only thing that is known with any degree of certainty at this 
date is that the attempted Christmas demonstrates that AQAP's 
imagination matches its ambitions. Yemen responded by carrying out a 
strike on January 15, 2010, on two vehicles, which were believed to be 
carrying eight al-Qaeda suspects, including Qasim al-Raymi. Initially, 
the Yemeni Government reported that it had killed six of the militants, 
including al-Raymi, but a statement put out by AQAP on January 17 said 
that none of its members were killed although some had been wounded. 
AQAP version was corroborated by local press reports that claimed the 
AQAP fighters held a ``Thanksgiving'' dinner in Marib to celebrate 
escaping the strike.\15\
---------------------------------------------------------------------------
    \15\ ``Al-Qaeda Holds a Banquet in Marib,'' (Arabic) Mareb Press, 
January 17, 2010.
---------------------------------------------------------------------------
    The AQAP statement from January 17, in addition to warning people 
not to trust the Yemeni Government, also hinted at a major strike to 
come. This warning has also been expressed by Abdillah Haydar Shaya, a 
Yemeni journalist with good contacts within AQAP.\16\ The response, he 
says, will be an operation and not a statement. This is, of course, 
classic jihadi rhetoric--the proof will be in what you see and not what 
you hear--and for those with a long memory or who have been following 
Yemen for more than just the past 3 weeks this should sound eerily 
similar to what AQ in the South of the Arabian Peninsula (one of the 
precursors to the current organization) said after the death of Hamza 
al-Qu'ayti and four others in Tarim in August 2008. Of course, in 
September 2008 there was an attack on the U.S. Embassy in San'a.
---------------------------------------------------------------------------
    \16\ ``'Aidh al-Shabwani Present at Banquet,'' (Arabic) News Yemen, 
January 17, 2010.
---------------------------------------------------------------------------
    It is clear, at least to me, that al-Qaeda in Yemen is stronger now 
than it has ever been in the past. The organization is attracting more 
recruits than ever before and is growing increasingly more skilled at 
utilizing these new members.
    This is not to say that Yemen is in danger of falling to al-Qaeda 
or anything of that sort. Instead, as Yemen grows weaker and as 
government power recedes further and further back into urban areas, 
this opens up a great deal of space in which al-Qaeda can operate. In 
the first phase of the war against al-Qaeda, Yemen and the United 
States were working in concert and al-Qaeda was the top priority for 
both countries. This is no longer the case.
    Yemen is now preoccupied with the increasingly violent calls for 
secession from the south, threats of renewed fighting in the north and, 
most importantly, a faltering economy that makes traditional modes of 
governance nearly impossible.
Al-Qaeda has learned that the more chaotic Yemen is the better it is 
for al-Qaeda. And Yemen is in extremely bad shape.
    Let me conclude with a couple of observations about the differences 
between the first phase of the war and the second phase. For al-Qaeda, 
the first phase was largely a reactionary one. The Yemeni Government 
cracked down on al-Qaeda in the country; in many ways it initiated the 
fight. Al-Qaeda was largely unprepared to carry out the type of 
campaign that it would need to in order to be successful in Yemen. It 
had to organize on the run. This is no longer the case. The 
organization that al-Wahayshi is commanding, was built for exactly this 
type of war and now al-Qaeda is the one initiating the fight. Al-Qaeda 
learned some difficult lessons from the first phase of the war, while 
the United States and Yemen seem more prepared to fight the enemy al-
Qaeda was rather than the one that it has become.
B. Al-Huthi Conflict
Background
    There are three minority Shia sects in Yemen. The first and largest 
is known as the Zaydis, or Fiver Shia. Isma'ilis, or Seveners, and 
Twelver Shia, which is close to the type of Shi'ism practiced in Iran 
and Iraq, also exist in the country. The latter two groups are both 
numerically and politically negligible.
    The Zaydis, however, have a long and robust political tradition in 
Yemen, dating back to 893 when Yahya bin Husayn, or Imam Hadi ila al-
haqq, first arrived in northern Yemen. Initially, he was summoned to 
act as an arbiter in a tribal conflict. But eventually, following his 
second trip to Yemen in 897, he established himself as the imam with 
his headquarters in the northern city of Sa'dah, which remains a Zaydi 
stronghold today.\17\ The political and religious office that he 
instituted in Yemen would survive, in various forms, until the 1962 
revolution and the subsequent 8-year civil war in north Yemen. The 
civil war, which began as a palace coup, overthrew Muhammad al-Badr, 
the final imam of the Hamid al-Din dynasty in north Yemen.
---------------------------------------------------------------------------
    \17\ For more on the early history of the Zaydi Imamate in Yemen 
see Paul Dresch, ``Tribes Government and History in Yemen'' (New York, 
Oxford University Press, 1993) 167-173; also see Ali bin Muhammad al-
Alawi, ``Biography of al-Hadi ila al-haqq: Yahya bin Husayn'' (Arabic) 
(Beirut, Dar al-Fikr, 1981, 2nd edition).
---------------------------------------------------------------------------
    Following the bloodless coup that ousted the republic's first 
President in 1967, Abd al-Rahman al-Iryani was named President. Al-
Iryani was largely seen as a compromise figure. His village straddled 
what was understood to be the border between the Zaydi highlands and 
the Shafi'i lowlands, northern Yemen's two largest sects. The Shafi'is 
are, of course, a Sunni sect, but the difference between Sunni and Shia 
in Yemen is not as great as elsewhere. Much of this is the result of 
historical compromise. In the 18th century, Muhammad al-Shawkani, a 
Yemeni jurist, did much to incorporate Sunni teachings into the 
practice of Zaydism.\18\ Some scholars even referr to Zaydism as the 
``fifth school of Sunni Islam.'' \19\
---------------------------------------------------------------------------
    \18\ Bernard Haykel, ``Revival and Reform in Islam: The Legacy of 
Muhammad al-Shawkani'' (New York, Cambridge University Press, 2003).
    \19\ J. Leigh Douglas, ``The Free Yemeni Movement 1935-1962'' 
(Beirut, American University of Beirut, 1987) 7.
---------------------------------------------------------------------------
    President Ali Abdullah Salih, the late Shaykh Abdullah al-Ahmar, 
Ali Muhsin al-Ahmar and numerous other leading figures of contemporary 
Yemen are of Zaydi origins. Even Shaykh Abd al-Majid al-Zindani, who 
was designated a ``specially designated global terrorist'' by the 
United States in 2004, is a scion of a Zaydi family.\20\ But this 
identity is one of culture and tradition rather than a political 
allegiance. Relatively few Zaydis in contemporary Yemen identify as 
specifically Shia.\21\ Instead, a key distinction is between Hashimis, 
or descendants of the prophet, and non-Hashimis.\22\ In post-
revolutionary Yemen, the Hashimis have been largely excluded from power 
and many influential figures such as the late Qadi Ismail al-Akwa were 
actively anti-Hashimi.
---------------------------------------------------------------------------
    \20\ Gregory D. Johnsen, al-Zindani, Abd al-Majid, ``Biographical 
Encyclopedia of the Modern Middle East'' (Farmington Hills, MI, Thomson 
Gale, 2007).
    \21\ International Crisis Group, ``Yemen: Defusing the Saada Time 
Bomb,'' May 27, 2009, 7.
    \22\ In order to rule as an imam in Zaydi theology one must meet 14 
different criteria, including descent from the prophet through Ali and 
Fatima.
---------------------------------------------------------------------------
    Following the 1990 unification of the YAR and PDRY, known more 
colloquially as North and South Yemen respectively, a number of Zaydis 
formed a political party, Hizb al-Haqq. The party's charter adhered to 
the constitution at the expense of traditional Zaydi theology, 
acknowledging the President as the legitimate ruler of the country as 
opposed to an imam. Several influential Zaydi scholars, such as Badr 
al-Din al-Huthi refused to sign the document. Some of al-Huthi's sons 
did, however, serve terms in Yemen's Parliament, including Husayn Badr 
al-Din al-Huthi, who was elected in 1993 as a member of Hizb al-Haqq. 
But Husayn refused to seek a second term in 1997, deciding instead to 
dedicate himself to the defense of Zaydism in and around Sa'dah.
    President Salih has long favored a divide-and-rule approach to 
governing, playing different factions off against one another, as a way 
of keeping potential opposition groups perpetually dependent. This 
style of ruling has led to numerous difficulties as particular groups 
are encouraged and then subsequently discouraged and oppressed when 
they are deemed to have grown too powerful. More specifically, in the 
governorate of Sa'dah the government has long been both encouraging 
Wahhabi-like groups and allowing Saudi Arabia to fund these same groups 
against the more historical Zaydi power base within the region, 
although at times the government has also supported Zaydi groups 
against the Wahhabis. The clashes between these two sides were on-going 
throughout the 1990s, as Wahhabis destroyed Zaydi tombs and Zaydis 
retaliated.\23\
---------------------------------------------------------------------------
    \23\ Bernard Haykel, ``A Zaydi Revival?'', Yemen Update, No. 36, 
1995.
---------------------------------------------------------------------------
The Huthi Rebellion
    Finally, in 2004 the conflict went beyond periodic clashes between 
paramilitary forces on both sides and became an open war between the 
government and its Wahhabi/Salafi allies against a group of Zaydis that 
became known as the Huthi's, after the name of their leader Husayn Badr 
al-Din al-Huthi. The spark came in late June 2004, when the government 
overreached and attempted to arrest Husayn al-Huthi. Some reports date 
the beginning of the conflict to January 2003, when President Salih was 
implicitly criticized by members of a Zaydi group known as the Shabab 
al-Mu'minin, or The Believing Youth.\24\ Whatever the case, and each 
date has a precursor going back to 1962, fighting began after the 
failed attempt to arrest Husayn al-Huthi.
---------------------------------------------------------------------------
    \24\ International Crisis Group, ``Defusing the Saada Time Bomb,'' 
3.
---------------------------------------------------------------------------
    Since then there have been six separate rounds of fighting between 
government forces and its local allies against the Huthis. According to 
one well-informed report, the conflict has ``evolved significantly 
since 2004,'' as numerous tribes have been brought into the 
increasingly murky conflict, which has grown to include a number of 
local and diverse grievances against the government.\25\ The tentative 
cease-fire that was declared unilaterally by President Salih in July 
2008 held until August 2009, when the government launched ``Operation 
Scorched Earth.''
---------------------------------------------------------------------------
    \25\ Ibid, 5.
---------------------------------------------------------------------------
    On November 4, 2009 the war spilled over the border into Saudi 
Arabia. Like much of the conflict, the initial clashes that left at 
least one Saudi soldier and one Huthi fighter dead are clouded in 
conflicting and contradictory reports. The Huthis claim that they were 
responding to repeated strikes by the Yemeni military, which was using 
Saudi territory as a rear base to launch flanking maneuvers into 
Sa'dah. Saudi Arabia, in turn, argued that it was retaliating against 
incursions by foreign rebels. Both sides maintain that the other fired 
first.
    Whatever the sequence of events, the result was the same. Saudi 
Arabia deployed a number of troops to its southern border and launched 
air and ground assaults on pockets of Huthi fighters, purportedly to 
drive them back across the border. These clashes are still ongoing.
    The latest round of fighting was sparked, at least in part, by the 
government's concern that its previous failures to put down the 
rebellion was emboldening calls for secession in the south. This desire 
to strike a decisive knockout blow has led to some of the fiercest 
fighting to date, with the government launching daily bombing raids on 
suspected Huthi targets.
    Throughout the conflict the government has alleged that the Huthis 
are receiving support from Shia throughout the Middle East but 
particularly from Iran and Hezbollah. The government has also attempted 
to link the Huthis both to al-Qaeda and to southern secessionists in 
Yemen, which has called into question the veracity of much of its 
allegations. For its part, the Huthis have made similar fanciful claims 
in what amounts to a list of alleged actors that is as exhaustive as it 
is imaginative.
    Part of the problem is that the Yemeni Government has learned that 
in order to be considered a priority it must link its domestic problems 
to larger regional and western security concerns. Toward this end, 
Yemen has deliberately confused al-Huthi supporters with those of al-
Qaeda, blurring the lines between the two groups by including members 
of both on a single list of ``terrorists.'' This tactic, it believes, 
will allow it to pursue the war against the Huthis under the guise of 
striking at al-Qaeda.
    It has also attempted to tap into Saudi fears of a rising Shia 
threat on its southern border, playing up the Huthis' alleged 
international connections as well as obfuscating the traditional 
differences between Zaydism and twelver Shi'ism. But it has yet to 
provide any firm evidence of direct Iranian support. Instead, the war 
in Sa'dah is rapidly becoming just one more stick for Iran and Saudi 
Arabia to beat each other over the head with. The Iranian-Saudi Arabian 
dispute is a regional rivalry that is being grafted onto a war with 
local roots.
    There is, as more than 5 years of fighting have made clear, no 
military solution to the conflict. Even Saudi Arabia's direct 
involvement will prolong rather than shorten the war. Already its 
influence has significantly altered the complexion of the conflict, as 
some Yemenis are privately expressing their desire to see Saudi Arabia 
get a bloody nose in Sa'dah.
The Huthis
    The Huthis have often couched its rhetoric in anti-Western/anti-
Israeli slogans. For instance, one of the most common slogans is 
``death to America, death to Israel.'' But this rhetoric should not 
suggest that the group is actively anti-Western, as it has not carried 
out any anti-Western attacks, despite support for the Huthis within 
San'a. Instead, it appears that the group is using popular frustration 
against U.S. and Israeli policies in the Middle East to both engender 
local support and to implicitly criticize President Salih who is an 
ally of the United States and by extension, according to the local 
logic, also an ally of Israel.
    It would also be a mistake to suggest that the organization is 
primarily an anti-Sunni one, even though the vast majority of its 
opponents are Sunnis of the Salafi variety. It is not interested in 
attacking Sunni groups outside of the Sa'dah governorate that are not 
involved in the current conflict. Nor has the group demonstrated a 
desire to involve itself in the current crises in the south over calls 
for secession. Abd al-Malik al-Huthi, the current military leader, had 
his office put out a statement in May distancing the Huthis from the 
``Southern Movement'' following comments by Tariq al-Fadhli, suggesting 
that the regime was oppressing the people of Sa'dah in an interview 
with al-Sharq al-Awsat.\26\ Al-Fadhli fought in Afghanistan with Usama 
bin Ladin in the 1980s, suffering a wound during the Siege of 
Jalalabad. He later led a group of Afghan Arabs in a war of attrition 
against the Yemeni Socialist Party (YSP) in and around his family's 
lands in the southern governorate of Abyan. His sister is married to 
Ali Muhsin al-Ahmar, the commander of the 1st Armored Division and the 
North West military quadrant. Al-Ahmar, who is not related to the 
Hashid family of the same name, is the military commander directing the 
war in Sa'dah.\27\
---------------------------------------------------------------------------
    \26\ Arafat Madabish, ``Tariq al-Fadhli to al-Sharq al-Awsat,'' 
(Arabic) al-Sharq al-Awsat, May 14, 2009.
    \27\ ``Salih and the Yemeni Succession,'' Jane's Intelligence 
Digest, August 29, 2008.
---------------------------------------------------------------------------
    The Huthis have also expressed little interest in combating other 
Shia groups. Rather, it is more accurate to describe the Huthis as a 
defensive group, which believes its heritage is being eroded by an 
alliance between the Yemeni Government and Saudi-backed Salafi groups 
in and around Sa'dah. This understanding of the organization's motives 
helps to explain why it has acted the way it has, attacking local 
Salafi centers and striking at government forces. Despite the 
theological rhetoric and references on all sides, the Huthis are 
primarily a group driven by the local politics of Sa'dah. It believes 
the government has sided with its Salafi enemies against it, and as 
such the Huthis have evolved into a local antiregime organization.
    The Huthis are a Zaydi/Hashimi movement, although this 
classification should not suggest that the movement wants to restore 
the office of the imamate as it existed in Yemen prior to the 1962 coup 
d'etat and the subsequent civil war. Badr al-Din al-Huthi has denied 
that the Huthis are seeking the reestablishment of the imamate on 
several occasions.\28\ Despite these denials, the allegations persist 
thanks in large part to the government's continued insistence that this 
goal is at the heart of the conflict. In this way, the government has 
been able to portray the war as one in which it is seeking to preserve 
the republic against domestic enemies that wish to see Yemen return to 
an Imamate. This is a particularly loaded charge in Yemen, as most 
local histories resort to hyperbole when discussing the differences 
between the imamate and the republic.
---------------------------------------------------------------------------
    \28\ Jamal 'Amar, ``Interview with Badr al-Din al-Huthi,'' (Arabic) 
al-Wasat, March 19, 2005.
---------------------------------------------------------------------------
    The government's accusations are often reported as fact in both the 
local press as well as in early histories of the conflict. For 
instance, one well-respected Yemeni historian, Abd al-Aziz Qaid al-
Masudi, writes that both Husayn and Badr al-Din named themselves 
Imam.\29\
---------------------------------------------------------------------------
    \29\ Abd al-Aziz Qaid al-Masudi, ``The Formation of Zaydi Thought 
in Contemporary Yemen,'' (Arabic) (Cairo, Makatba Madbuli, 2008) 486.
---------------------------------------------------------------------------
    The tactics employed by the Huthis have remained fairly constant 
since the beginning of the conflict. The group typically employs 
ambushes aimed at the Yemeni military or its local allies and at times 
it has reportedly used land mines and checkpoints as a way of gaining 
control of territory in Sa'dah. It has also, at times, resorted to 
assassinating military officials and kidnapping or capturing government 
soldiers.
    The Huthis' strategy has always been, at least in its own eyes, one 
of self-defense and survival. The Huthis see themselves as a community 
under attack, and this understanding has largely influenced the group's 
decision to engage in violence against the Yemeni Government and its 
Salafi allies as well as against the different tribal and paramilitary 
forces that have been brought into the fighting. In 1995, Bernard 
Haykel identified the roots of the conflict, writing: ``The main issue 
of concern in all of these works was the preservation of the Zaydi-
Yemeni heritage from extinction because of the onslaught of a 
proselytizing Wahhabi movement in such traditional Zaydi provinces as 
Sa'dah and the Jawf combined with neglect and opposition to Zaydi 
concerns and issues by the government in San'a.'' \30\ These historical 
grievances and anxieties over extinction have evolved as the conflict 
has expanded and mutated since it began in 2004.
---------------------------------------------------------------------------
    \30\ Haykel, ``A Zaydi Revival?''
---------------------------------------------------------------------------
    The protracted nature of the war has also led to evolving 
justifications for the continuation of the conflict. The war has spread 
well beyond the core group of Zaydi and Hashimi purists who supported 
Husayn al-Huthi in 2004 to include a number of different tribesmen, who 
are responding to government destruction of crops, land and homes. Much 
of this destruction was presumably unintentional, but government 
shelling throughout the war has often been indiscriminate. This means 
that what was once a three-sided conflict between the government its 
Salafi allies and the Huthis has become much more complex. Now, 
tribesmen and other interest groups have been brought into the fighting 
on the side of the Huthis not out of any adherence to Zaydi theology or 
doctrine but rather as a response to government overreaching and 
military mistakes. In effect, after six rounds of fighting, the 
government's various military campaigns have created more enemies than 
it had when the conflict began. Saudi Arabia's military campaign 
against the Huthis has also served to expand and deepen the conflict.
    The sporadic clashes have, at times, been the result of government 
pressure to close local Zaydi schools while at other times these are 
tribal conflicts that are mistakenly reported as being directly related 
to the Huthi conflict. Unfortunately, the expanding nature of the war 
and the various actors now involved make differentiating between the 
two increasingly difficult. The government's continued ban on 
journalists and researchers traveling to Sa'dah has also contributed to 
much of this confusion.
    The Huthis operate much differently from Yemen's local al-Qaeda 
franchise, AQAP. The latter control little territory within the borders 
of the state, while the Huthis have managed to gain control of 
significant amounts of territory in and around Sa'dah. AQAP is the most 
representative group or party in Yemen, including individuals from 
nearly every region and social class in the country. The Huthis, on the 
other hand, are largely limited to self-identifying Zaydis, who see 
themselves under attack. But this is changing as the fighting continues 
and as more and more tribes are brought into the conflict on both 
sides. The kidnapping of a busload of doctors in June 2009 is evidence 
of this.\31\
---------------------------------------------------------------------------
    \31\ Ahmad al-Hajj, ``Yemeni Tribesmen Kidnap Medics,'' Associated 
Press, June 11, 2009.
---------------------------------------------------------------------------
    In this case, there is a strong correlation to the growing strength 
and proselytizing nature of a Salafi/Wahhabi movement in and around 
Sa'dah and the emergence of a militant Zaydi movement. The Yemeni 
Government has long supported the Salafis in Sa'dah against local Zaydi 
groups--although at times this support has been reversed--both as a way 
of keeping opposition groups weak and as a part of an unofficial anti-
Hashimi stance by successive republican regimes.
                      iii: foundational challenges
    If significant changes are not enacted in the coming years the 
state could very easily collapse, fragment, or see its power recede 
back to small urban pockets. This would be catastrophic not only for 
Yemen but for the Middle East and the international community as a 
whole. An unstable and chaotic Yemen would present numerous security 
challenges to regional and global powers, in addition to the 
humanitarian and economic issues that would inevitably accompany such a 
scenario.
    The two most pressing challenges that Yemen will have to deal with 
in the coming years are the loss of oil reserves and the depletion of 
its water table. The loss of these two resources will affect nearly 
every other sector of the economy and will coincide with a change in 
the country's political leadership. Compounding the situation is the 
fact that each challenge will affect other areas. For example, 
corruption will affect infrastructure, foreign investment, and 
unemployment, while illiteracy affects the birth rate and unemployment. 
Yemen will not have the luxury of dealing with each of these challenges 
independently of the others. It will be forced to face them as a group, 
which will further tax government resources beyond their capacity and 
make understanding and overcoming each individual problem more 
difficult. As the challenges become more pronounced the rate of 
collapse will intensify, making confronting these issues increasingly 
more complex for a government that appears to lack the political will 
and legitimacy to adequately address them. These challenges will all 
make fostering reform and democracy--let alone maintaining stability--
an even more tedious and difficult task for foreign donors than it has 
been up to this point.
The Loss of Oil and Water
    Yemen's economy is largely based upon oil exports, which account 
for roughly 75 percent of the estimated $5.6 billion budget and 90 
percent of the country's exports. Oil production declined by 5.9 
percent in 2004 and by 4.7 percent in 2005. Early numbers for 2006, 
suggest that production has declined still further to a daily output of 
368,000 bpd, which is a reduction of 25,000 bpd from 2005.\32\ Most 
observers project that the country's oil reserves will be exhausted 
within 5 to 7 years at current rates of production, but if production 
is slowly eased back, which appears to be happening, Yemen could 
continue to export oil for another 10 to 12 years. Some within the 
Yemeni Government cling to the idea that further exploration could 
yield untapped new fields, but oil companies and most within the 
government consider the chances of this to be remote.
---------------------------------------------------------------------------
    \32\ See, for example, The Economist Intelligence Unit, ``Yemen: 
Country Report,'' November 2005 and February 2007.
---------------------------------------------------------------------------
    Combine the loss of oil revenue with the depletion of Yemen's 
groundwater table, which is shrinking by as much as eight meters per 
year in some areas, and the potential for disaster is great. Per capita 
water supply in Yemen is roughly 2 percent of the world's average, 
which has had a devastating effect on the country's agriculture 
industries. More than half of the labor force works in agriculture but 
most of this is in small, subsistence level farming.\33\ This group has 
been hit hard not only by the reduction in water but also by the 
lifting of diesel subsidies, which is mostly used to fuel small water 
pumps. The cost of getting what little is left out of the ground has 
increased as well, making the situation more complex and difficult to 
manage than is usually assumed.
---------------------------------------------------------------------------
    \33\ The World Bank, ``Yemen Development Policy Review,'' November 
2006 and ``Republic of Yemen Country Assistance Evaluation,'' August 
2006.
---------------------------------------------------------------------------
    This has had a real impact on the economy as Yemen, which was once 
a net exporter of grain, now imports 80 percent of its grain. Some 
suggest that the lifting of subsidies on diesel and fuel has the 
benefit of encouraging conservation. This is true to a certain extent, 
as a great deal of the country's precious water is wasted through 
mismanagement, but conservation is not itself a feasible solution to 
Yemen's water crisis. At best, it is a short-term stop-gap measure that 
will inevitably drive more Yemenis into poverty, and increase the 
demand for the state's already over-taxed resources.
    San'a is often predicted to be the first capital city in the world 
to run out of water, but the problem is even more acute in other parts 
of the country where families are dependent on the generosity of tribal 
shaykhs or neighborhood leaders. These men often purchase water for 
local constituents from private water companies that many have turned 
to in order to meet the needs of daily life. This has caused erosion in 
loyalty for the state, which aggravates tensions against an already 
brittle government. The loss of revenue from oil will in turn affect 
nearly every other segment of the country's economy, making it 
impossible for the government to continue to function at current levels 
of spending. This will undoubtedly create a greater strain on the 
infrastructure and lead to higher levels of unemployment and pervasive 
corruption. Yemen's current plans to diversify the economy away from 
oil are at once overly ambitious and completely inadequate. The 
Strategic Vision 2025 report lists both the fisheries and tourism 
industries as promising areas that can help ease the loss of oil 
revenues. But these are small steps that will come nowhere near making 
up for the loss of 90 percent of government revenue. The state 
currently lacks the security infrastructure to make tourism appealing 
to any but the most daring travelers, and repeated kidnappings will 
continue to dampen even these tourists. Terrorist attacks such as the 
Marib bombing in July 2007 and the one on the Belgian tourists in early 
2008, will also take its toll on a fragile industry. Attempts to funnel 
rural migrants away from San'a and towards the coasts, as was mentioned 
earlier, will likely fail. Yemen is without the infrastructure to 
produce, package and ship fisheries' products on a large scale. Even if 
both of these areas were completely successful it is highly doubtful 
that they would produce the 50 percent growth in nonoil GDP over the 
next 5 years that Yemen needs if it is to keep pace with plans it has 
produced.
The Economy
    The loss of oil and water will also exacerbate preexisting economic 
problems that Yemen has yet to adequately address. There are a number 
of serious economic problems, of which the most pressing are: 
corruption, shadow employees, lack of investment, unemployment, 
poverty, illiteracy, population growth, and infrastructure. These 
challenges will affect one another in profound ways that are not 
completely knowable at this time. But it is highly likely that these 
will coalesce in a manner that will make the combination of these 
problems a much more complex and pressing situation to handle than any 
one issue. These matters will continue to have a detrimental affect on 
Yemen's economy for the foreseeable future.
    Corruption is rampant in Yemen. It has become such a part of the 
culture of doing business that it is unlikely to change soon. Yemen's 
anticorruption campaign, which was initiated in early 2006, does not 
appear to have had much of an impact on the levels of corruption. There 
has yet to be a high profile arrest and prosecution of someone caught 
pilfering public accounts. Even assuming those at the top have the will 
to change; it is unlikely that they can reverse years of abuse and 
corruption that now affects nearly every segment of society. This is 
not a problem that can be corrected quickly; instead it will take years 
of diligence and extreme transparency to reverse current trends. 
Unfortunately, the government's energies will become increasingly 
occupied with other economic and security concerns over the coming 
years, and it will likely lack the will and capital for the type of 
reform that is necessary.
    Issues of corruption are also evident in the phenomenon that has 
been termed ``shadow employees,'' or ``double-dippers'' in Yemen. This 
is when one employee draws two or more governmental salaries. Official 
statistics on the numbers of such employees are difficult to find, but 
many observers believe the numbers to be in the tens of thousands. At 
times, Yemen has been successful in eliminating pockets of these 
shadow-employees from payroll records, but they are replaced almost as 
quickly as they are removed. This is partly due to the corrupt nature 
of Yemen's official bureaucracies, but it is also a result of powerful 
and influential individuals that dole out favors to their constituents 
through government salaries. In other words, elite groups within Yemen 
use the opaque nature of the system against itself by securing 
financial favors in the form of salaries for their dependants, who in 
turn offer their loyalty to the individual instead of to state 
institutions. Attempts to eliminate this phenomenon in any systematic 
way have been largely unsuccessful.
    The lack of foreign investment in the country has also been linked 
to corruption. Foreign businessmen have long been frightened away from 
investing in Yemen due to horror stories of being forced to buy plots 
of lands two or three times before it is finally stolen by a corrupt 
official. The lack of transparency and Yemen's dismal record of return 
on economic investment has also kept nonoil investment to a dismally 
low level. Yemen has hopes that its ambitious reform program, which has 
yet to be fully implemented, combined with goodwill from neighboring 
GCC countries, will help to reverse this trend. The Strategic Vision 
2025 report suggests that Yemen believes it can attract $20-30 billion 
in investments from Yemeni expatriates. This, like much that is in the 
report, seems to be a best-case scenario instead of a grounded and 
sober analysis of potential possibilities. Yemen hopes to also 
alleviate some of the strain through its new LNG terminal, which will 
largely be exported to the United States. But estimates vary as to the 
amount LNG exports will provide, and it is unlikely that revenues will 
offset the lost in oil production.
    Yemen is also plagued by unemployment, which will continue to grow 
until the country's birth rate is brought under control. The government 
is the country's single largest employer, providing more than 30 
percent of all jobs. It is forced to deal with roughly 50,000 new 
entrants into the job market every year. Already, unemployment is 
officially at 35 percent, although unofficial estimates put it as high 
as 45 percent. As the government loses revenue in the coming years, 
following the end of oil, it will be unable to provide both the 
employment and subsidies that its citizens have come to expect as it is 
forced to cut back on its spending.
    High unemployment rates have corresponded to an equally high level 
of poverty. In 1998, the World Bank estimated that 42 percent of the 
population lived below the poverty line. This number has increased 
significantly since then but, as with most numbers in Yemen, 
trustworthy and accurate statistics do not exist. In the absence of 
hard numbers, broad trends provide the best method of analysis. In this 
case, it is clear that poverty in Yemen is continuing to grow as the 
population increases at roughly 3.7 percent per year. This upward trend 
in unemployment numbers will continue to increase over the coming years 
as the government and agricultural industry become increasingly 
incapable of absorbing more individuals. The price of basic foodstuffs 
has also continued to grow over the past few years, forcing more and 
more Yemenis below the poverty line and unable to provide for their 
families.
    The country's low literacy rate further complicates Yemen's 
numerous other problems. Only 25 percent of females in Yemen are 
literate, which is one of the lowest rates in the world. (The literacy 
rate among males is significantly higher at 75 percent.) This problem 
is compounded by Yemen's weak education system, which features grossly 
overcrowded schools in many urban areas, while rural regions often 
suffer from a lack of electricity and buildings in which to hold 
classes. The high number of subsistence farms also takes its toll on 
childhood education, as children in rural areas spend their time in the 
fields instead of in the classroom. The literacy rate is a major 
problem that affects other challenges such as population growth.
    Yemen has one of the highest birth rates in the world, of seven 
live births per woman. Its population is growing at a rate of 3.7 
percent per year, with no signs of slowing down. Officially, the 
population is listed at 20 million, although most observers claim it is 
closer to 23 or 25 million. It is likely that even high government 
officials do not have an accurate picture of the population growth 
rate. Yemen has hopes of lowering population growth to 2.6 percent, 
which it claims would leave the country with a population of 33.6 
million in 2025. This is unlikely to happen, given the low rates of 
female literacy in the country and the government's reticence to openly 
discuss methods of family planning. Even if the government were to 
institute a nationwide campaign design to limit family size, it is 
doubtful that this would do much to ease the pressure. Many in rural 
areas distrust the Yemeni government, and centrally designed, large-
scale campaigns do not have a high rate of success in the country. 
Instead, to be successful, such a campaign would need to enlist the 
support of powerful individuals including prominent tribal shaykhs and 
perhaps most importantly religious leaders, imams, and prayer leaders 
in mosques. This is unlikely to happen given the low levels of 
education and societal divisions that exist in Yemen.
    The country's infrastructure is extremely antiquated, with little 
hope of keeping pace with the increase in demand that will come in 
future years. Electricity only reaches 40 percent of the population, 
and daily power outages are the norm, even in urban centers like San'a. 
This and other infrastructural problems such as the lack of roads and 
water pipes in rural areas and the shantytowns that now surround most 
major urban centers are blamed on corruption within the government. 
This is true to a certain extent, but even a completely transparent 
government would have difficulties coaxing the needed amount of 
production out of the country's crumbling system of services. The 
government's impending cash crisis will mean that it will soon have 
little money to invest in such services, which will mean that 
electrical grids, sewage systems, roads and water pipes will continue 
to be over-taxed until they give way. The collapse of the country's 
infrastructure will immediately erode government legitimacy, while at 
the same time putting a much greater stress on the other weak points in 
the country's faltering economy.
                               conclusion
    There is a limit to the positive impact the United States, its 
allies and regional partners can have in Yemen. Much of the country's 
future will continue to remain beyond human engineering and even a near 
perfect strategy will still leave too much to chance.
    In the absence of any easy or obvious solutions, Yemeni advisers 
and a surprising number of foreign experts are putting their faith in 
the country's blind ability to muddle through the multitude of 
challenges it will face in the near future. This belief is buoyed by 
intimate knowledge of the past--Yemen, they claim, has seen far worse 
and survived--but such an argument confuses history with analysis. And 
in Yemen hope, even desperate hope, is not a strategy.
    Any Yemen strategy will require a coordinated effort between the 
United States, its allies and regional partners. Success in Yemen 
demands a localized, nuanced and multifaceted response to the country's 
many problems. Dealing with al-Qaeda in isolation from Yemen's other 
challenges is neither sustainable or desirable. Instead, it is a recipe 
for disaster. A narrow focus on counterterrorism may alleviate the 
problem for a short period of time, but it will do nothing to eradicate 
al-Qaeda within the country over the long term. Indeed, such a 
shortsighted approach will have exceedingly high long-term costs. 
Rolling back al-Qaeda in Yemen in any sort of sustainable way will 
require a great deal of expertise and in-depth, localized knowledge, 
which I am not sure neighboring countries like Saudi Arabia posses let 
alone the United States and its allies.
    However, there are some steps that the United States can take. 
These are less a blueprint for success than they are a basic checklist; 
nor is it comprehensive so much as it is a starting point.
    Bring in Saudi Arabia: The United States must work behind the 
scenes to convince Saudi Arabia that U.S. goals of destroying al-Qaeda 
in Yemen and stabilizing the country are in Saudi Arabia's best 
interest. This will not be easy, but it is essential. Without at least 
the tacit acceptance of Saudi Arabia anything the United States 
attempts to do in the country can be subverted. This is not working 
through Saudi Arabia or running U.S. policy through Riyadh, but rather 
convincing Saudi Arabia not to actively subvert or undermine U.S. 
efforts in Yemen. Saudi Arabia is by far the most powerful foreign 
actor within Yemen, but it is not a monolithic one. Toward this end the 
United States must draw Saudi Arabia out of the al-Huthi conflict in 
the north and use its considerable influence in San'a and throughout 
the tribal regions in the north to help end active fighting in Sa'dah 
as an initial step toward a cease-fire.
    Treat Yemen as a Whole: The United States and other European and 
western countries cannot afford to focus on the al-Qaeda threat in 
Yemen to the exclusion of every other challenge. There has to be a 
holistic approach and an understanding that all of the crises in Yemen 
exacerbate and play off against each other. Simply targeting the 
organization with military strikes cannot defeat al-Qaeda. Something 
has to be done to bring a political solution to both the al-Huthi 
conflict as well as the threat of secession in the south. Not dealing 
with these will only open up more space for al-Qaeda to operate in as 
well as creating an environment of chaos and instability that will play 
to the organization's strength. Indeed, by focusing so exclusively on 
al-Qaeda and by viewing Yemen only through the prism of 
counterterrorism the United States has induced exactly the same type of 
results it is hoping to avoid. This demands much more development aid 
to the country as a way of dealing with local grievances in an attempt 
to peel-off would-be members of al-Qaeda.
    Reverse the Trend: The United States must also swim up current 
against bureaucratic muscle memory and attempt to reverse recent 
trends. In particular it should move closer to the risk management side 
of the spectrum than remaining on the risk prevention side, where 
current U.S. diplomacy is stuck. Certainly there are very real security 
threats in Yemen, but cloistering diplomats inside a fortress like 
embassy compound and having them scurry back to the fortress-like 
housing compound in Hadda is not a good way to get to know the country 
and it certainly does not provide the type of localized and nuanced 
knowledge that is a prerequisite for success in Yemen.
    Utilize Institutional Knowledge: Due to the very real security 
threats in Yemen, the country is an unaccompanied post, meaning that 
spouses are only allowed to come if they can find work inside the 
Embassy while dependants of certain ages are not allowed to come. In 
practical terms this means that the United States is sending younger 
and more inexperienced diplomats to a country that demands it send its 
most knowledgeable and experienced foreign policy hands. I have often 
criticized U.S. policy in recent years toward Yemen as a dangerous 
mixture of ignorance and arrogance. And I continue to hold this view, 
though it pains me to do so, as I know many of the diplomats and many 
of them are brave and intelligent young women and men who perform 
extraordinary services. But as a whole, my pointed criticism remains, I 
believe, accurate. The short tours--2-3 years--also have an impact, as 
much institutional knowledge is lost. In Yemen, personal relationships 
mean a great deal and there is too much seepage when a political 
officer is replaced after such a short time in Yemen. Not only does the 
incoming officer have to reinvent the proverbial wheel but they also 
have to relearn the tribal and political geography of an incredibly 
complex country. Many Yemenis view their relationships not through the 
prism of dealing with a U.S. representative but rather with an 
individual and known entity while the constant turnover undermines 
trust within the country.
    Go on the Offensive: The United States must be much more active in 
presenting its views to the Yemeni public. This does not mean giving 
interviews to the Yemen Observer or the Yemen Times or even al-Hurra, 
which is at least in Arabic. It means writing and placing op-eds in 
Arabic in widely read Yemeni newspapers like al-Thawra. (Newspaper 
editorials are often read aloud at qat chews.) I detailed a golden 
opportunity that the United States missed with the Shaykh Muhammad al-
Mu'ayyad case in August in a report I wrote for the CTC Sentinel.\34\ 
This also means allowing U.S. diplomats to go to qat chews in Yemen and 
even chew qat with Yemenis. The United States should be honest about 
what qat is and what it does and not hide behind antiquated rules that 
penalize a version of the stimulant that does not exist in Yemen. 
Whether or not the United States knows it, it is engaged in a 
propaganda war with al-Qaeda in Yemen and it is losing and losing 
badly. U.S. public diplomacy is all defense and no offense in Yemen, 
this has to change or the results of the past few years will remain the 
roadmap for the future. And that future will witness an increasingly 
strong al-Qaeda presence in Yemen.
---------------------------------------------------------------------------
    \34\ Gregory D. Johnsen, ``The Expansion Strategy of al-Qaida in 
the Arabian Peninsula,'' CTC Sentinel, September 2009.

    The Chairman. Well said.
    Let me just follow up with you. What would you say is al-
Qaeda's goal, then, in Yemen?
    Mr. Johnsen. Al-Qaeda's stated goal is to, what it calls, 
``expel the infidels from the Arabian Peninsula.'' This is sort 
of its reason for being; it's the thing that, ever since it re-
formed in 2006, 2007, it's constantly hammered on this point. 
Its tactics and its strategy have changed a bit over time. And 
we've seen this organization really grow, and it's becoming 
increasingly ambitious. So, it's not so much a subsidiary of 
al-Qaeda that we have in Pakistan or Afghanistan, but it's much 
more of a more fully autonomous organization, something that 
Nasir al-Wahishi, the Emir of al-Qaeda, has really attempted to 
sort of follow the template that Osama bin Laden laid out in 
Pakistan. He was Osama bin Laden's personal secretary, spent a 
great deal of time with him. And so, what we're seeing is 
essentially a copycat organization of what bin Laden developed 
in the 1990s.
    The Chairman. And is there any degree to which President 
Saleh sees that growth as a political threat and challenge to 
the legitimacy of the government itself?
    Mr. Johnsen. Certainly. I think since 2006 the Yemeni 
Government has borne the brunt of most of the al-Qaeda attacks 
within the country. I would agree with what you said earlier, 
that, on a sort of hierarchy of challenges, that the al-Houthi 
insurgency and the threat of southern secession ranks higher in 
the President's mind, but, at the same time, al-Qaeda is a 
threat.
    The difference for the Yemeni Government, at least in my 
opinion, is that it has to deal with these individuals. And al-
Qaeda members within the country wear different hats. So, you 
have
al-Qaeda members who are tribal members, you have al-Qaeda 
members who are from outside of the country. And when you start 
taking the fight to al-Qaeda, you risk, sort of, expanding the 
conflict and bringing different tribes into it by killing 
members who also happen to be members of tribes. So, it's a 
very murky--a very multifaceted conflict.
    The Chairman. Who, in your judgment, should be taking the 
fight to al-Qaeda?
    Mr. Johnsen. Well, certainly I think the Yemeni Government 
is in the best position to do this, but al-Qaeda, I think, has 
a very significant head start. If you look at the recent 
history, in 2007 it assassinated a criminal investigator in 
Ma'rib. It also did this in 2008. And it did this once again in 
2009. These are exactly the people, if you're al-Qaeda in the 
Arabian Peninsula, that you should be targeting. These are the 
people who know the local tribal geography, know the local 
politics, as opposed to the people in Sana'a. And so, 
unfortunately the Yemeni Government hasn't really had the sort 
of sustainable campaigns against al-Qaeda as it's carried out 
elsewhere.
    The Chairman. Dr. Kagan, am I correct that--you've 
advocated a change in our policy, so that we, in effect, side 
with the Yemeni Government against the Houthi. Is that correct?
    Dr. Kagan. Not quite, Senator. What I'm saying is that we 
have to recognize that we--by saying that we're going to rely 
on the Yemeni Government as a partner, we have effectively 
committed ourselves to ensuring that the Houthi rebellion is 
wrapped up on terms that are acceptable to the Yemeni 
Government. That's--it's just a sine qua non of that kind of 
partnership.
    The Chairman. Well, I wanted to follow up on that. I heard 
you say that we need to get President Saleh to agree to fight 
AQ, but, at the same time, come to an adequate settlement with 
Houthis and secessionists. Is that doable?
    Dr. Kagan. I'm not sure, Senator. I think this is a very--I 
agree with Mr. Johnsen, I think that it's very--there's nothing 
that you can do in this context that promises success, but I 
think that the important thing that we have to do is to be 
straight with ourselves and be honest with ourselves from the 
outset about the challenge that we face, including the fact 
that we do seem to have in interest misalignment with the 
current Yemeni Government.
    I think Mr. Johnsen excellently pointed out some of the 
problems we're going to have getting President Saleh to go 
after al-Qaeda. But, I think we also have to face the fact that 
President Saleh himself has, over the past decades, used 
Salafists, some of whom are either affiliated with, or 
supporters of, al-Qaeda against his own internal enemies, and 
there are some of those people within the government.
    And so, this is not simply a matter of helping him fight a 
foe that is external to his power base. We've encountered this 
kind of problem before. We've seen--you know, we've dealt with 
this in detail in Iraq and Afghanistan, and we're looking at it 
in Pakistan, but we've not come up with a real solution to this 
problem, outside of countries where we have hundreds of 
thousands of troops. And I agree that we should do everything 
possible to avoid sending American forces to Yemen. So, I think 
this is an extremely difficult problem. But, I think that the 
beginning of solving it is recognizing its full depth and 
complexity, and I'm not entirely sure that American policy thus 
far has done so.
    The Chairman. Do you believe that al-Qaeda eventually will 
morph into a more concentrated ideological entity that might 
even view a takeover of the government, or some challenge to 
it?
    Dr. Kagan. The objective of any----
    The Chairman. Or are they happy to simply have their base 
and carve out their territory, so to speak?
    Dr. Kagan. Well, the objective of any al-Qaeda group, any 
group that identifies itself as al-Qaeda, is to seize temporal 
power at some point and establish an Islamic state, as a 
prelude to the larger global objectives that it has. That said, 
in most al-Qaeda franchises, there's significant debate and 
tension about the desirability of focusing on what they will 
call the ``near threat,'' which is the government, the host 
nation that they're in, versus the ``far threat,'' which is the 
United States.
    For the moment, it seems as though this Yemeni al-Qaeda 
franchise is focusing on us. I suspect that's partly as part of 
the process by which al-Qaeda franchises bid globally for 
leadership within the movement, for resources, for the 
attention of al-Qaeda central. One of the things you have to 
do, as one of those movements, is to show that you're doing 
something in the fight beyond your local frontier. Whether that 
means--you know, what that means about where they will 
ultimately move in the future, I think, is hard to say.
    The Chairman. Ambassador Bodine, you forcefully argued that 
you can't leave this to Saudi Arabia by itself, and that would, 
in fact, have its own dangers. Is it possible that the Houthi 
rebellion could expand into a wide--a regional proxy war 
between Saudi Arabia and Iran?
    Ambassador Bodine. The possibility is there. That isn't how 
it started, and it isn't where it is at this stage. The Yemeni 
Government has repeatedly said that Iran is involved. The 
evidence to that is a little bit shaky.
    That said, if Saudi Arabia becomes directly, repeatedly, 
and militarily involved, there is a possibility that Iran may 
feel that it has to come in and provide some level of support 
to the Zaydi rebels.
    I would agree with the other speakers. We have to recognize 
that the Houthis and the southern issue are primary issues for 
the Yemeni Government. We and Yemen have the same three 
security priorities; we have them in a slightly different 
order. That doesn't mean we cannot work together. We have to 
just recognize that difference.
    The Chairman. What can you say with respect to this 
question of Americans going over there? Did you encounter that 
when you were Ambassador? Did you see that?
    Ambassador Bodine. No, I did not. And I am not sure that I 
fully support the statements that there is a fundamental anti-
Americanism in Yemen. There are an awful lot of Yemeni-
Americans in this country, and there's not an antagonism toward 
us.
    I think where we do run into a risk of anti-Americanism----
    The Chairman. Does that sort of differ a little bit from 
the current--from the State Department's own assessment at this 
point in time?
    Ambassador Bodine. Yes, it does. And----
    The Chairman. Why do you draw that different conclusion? I 
mean, what do you----
    Ambassador Bodine. I think--first of all, I think we have 
an embassy that is far too isolated. We are confusing very real 
security threats with a hostile environment. One thing that 
prompts an anti-Americanism is the perception of U.S. 
engagement solely on an issue that is primarily of our concern, 
and no corresponding engagement on efforts to rebuild the 
Yemeni state and assist the Yemeni people. If the Yemeni people 
see that they are not the primary focus, then we can breed 
anti-Americanism, yes.
    The Chairman. Would you, any of you, characterize the 
situation in southern Yemen as becoming increasingly volatile? 
Is there one that you'd say is more of a threat than the other, 
the Houthi versus the southern?
    Dr. Nakhleh.
    Dr. Nakhleh. Thank you, Mr. Chairman. What is worrisome, it 
seems to me, is the growing Salafi ideology--radical Salafi 
ideology--in the southern part of the country. This is a recent 
phenomenon in Yemen. Until very recently, Saleh did not view
al-Qaeda and the Salafi ideology as a threat to his regime. His 
two threats were the northern uprising and the southern 
movement. Now, this ideology is beginning to work against him, 
and therefore I see the growth of the Salafi ideology----
    The Chairman. What's fueling it?
    Dr. Nakhleh. [continuing]. As a serious threat.
    The Chairman. What is fueling it?
    Dr. Nakhleh. Anti-regime, that's one. Anti-Americanism, 
that's two. And the tradition of so many Yemenis, that had 
fought in Afghanistan and several other countries, are coming 
back. And so, there is this jihadist ideology that is fueling 
that. But, for the most part, when they were with Saleh--the 
Salafis against the northern uprising, and the southern 
movement, those people have left him now.
    The Chairman. As I listen to you, and particularly 
describing the challenges, the list of challenges, which are 
pretty awesome, I wonder how each of you would respond to this. 
I mean, you just can't help but feel the growing ingredients of 
a failed state, with a diminishing capacity of the United 
States to have an impact, by ourselves. Can each of you respond 
to that?
    Ambassador.
    Ambassador Bodine. It is a daunting prospect. These 
problems are longstanding.
    The Chairman. Has it grown worse since you were there?
    Ambassador Bodine. It has gotten worse--the population, in 
particular, and the diminishing resources; it absolutely has. 
The ability of the government to get services out to the 
population is a major problem.
    It is not a failed state. It has one major attribute that a 
lot of other failed states lack, and that is a very strong 
sense of identity. It doesn't have the internal divisions--it 
has political divisions, but it doesn't have the ethnic, 
sectarian, and linguistic divides.
    The Yemeni state does not wish to fail. But, it is going to 
take a significant, committed, long-term, economic and 
political engagement to help Yemen walk back from the 
precipice. And if there was one place to put our money, it 
would be on education. The lack of education is the major drag 
on development. It is one area where we can work and be 
effective.
    We can also work with the government, which, while there is 
certainly opposition to it, it is still a legitimate 
government. There are, within it, reformers and talented 
technocrats. There are people, who wish to make it better, we 
can work with. Focusing on education and governance can make 
the difference between failure--and the security as well as 
human nightmare that would mean a viable if not prosperous 
state. Its resource challenges means it will never be the 
Emirates. It does not have to become Somalia. It can be kept 
from being a failed state.
    The Chairman. Dr. Nakhleh.
    Dr. Nakhleh. Mr. Chairman, I believe that if these trends 
continue, that we talked about--social, political, and 
economic--especially nepotism that is the control of the 
family--the family control of the government--if these trends 
continue, I believe Yemen will become a failed state within the 
next 3 years.
    The Chairman. Dr. Kagan.
    Dr. Kagan. Senator Kerry, you began this hearing by 
speaking of Yemen in 2030, I think, and looking back. I would 
suggest that, as we think about strategy, the question we 
should be asking is how to make sure that, in 2020 or 2025 or 
earlier than that, we're not talking how things got to the 
point where we have a large military presence in Yemen and 
things are looking very bad. I think that this--that is the--
that is one of the objectives to be avoided. The way that we 
get there is by pursuing a course of action that allows current 
trends to continue.
    I'm not sure--I'm, frankly, not enough of an expert on 
Yemen to be able to tell you whether our influence is growing 
or diminishing. It will continue to diminish steadily as the 
state collapse proceeds. And so, I think that this is the time 
for a real sense of urgency to develop a strategy, resource it 
properly, and implement it, so that we don't have hearings 
years from now where we say, How did we miss the opportunity to 
avoid a war?
    The Chairman. Well said.
    And Mr. Johnsen.
    Mr. Johnsen. Thank you. We've been talking about al-Qaeda. 
And I think United States influence and how the United States 
conducts itself in Yemen, particularly in some of the 
governorates where al-Qaeda is most active--Ma'rib, Al Jawf, 
Shabwah, these places, the United States makes a very big 
impact and then it sort of retreats; makes a big impact and 
retreats. Whereas, al-Qaeda and the al-Qaeda figures there are 
known as individuals, and they're seen as pious men who are 
defending their faith. And one of the things that is really 
driving al-Qaeda recruitment in these areas is, really, the 
crushing poverty and the lack of employment opportunities. And 
you couple this with, sort of, the cell-phone videos of 
fighting in Iraq that many of these different tribesmen have, 
and we have a much different situation in Yemen than we did 
during the 1980s and 1990s, when the tribes weren't really the 
individuals who were fighting in Afghanistan, but now they are, 
and al-Qaeda is, I think, sinking deep roots there. And this 
should be a great cause for concern.
    The Chairman. Well, your assessments are all very sobering 
and very interesting, and I appreciate it enormously.
    The vote has started. We have time for Senator Lugar and 
Senator Gillibrand to be able to ask their questions. And I'm 
going to--since I take a little longer, leave to go over there 
and protect you folks.
    I want to thank you all for coming in this morning. As I 
said, we'll leave the record open. We will follow up with a few 
questions for you, but it's been very, very helpful.
    Senator Lugar.
    Senator Lugar [presiding]. Well, thank you, Chairman Kerry. 
The vote has started, so I will simply make this comment.
    I appreciate your thoughts, Ambassador Bodine, initially 
about USAID and the possibilities for much more of a 
development-oriented strategy on our part, because, as you 
mentioned, Yemen is running out of water. This is a problem 
even more threatening than the country's dwindling energy 
resources. So, leaving aside all the rebellions and other 
political issues for a moment, do you see a situation in which 
these chronic resource shortage issues could become 
overwhelming for a regime that is already not very powerful?
    I'm just curious as to how, in the midst of these serious 
problems relating Yemen's depleting natural resources would 
USAID work if we were able to develop concentrated strategy for 
how the country's economy might change visibly over the course 
of 5 or 10 years? Is this within the capacity of USAID, as it's 
now constituted or as it could be?
    Ambassador Bodine. How we should constitute USAID is a 
whole different hearing.
    If we try to do this directly--sneakers on the ground 
instead of boots--we don't have the resources, and we don't 
have the capability. When I was Ambassador and in subsequent 
visits--and I was there as recently as this time last year--I 
was impressed by very talented technocrats in the government 
and the talent, size, and commitment of a very large civil 
society. These are the vehicles, local vehicles along with NGOs 
such as those we worked through during my ambassadorship, the 
nascent local administration or primordial federalism, to 
supplement our direct efforts, not to supplant the government 
but to use the military term, as ``force multiplers.''
    I recently heard Haiti described as the ``Republic of 
NGOs,'' where the outside community has come in and ``done 
for'' Haiti. You end up with a cargo cult, with aid dependency 
and not capacity-building either private or public.
    There is capacity there to work through. The process of 
working with the state, local administration, and civil society 
develops the capacity at the same time. You end up 
accomplishing two goals at once.
    Working with civil society has the advantage that it 
develops a cadre of potential leaders. The current Minister of 
Water was the head of a water NGO, for example. We seem to be 
in agreement that we don't want to put a lot of American boots 
on the ground. I would also say we don't need to put a lot of 
USAID people on the ground. We need to figure out how to work 
through the rudimentary structures, build those structures, as 
well as help the government figure out how to deliver the 
services. We need to strengthen the state.
    Senator Lugar. Thank you very much.
    Senator Gillibrand [presiding]. Thank you, Senator Lugar.
    I'd like to just touch upon one issue that we haven't 
talked a lot about today, but certainly Senator Kerry's report 
addressed Yemen and Somalia together, and the relationships of 
al-Qaeda in both places.
    So, I'd like to know, you know, should we have an 
international strategic session to also focus on Somalia? Do 
you have any comments that you want to leave us with, with 
regard to the impact Somalia has right now on al-Qaeda's growth 
and on future terrorist threats and how it relates to Yemen?
    Dr. Kagan. Well, I would strongly encourage you to have a 
future session on Somalia, and probably one beyond that, that 
looks at the larger regional intersections of all of these 
groups and problems. There are something greater than, I think, 
150,000 Somali refugees in Yemen. Depends on what number you 
like. There has been a lot of movement back and forth. What 
does that mean? I think it's not entirely clear, except that 
Yemen is clearly affected by the conflict in Somalia, which is 
heading, frankly, in a rather bad direction.
    And I'm extremely concerned about the growth of Shabaab, 
and also about growing indications that Shabaab is also 
interested in bidding for al-Qaeda central's attention by 
conducting extra-regional and international attacks. And I 
think that this is a good opportunity for us to try to make 
sure that we don't repeat the experience of being generally 
surprised, outside of the realm of experts, when al Shabaab 
attempts to do something similar to what we saw on Christmas 
Day. So, I would encourage the committee to do that.
    Dr. Nakhleh. I would add to that, Senator. I would suggest 
that the hearing be on the Horn of Africa, the whole general 
area, and particularly the statements--recent statements that 
Sheikh Zindani made. Sheikh Zindani is a major Salafi figure in 
Yemen. He is also the founder of that Iman University. 
Recently--just the other day, he made statements against the 
United States presence there, and those statements have not 
been rejected even by the Government of Yemen. They have been 
accepted throughout. And so, a hearing on the Horn and the role 
of radical Salafi ideology throughout the Horn.
    Senator Gillibrand. Yes.
    Mr. Johnsen. Thank you, Senator. If I could just add to 
that. We certainly know, from recent history, that, in many 
ways, jihad is a family business. And we've seen a great deal 
of crossover between al-Qaeda in Yemen and then al-Qaeda in the 
Arabian Peninsula and what was going on in Somalia. We've 
pointed to this prison break in February 2006 as really being 
the starting point for
al-Qaeda in the Arabian Peninsula, the group we're dealing with 
today.
    Two individuals from this prison break made their way to 
Somalia and fought there. One was actually killed by the United 
States in June 2007. These individuals have family links within 
al-Qaeda in the Arabian Peninsula still today, as well as among 
individuals in Guantanamo Bay. And so, we certainly see 
something where
al-Qaeda in the Arabian Peninsula has stressed, in their public 
statements, cooperation and support for the Shabaab within 
Somalia, and vice versa.
    Senator Gillibrand. Thank you so much. Thank you all for 
your testimony. It's extremely beneficial that you've made your 
time available to us today, and this will just continue our 
conversation.
    Thank you very much.
    [Whereupon, at 12:13 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Senator Christopher J. Dodd, U.S. Senator From 
                              Connecticut

    Mr. Chairman, thank you for holding this hearing today. This is a 
critically important issue, and I appreciate our witnesses coming to 
lend their expertise today.
    If not for the bravery of the passengers and flight crew aboard 
Northwest Airlines Flight 253, Christmas Day, 2009, might very well 
have ended in tragedy. As the world learned more about Umar Farouk 
Abdulmutallab, it became clear that the U.S. national security, foreign 
policy, and intelligence communities missed a number of warning signs 
about Mr. Abdulmutallab and his intentions. Chief among these warning 
signs was Mr. Abdulmutallab's extended time in Yemen under the tutelage 
of radical Islamists tied to al-Qaeda.
    This is not the first time attacks against America or our allies 
can be traced back to Yemen, and it has become increasingly clear that 
Yemen's precarious situation poses a significant threat to U.S. 
national security.
    In many ways, the threats posed by Yemen have grown in plain sight, 
and it is unfortunate that it has taken a brush with disaster to focus 
our attention on the region. Our colleague, Senator Feingold, has long 
been sounding the alarm on Yemen and I hope that the administration is 
open to hearing his thoughts and ideas on how to tackle this vexing 
problem.
    Yemen faces a number of serious challenges to its stability and 
security. Dual rebellions in the north and south have displaced over 
100,000 people, alienated government forces, and seriously undermined 
the authority of the central government--an authority that was already 
tenuous at best. These conflicts have allowed
al-Qaeda elements in Yemen to quietly increase in strength with little 
interference from Yemeni authorities. Yemen also faces crushing 
poverty. This combination of poverty and instability represents a 
lethal vicious cycle, and make the nation especially attractive to al-
Qaeda leadership.
    If the United States is to succeed in Yemen, we must be ready to 
address not only the security situation, but also the poverty that fans 
flames of instability and violence.
    America's policy in Yemen cannot be predicated on military 
assistance alone, we must be committed to helping lift Yemenis out of 
crushing poverty, strengthening respect for the rule of law, and 
bringing about democratic reforms. Our experiences in Iraq and 
Afghanistan are clear indications that this sort of holistic approach 
is major determinant of our success in combating terrorism around the 
globe, and we must be committed to crafting such a strategy in Yemen.
    We must also be cognizant of our limitations. What can we achieve 
in Yemen? Is our goal to strengthen Yemen's Government and 
institutions? Is it to help Sana'a reassert control over its wayward 
provinces? How much are we willing to commit to these endeavors? Does 
the government of Ali Abdullah Saleh share our priorities and 
objectives? These are all critically important questions that must be 
answered if we expect to see progress in Yemen.
    We must also note that the challenges of Yemen are not unique. Many 
of the factors that make Yemen so attractive to al-Qaeda can be seen in 
Somalia and the border region of Pakistan, Afghanistan, and Iraq. 
Fragile states continue to represent a significant threat to U.S. 
national security, and we must pursue developing a foreign policy that 
seeks to head off state failure well before instability becomes 
systemic.
    Thank you again, Mr. Chairman, for holding this hearing and to our 
witnesses for joining us today. I look forward to a frank and 
meaningful discussion.
                                 ______
                                 

   Responses of Ambassador Daniel Benjamin to Questions Submitted by 
                        Senator Richard G. Lugar

    Question. There are conflicting assessments about the degree of 
support al-Qaeda in the Arabian Peninsula (AQAP) enjoys among the 
Yemeni population. What is the administration's assessment? How best 
can AQAP be delegitimized?

    Answer. While portions of the Yemeni population may be sympathetic 
along some ideological lines with the AQAP narrative, AQAP remains a 
fringe movement with a limited presence in Yemeni society. While the 
AQAP leadership has the intent and the capability to mount some 
attacks, we do not assess that AQAP has the support it would need to 
challenge Yemen's central government in an existential way, and we 
assess most Yemenis find AQAP's self-aggrandizing rhetoric overblown.
    Delegitimizing AQAP will be a matter of finding and mitigating the 
local drivers that give it traction. Yemen's efforts to improve its law 
enforcement, legislative, judicial and security capacities, bolstered 
through bilateral and multilateral assistance from the United States 
and others, will help the government establish legitimate institutions 
that deprive AQAP of space to operate. The Yemeni Government must also 
find enduring political settlements to both the Houthi conflict and the 
southern protest movement in order to avoid the humanitarian tragedies 
that amplify or create local grievances.

    Question. Al-Qaeda in the Arabian Peninsula (AQAP) targeted Saudi 
Prince bin Nayef in a failed suicide operation last year, and claimed 
responsibility for the December 25th attempt to blow up Northwest 
Airlines Flight 253. Although both attacks failed, they demonstrate an 
increasing level of sophistication on the part of AQAP. How has AQAP 
managed to regroup over the past 2 years? Where does its funding come 
from? From where does it recruit? What are its vulnerabilities and how 
can they best be exploited?

    Answer. AQAP officially established itself in January 2009 to 
formalize cooperation between Yemeni and Saudi operatives, but the 
Arabian Peninsula is not a new front in al-Qaeda operations. Indeed, 
al-Qaeda has had a presence in Yemen for many years. In 1992, al-Qaeda 
militants attacked a hotel in Aden which was then housing American 
military personnel who were on their way to Somalia to support the U.N. 
mission. In the 1990s, a series of al-Qaeda terrorist plots were based 
in Yemen, most of them aimed at Saudi Arabia. Following the attack on 
the USS Cole in 2000, the Yemeni Government, with support from the 
United States, dealt significant blows to al-Qaeda's presence in Yemen 
through military operations and arrests of key leaders.
    During much of the subsequent period, the Government of Yemen was 
distracted by other domestic security concerns, and efforts to 
neutralize al-Qaeda suffered. After the May 2003 al-Qaeda attacks in 
Saudi Arabia, the Saudi Government dramatically improved its 
counterterrorism efforts. While we welcomed Saudi efforts, 
unfortunately many of the radicals driven out of Saudi Arabia fled to 
Yemen, joining other fighters who had returned from Afghanistan and 
Pakistan. In 2006, a group of senior al-Qaeda leaders escaped from a 
Yemeni prison, greatly strengthening
al-Qaeda's capabilities in Yemen. This illustrates one of the great 
challenges in neutralizing the al-Qaeda threat--countering the 
geographical flexibility of
al-Qaeda and its affiliates and their ability to continually exploit 
poorly or ungoverned territories.
    AQAP's funding comes from a variety of sources, including 
supporters within the region. The cash economy of Yemen makes the 
movement of money difficult to track. While Yemen has not traditionally 
been a source of funds for international terrorist groups, it does 
serve as a destination and transit point of funds. With the assistance 
of the World Bank, the IMF, and the UNODC, Yemen has created a new 
Anti-Money Laundering/Counterterrorist Financing law which was enacted 
this month. A multiagency Financial Systems Assessment Team (FSAT) 
conducted a week-long, in-country evaluation of Yemen's capacity to 
combat money laundering and terrorist financing, in order to determine 
its most critical training and technical assistance needs in 2007. 
Interlocutors noted that the cash-intensive nature of the economy, 
significant levels of corruption, and problems in the judicial system 
would be important factors to consider when developing training and 
technical assistance programs related to terrorist financing, money 
laundering, and financial crimes. We are carrying out training and 
assistance pursuant to the FSAT conclusions, particularly correlated to 
the risks and vulnerabilities related to the money-exchange service 
sector, the NGO sector, corruption, and increased evidence of narcotics 
trafficking.
    AQAP's recruitment efforts appear primarily focused within Yemen, 
and in the Arabian Peninsula, but we are concerned about the potential 
for recruitment of westerners or other individuals with access to the 
homeland. Some individuals also may proactively seek out AQAP's 
leadership. The perpetrator of the airline bombing attempt claimed that 
AQAP directed his attempt and provided him with training and 
explosives.
    AQAP's strength derives from its ability to tailor its message to 
local grievances that stem from poor governance and the real or 
perceived injustices perpetuated by the central government. This 
underscores the importance of working with international partners and 
Yemen's Government to strengthen the institutions and delivery of 
services to local population as we simultaneously strengthen the local 
security services.

    Question. How does the administration assess the practical impact 
of the January 2009 merger between al-Qaeda in Saudi Arabia and al-
Qaeda in Yemen to form
al-Qaeda in the Arabian Peninsula? Are there any known cleavages 
between the formerly distinct branches of al-Qaeda?

    Answer. The merger of al-Qaeda in Saudi Arabia and al-Qaeda in 
Yemen accrued some practical benefits to the organization, but also 
exposed it to more consolidated counterterrorism tools, such as our 
recent foreign terrorist designations, and increased cooperation 
between Saudi Arabia and Yemen to confront a shared threat.
    Through this merger, AQAP has expanded its strategic depth on the 
Arabian Peninsula and attempted to take advantage of the relative 
freedom AQ operatives have come to enjoy in Yemen. Merging into a group 
that purports to cover the entire Arabian Peninsula attached the 
geographical convenience of operating in Yemen to the symbolic 
significance of its presence in Saudi Arabia, as al-Qaeda has long 
claimed to be a legitimate defender of the ``land of the two 
sanctuaries.'' Establishing a larger franchise also provides additional 
impetus to pursue a more ambitious agenda, as we saw in its attempt to 
attack the U.S. homeland.
    In more practical terms, the merger reflects al-Qaeda's need to 
find new sanctuary as the Saudi Government dramatically improved its 
counterterrorism efforts following the 2003 attacks. As AQ radicals 
went to Yemen, they were able to join other fighters returning from 
Afghanistan and Pakistan, as well as those senior AQ leaders who 
escaped from prison in 2006, including AQAP leader Nasir al-Wahishi.
Al-Wahishi's direct ties to al-Qaeda and its senior leadership gives 
him a certain credibility in attracting recruits and consolidating 
efforts. There had been some speculation about cleavages among those 
who advocated a longer term approach, and those who advocated nearer 
term operations, but the practical impact of these speculative 
disagreements should have no bearing on our policy: violence is a 
fundamental part of al-Qaeda's mission and it means to carry out 
violent attacks against civilians.
    However, AQAP's merger also exposes the group to broader 
authorities and tools to confront it and to deprive it of funding. The 
Secretary of State has designated al-Qaeda in the Arabian Peninsula 
(AQAP) as a Foreign Terrorist Organization (FTO) under Section 219 of 
the Immigration and Nationality Act, as amended (INA). The Secretary 
also designated AQAP and its two top leaders Nasir al-Wahishi and Said 
al-Shihri as Foreign Terrorist Organizations under Executive Order 
13224. These actions prohibit provision of material support and arms to 
AQAP and also impose other restrictions that will help stem the flow of 
finances to AQAP and give the Department of Justice the tools it needs 
to prosecute AQAP members.

    Question. Were there warning signs that AQAP had the motivation and 
the means to launch on attack on the United States? How does the 
administration interpret AQAP's decision to ``outsource'' to a Nigerian 
national the attack on Northwest Airlines Flight 253?

    Answer. We have long been concerned about al-Qaeda's interest in 
recruiting individuals with access to the U.S. homeland. Al-Qaeda's 
senior leadership has a standing commitment to attack the U.S. 
homeland, which its affiliates share. This incident further underscores 
the need to implement a global approach to countering the AQ threat.

    Question. The Government of the Yemen has long been preoccupied 
with an insurgency in the north and a secessionist movement in the 
south. Al-Qaeda has not been a priority. In the past month, however, 
the Government has vigorously pursued al-Qaeda in the Arabian 
Peninsula. To what do you attribute this shift? What is the best way to 
sustain the Yemeni Government's commitment to combating AQAP?

    Answer. We are pleased with the commitment that President Saleh and 
the Yemeni Government have shown to confront the threat of al-Qaeda and 
to recognize it as a threat to the people and state of Yemen. The 
United States remains encouraged by the Government of Yemen's action 
against al-Qaeda and other extremist groups over the last year, 
following a number of terrorist attacks.
    In the past year, the administration has maintained a vigorous 
tempo of senior level visits to Yemen, most recently by General 
Petraeus and Deputy National Security Advisor Brennan to press our 
concern about al-Qaeda's ability to operate from and within Yemen.
    This intensified engagement, combined with the Government of 
Yemen's greater awareness of the seriousness of the al-Qaeda threat, 
has engendered the government's recent efforts to combat al-Qaeda. We 
must continue sustained engagement as these efforts continue.

    Question. Yemeni leaders have come out with conflicting statements 
about al-Qaeda in recent weeks. Some have said that AQAP needs to be 
eliminated. Others have suggested that accommodation is an option. What 
is the best strategy for sustaining the Yemeni Government's commitment 
to combat AQAP?

    Answer. Again, we are pleased with the Yemeni Government's 
commitment to confronting the threat of al-Qaeda. The United States 
remains encouraged by the Government of Yemen's action against al-Qaeda 
and other extremist groups over the last year, following a number of 
terrorist attacks. Sustaining this commitment will be the work of 
cooperation with Yemen's leadership and the international community to 
help find political solutions to Yemen's internal conflicts, and 
addressing the conditions that have allowed violent extremists to find 
safe haven in Yemen.

    Question. The United States has long been a target in Yemen, as 
evidenced by attacks on the USS Cole and the U.S. Embassy. Seeking to 
blow up a Detroit-bound airplane marks a major shift by AQAP in trying 
to strike the homeland, however. To what do you attribute AQAP's shift 
toward targeting the U.S. homeland? How has the plot's failure been 
interpreted on the ground in Yemen?

    Answer. We do not yet know what specific set of factors caused AQAP 
to attempt an attack against the continental United States. We have 
long been concerned about al-Qaeda's interest in recruiting westerners 
or other individuals with access to the U.S. homeland. AQAP, like other 
AQ affiliated groups, will use whatever means they can to recruit 
willing participants, and to find ways to support or use willing 
volunteers. While there has been debate about whether or not AQAP's 
interests were more regionally or globally focused, al-Qaeda's senior 
leadership has a standing commitment to attack the U.S. homeland and 
AQ's affiliates share its antipathy toward the United States. We should 
not assume that the plot's failure will discourage additional attempts, 
emanating from Yemen or elsewhere, and so the administration is taking 
additional steps to review and improve our information sharing and 
security procedures.

    Question. Human rights groups have long expressed concern that that 
some Middle East governments engage in repressive actions against 
political opposition and independent media under the guise of 
``combating terrorism.'' The United States seeks ROYG cooperation both 
in combating terrorism and in improving respect for human rights, among 
other priorities. How is the administration working to ensure that 
advances in one area do not come at the expense of the other?

    Answer. Our commitment to basic human rights is integral to our 
long-term counterterrorism objectives, and the two should never be 
mutually exclusive. We know that the deterioration of human rights 
creates additional fertile ground for al-Qaeda to manipulate grievances 
and gain support. We remain wary of attempts to use the fight against 
terrorism to repress political opposition, and we expect transparency 
and fidelity in the conduct of operations that target named al-Qaeda 
individuals. Counterterrorism efforts includes building security 
services that are more accountable and responsive to the needs of local 
populations and whose practices are consistent with international human 
rights standards. Support for civilian institutions of law enforcement, 
strong but fair antiterrorism legislation, and responsive judicial 
institutions is also necessary to ensure human rights are respected.
                                 ______
                                 

Responses of Assistant Secretary Jeffrey Feltman to Questions Submitted 
                      by Senator Richard G. Lugar

    Question. As you discussed in your testimony, the Government of 
Yemen is fighting the Houthi insurgency in the north and faces a 
secessionist movement in the south. Further complicating matters, Saudi 
Arabia has now become a party to the Houthi conflict. You noted that 
neither conflict can be solved by force. Moreover, the Government's 
preoccupation with these other conflicts distracts it from combating 
al-Qaeda. How is the administration promoting the peaceful resolution 
of these conflicts?

          (a) With respect to the Houthi rebellion, you noted that five 
        cease-fires had been brokered in previous rounds of fighting, 
        but that related political agreements had never been 
        implemented. What are the prospects for a comprehensive 
        settlement to be reached and fully implemented after this sixth 
        round of fighting? Who has the clout to broker such an 
        agreement?
          (b) The southern rebellion appears more susceptible to 
        negotiations, but there is distrust on the part of the Southern 
        Movement that the Government of Yemen will follow through on 
        any promises. Who could help mediate this conflict? Could a 
        third party serve as a guarantor?

    Answer. With respect to the Sa'ada war, the U.S. Government, both 
publicly and privately, is calling on both parties to declare a cease-
fire and return to negotiations that will lead to a political solution 
to the conflict and a lasting end to violence. We also call on both 
parties to ensure the safety of civilians and humanitarian aid workers 
in the region, and on all states in the region to facilitate the safe 
passage of emergency relief supplies to those in need.
    The Yemeni Government has thus far rejected offers of third-party 
mediation to the conflict. The U.S. Government will work with our 
partners in the international community to encourage the Yemeni 
Government to return to the negotiating table.
    With respect to the south, we believe that a national dialogue 
between the government and the political opposition, including 
disaffected southerners, could help alleviate tensions there. 
Meaningful devolution of power to Yemen's governorates could also serve 
to defuse the resentment that fuels separatist sentiments in the south. 
The U.S. Government is encouraging the Yemeni Government and the 
legitimate political opposition, under the umbrella Joint Meeting 
Parties (JMP), to renew dialogue on electoral and political reform, 
including greater local autonomy, which are issues at the root of the 
Southern Movement's grievances. Embassy staff speak with political 
actors from across the spectrum and will continue to reiterate our 
support for dialogue.
    The Southern Movement has sought third-party mediation, but the 
Yemeni Government insists that southern discontent is an internal 
matter that should be addressed internally. We continue to encourage 
both parties to engage in genuine dialogue, while calling on the Yemeni 
Government to refrain from violent repression of peaceful 
demonstrations and to respect the rights of journalists reporting on 
the situation in the south.

    Question. Is the administration satisfied that the Republic of 
Yemen Government is using U.S.-provided counterterrorism assistance to 
combat al-Qaeda, and not diverting it for use in its fight against 
Houthi rebels? As cited in a recent Minority Staff report, a 2009 end-
use monitoring check performed by Embassy Sana'a's Office of Military 
Cooperation revealed that ``much equipment was unaccounted for.'' \1\ 
In addition, OMC determined that there were insufficient physical 
security safeguards in place at the Yemeni Special Operations Forces' 
compound. What measures have been taken to strengthen end-use 
monitoring beyond twice-yearly inventory checks?
---------------------------------------------------------------------------
    \1\ 1 S. PRT 111-38, Following the Money in Yemen and Lebanon: 
Maximizing the Effectiveness of U.S. Security Assistance and 
International Financial Institution Lending (http://frwebgate.
access.gpo.gov/cgi-bin/
getdoc.cgi?dbname=111_cong_senate_committee_prints&docid=f:54245.
pdf), January 5, 2010, p. 10.

    Answer. The United States uses Foreign Military Financing (FMF) to 
train and assist Yemen's Central Security Forces (CSF) and other Yemeni 
Government organizations engaged in counterterrorism operations. These 
organizations include the Ministry of Defense and the Ministry of the 
Interior security forces, the Yemeni Coast Guard, Air Force, and 
Special Forces, and the Central Security Force's Counterterrorism Unit 
(CTU). They all have discrete responsibilities focused on 
counterterrorism and border control.
    All equipment provided to Yemeni forces is subject to end-use 
obligations. Both the Department of State and the Department of Defense 
have end-use monitoring programs to oversee compliance with our 
transfer agreements. For specifically designated technologies, such as 
Night Vision Devices, the transfer agreements include accountability 
and security provisos which allow U.S. officials to conduct recurring 
inventories as part of the enhanced end-use monitoring process.
    We consulted with Embassy Sana'a Office of Military Cooperation 
(OMC) about the recent Minority Staff report. According to OMC, it is 
not aware of any potential violations of Yemen's end-use obligations. 
Instead, the report referred to incongruities in recordkeeping on the 
part of U.S. officials. As a result of that study, records and 
procedures have been reviewed and updated. Enhanced end-use monitoring 
of night vision devices continues in accordance with normal Defense 
Security Cooperation Agency practices.
    The United States welcomes the cease-fire in the Government of 
Yemen--Houthi conflict. We understand a mediation commission 
representing all parties is monitoring compliance with the terms of the 
cease-fire. We hope these efforts will begin the urgent process of 
reconciliation and reconstruction to bring the conflict to a permanent 
end.

    Question. Given the restrictions on staff travel outside of Sanaa, 
how comprehensively is the Embassy in Sanaa able to track developments 
outside of the capital? How can the U.S. Government best mitigate any 
related gaps in our collective understanding of the evolving situation 
in Yemen?

    Answer. We believe that Embassy staff are able to effectively track 
developments outside of Yemen's capital. Although travel was limited in 
the months following the September 2008 attack, Embassy staff have 
conducted numerous visits outside the capital in recent months, 
including to the governorates of Aden, Ta'iz, Hudaydah, Amran, Mahweet, 
Ibb, Hadramaut, Socotra, and Lahj. During these visits, they met with 
local officials, business and civic leaders, journalists, human rights 
advocates, education and health care workers, and others, who shared 
valuable information and local perspectives on political, economic, and 
social developments. We maintain contact with actors across the country 
from a variety of backgrounds who provide us their perspectives on the 
situation in Yemen and the challenges it faces.

    Question. The United States lacks the leverage to persuade the 
Government of Yemen to take the difficult decisions that are necessary 
for it to deal effectively with its multiple security, governance, and 
economic development challenges. Regional players, such as Saudi 
Arabia, enjoy more leverage. That said, witnesses on our second panel 
cautioned against relying too heavily on Saudi Arabia, given historical 
problems between the two countries. Moreover, Saudi Arabia views Yemen 
through the prism of its own national interests, and the way it 
approaches matters in Yemen can be at odds with U.S. policy. For 
example, reported direct cash transfers from the Kingdom to President 
Saleh seemingly undermine U.S. calls for greater transparency. How can 
the United States best partner with Saudi Arabia and other gulf states 
to ensure that our efforts to help Yemen are in harmony and advance our 
interests?

    Answer. U.S. officials consult with Yemeni counterparts on a 
variety of security, economic, and governance issues. Our engagement 
and our assistance programs aim to persuade the Government of Yemen to 
implement the political and economic reforms necessary to confront its 
security, governance, and development challenges. The Yemeni 
Government's recent operations against Al-Qaeda in the Arabian 
Peninsula (AQAP) indicate that increased U.S. engagement with Yemen is 
helping to focus the Yemeni Government's efforts on eliminating the 
threat posed to both our nations by AQAP.
    To maximize our limited leverage, the U.S. Government is seeking 
greater coordination with Yemen's influential neighbors and donors, 
including Saudi Arabia, other GCC members, and major donors from the 
EU. On January 27, the Secretary of State will participate in a meeting 
in London with other Foreign Ministers and representatives of the World 
Bank, IMF, and other multilateral organizations in order to consolidate 
international support for Yemen, coordinate assistance efforts, and 
reach agreement on assisting Yemen in its political and economic reform 
efforts.

    Question. How can the role of the private sector in Yemen be 
strengthened, including in the area of agricultural development? Are 
there areas of opportunity for business growth and investment that 
would create jobs?

    Answer. Yemen faces some of the most difficult challenges of any 
developing country in terms of economic development. The country is 
running out of water at a dramatic rate; the population will double in 
the next 15 years; corruption is widespread; foreign and domestic 
investment is almost zero;only half the population is literate; there 
is 40-50 percent unemployment with almost all economic reforms stalled 
because of prolonged political stalemate; and there are three ongoing 
conflicts in the country. The prospects for meaningful economic 
development in the country in the coming years are extremely limited.
    The private sector can best be strengthened in Yemen by supporting 
micro-, small-, and medium-sized enterprises (MSMEs) and farmers, 
particularly in rural areas, where job creation is most promising. 
Promoting alternatives to qat production, which has turned Yemen into 
an importer of every agricultural and livestock product, is key to 
decreasing water consumption and increasing food security and incomes. 
Government policies that facilitate business growth through increasing 
access to finance, eliminating market distortions, and promoting 
nonpublic sector employment are important. Anticorruption measures that 
can reinvigorate public trust in Yemen's institutions must be supported 
at all levels. Basic government services that affect the private 
sector, including security, electricity, health, and education must be 
improved. Transparency in planning and budgeting at all levels must be 
encouraged. The government must invest in basic community-level 
infrastructure. And, females must become part of all aspects of the 
Yemeni socioeconomy.
    Areas of opportunity for business growth and investment that would 
create jobs are primarily found in supporting MSME development and 
strengthening and promoting agricultural expansion in competitive crops 
that are demanded locally, including date palms, olives, nuts, and 
other drought resistant fruits and vegetables. Investments that involve 
significant resources or require the involvement of the Government of 
Yemen (GOY) will be more difficult to move forward as corruption is 
rampant.
    In 2010, USAID will begin implementation of two flagship 
initiatives designed to address most of the focus areas highlighted 
above. USAID's new 5-year, $125 million Community Livelihoods Project 
(CLP) will work in communities in conflict-prone rural areas where 
livelihood improvements will help to increase stability throughout the 
whole country. CLP will focus on job creation (private sector and 
agriculture), basic public service provision (health, education, 
water), and the local governance strengthening. Small-scale community 
infrastructure projects will address infrastructure, food security, 
agricultural productivity and other deficiencies that limit economic 
prospects for vulnerable communities. To address the problem of qat, 
USAID will promote traditional, water-conserving crops that are in 
local demand as an alternative to qat, which uses precious water 
resources and limits economic opportunities in growing areas. 
Assistance to improve farming practices, post harvest operations, 
information, marketing, and processing can attract farmers and small- 
and medium-sized investors to abandoning qat production.
    USAID will also begin a new five year, $43 million Responsive 
Governance Project (RGP) to improve the ability of the GOY to meet the 
needs of its people, including the private sector, as well as to 
reverse the decline in government legitimacy and credibility in the 
eyes of its citizens. The RGP will help the GOY develop policies, 
regulations, and laws that will support socioeconomic reforms and 
development, and promote governance initiatives related to 
decentralization, election, human rights, anticorruption, and 
transparency reforms.

    Question. What is the situation of Somali and Ethiopian refugees in 
Yemen, as well as of internally displaced people in the north? What 
kind of support is the U.S. Government providing? What are the 
obstacles to the provision of humanitarian relief? What more can be 
done to address their plight? Is there a nexus, as some have suggested, 
between AQAP and Somali refugees?

    Answer. Refugees.--Refugees are fleeing Somalia and Ethiopia in 
search of safety and protection. UNHCR estimates there are more than 
162,000 Somali refugees and more than 2,500 Ethiopian refugees in 
Yemen. We encourage all governments in the region to permit 
unrestricted access to first asylum procedures for refugees.
    In FY 2009, the State Department's Bureau of Population, Refugees, 
and Migration (PRM) provided more than $4.3 million in earmarked 
funding primarily to UNHCR to help meet protection and assistance needs 
of African refugees in Yemen, including shelter, water, sanitation, and 
hygiene needs in the al-Kharaz refugee camp, and education, training, 
and health needs of refugees in urban areas.
    Although at a recent public graduation ceremony for al-Shabaab 
recruits their leaders called for fighters to go to Yemen, evidence of 
direct links between AQAP and the armed Somali group al-Shabaab is 
limited. The prospect of these terrorist groups reinforcing one another 
is of course worrisome, and the U.S. Government is monitoring the 
situation closely. The Somali refugees in Yemen are fleeing the 
depredations of al-Shabaab and the multiple armed groups and conflicts 
that have plagued Somalia for nearly two decades. There were some 
reports that Somali refugees were impressed into fighting with the 
Yemeni Houthi rebels during that recent conflict. As a matter of 
principle, the United States condemns recruitment of refugees by armed 
groups.
    Internally Displaced Persons (IDPs).--The U.S. Government has 
provided nearly $17 million in assistance in FY 2010 and FY 2009 to 
help meet the emergency shelter, water, sanitation, hygiene and 
protection needs for the most vulnerable among the estimated 250,000 
internally displaced persons (IDPs) in Yemen and an estimated 25,000 
host families in Sa'ada, Hajjah, and Amran governorates.
    Since August 2009, the U.S. Agency for International Development 
(USAID) has provided food assistance valued at $7.4 million to the 
World Food Programme (WFP) to help meet the emergency food and 
nutrition needs of approximately 150,000 IDPs and other conflict-
affected people in Sa'ada Governorate. USAID has also provided nearly 
$3 million to date in FY 2010 to support health, nutrition, shelter, 
and water and sanitation interventions targeting IDPs, as well as 
logistics and humanitarian coordination. In FY 2009, USAID provided 
$250,000 to the United Nations Children's Fund (UNICEF) to support 
emergency health, nutrition, water and sanitation activities.
    The State Department's Bureau of Population, Refugees, and 
Migration (PRM) provided $4.4 million in FY 2009 to the United Nations 
High Commissioner for Refugees (UNHCR) to facilitate IDP registration, 
provide protection and shelter, and distribute blankets, tents, and 
other nonfood items to displaced Yemenis in northern Yemen. PRM also 
provided $1.5 million in FY 2009 to the International Committee of the 
Red Cross (ICRC) to provide food, shelter, medicine, water and 
sanitation assistance, and household essentials to conflict-affected 
populations in Yemen.
    Humanitarian aid agencies report limited access to IDP populations, 
especially those outside of official camps. Yemeni IDPs and conflict 
victims remain in need of food, water, sanitation, shelter, health 
care, and other services.

    Question. Has the administration considered deploying to Yemen an 
interagency assessment team through the Office of the Coordinator for 
Reconstruction and Stabilization to assist Ambassador Seche and the 
Country Team in determining potential ways to quickly strengthen the 
capacity as appropriate for near- and medium-term U.S. responses to the 
threat of terrorism emanating from Yemen?

    Answer. Embassy Sanaa has asked the Office of the Coordinator for 
Reconstruction and Stabilization (S/CRS) to facilitate a strategic 
whole of government planning process that will directly inform the 
Mission Strategic Plan for 2012. S/CRS will send a team beginning in 
mid-February to conduct that planning.
    These efforts build on the Yemen Interagency Conflict Assessment 
that S/CRS and USAID sponsored in September 2009, which was also part 
of the broader review of U.S. Government strategy in Yemen mandated by 
the National Security Council.
    S/CRS will continue to work with Embassy Sanaa, NEA and the 
interagency to identify ways in which we can best support the critical 
effort in Yemen.
                                 ______
                                 

 Responses of Assistant Secretary Jeffrey Feltman and Coordinator for 
  Counterterrorism Daniel Benjamin to Questions Submitted by Senator 
                          Russell D. Feingold

    Question. Secretary Feltman, Ambassador Benjamin, since the 
attempted attacks on Christmas Day, numerous administration officials 
have repeatedly called for an expanded partnership with the Yemeni 
Government.
    I think such a partnership is critical in a number of regards. I am 
also very concerned about the repressive nature of Yemen's Government. 
In fact, last year's State Department report on Human Rights notes 
``Significant human rights problems persisted . . . and there were 
limitations on citizens' ability to change their government due to 
corruption, fraudulent voter registration, and administrative weakness 
[as well as] reports of arbitrary and unlawful killings by government 
forces, politically motivated disappearances, and torture in many 
prisons.''
    More recently, Ambassador Benjamin, you noted that ``we must 
address the problem of terrorism in Yemen from a comprehensive, long-
term perspective that considers various factors, including assisting 
with governance and development efforts as well as equipping the 
country's counterterrorism forces.''
    Accordingly, what steps are being taken to ensure that our policy 
approach is balanced--one that both strengthens our partnership to 
counter al-Qaeda while also pressing for improvements in governance and 
development?

    Answer. Our basic strategy for Yemen is two-pronged. We are 
simultaneously working with the Government of Yemen to improve its 
capacity to combat terrorism in the short term while seeking longer 
term improvements in the government's capacity to govern the country 
and meet the population's essential services needs. On the development 
side, USAID is implementing a strategy aimed at increasing stability 
through interventions designed to improve livelihoods in communities in 
the country's most unstable areas. In addition, the Middle East 
Partnership Initiative (MEPI) supports projects that offer a more 
positive future for Yemeni youth, empower Yemeni women, promote job 
creation and education, and encourage political reform and peaceful 
civic participation. Through this broad and balanced range of efforts, 
encompassing security, development, and civil society initiatives, we 
intend to change the base conditions that make Yemen a fertile breeding 
ground for
al-Qaeda.
    The U.S. Government is committed to strengthening the democratic 
process in Yemen. We are promoting ongoing electoral reform in 
preparation for April 2011 parliamentary elections, as well as 
providing assistance to help Yemen combat corruption, promote rule of 
law, and improve governance. USAID is supporting meaningful devolution 
of power to Yemen's governorates, which will serve to defuse resentment 
that fuels separatist sentiment in the south and the Houthi rebellion 
in the north. USAID, MEPI, and our Public Diplomacy officers are 
working to support those elements of civil society essential to an 
inclusive democratic process: a responsible, independent media; full 
electoral participation by women; responsible and representative 
political parties; and effective nongovernmental organizations. USAID 
programs in Yemen's rural areas include a focus on the development of 
strong, independent local councils as a means to generate greater 
ownership among Yemen's people for their nation's democratic 
institutions.
    MEPI is committed to working with Yemeni civil society to 
strengthen good governance and the rule of law, improve internal 
stability, and empower Yemenis to build a more peaceful and prosperous 
future. MEPI places particular emphasis on providing support for Yemeni 
advocates of positive change, including in rural areas that traditional 
U.S. aid implementers cannot access. One of MEPI's local grant 
recipients, the Democracy School, has implemented several successful 
projects to combat youth radicalization through conflict resolution and 
leadership training. These programs target the same young, religious, 
and disenfranchised populations who are so susceptible to recruitment 
by extremists. In another MEPI project, imams and women preachers in 10 
Yemeni governorates are learning about principles of democracy and 
human rights through a program implemented by a local group, the 
National Organization for Developing Society (NODS).

    Question. Secretary Feltman, the instability in nearby Somalia 
contributes to the fragility of Yemen, particularly in terms of the 
number of asylum seekers that drain Yemen of its already scarce 
resources, but also because the porous border could enable militants 
and weapons to move back and forth between countries. How are you 
working within the existing structure at State--which does not place 
Yemen and the Horn of Africa in the same bureau--to ensure relevant 
information is analyzed and shared appropriately?

    Answer. The tens of thousands of Somalis, a mixed flow of refugees, 
economic, and other migrants who arrived in Yemen in 2009, are evidence 
that increased instability in either country is likely to affect its 
neighbor. There is potential for an increased flow of foreign fighters 
from Somalia to Yemen, and vice versa, and we are monitoring the 
situation closely.
    The fact that Yemen and the Horn of Africa are not handled in the 
same bureau at the State Department does not hinder our ability to 
share relevant information and analysis appropriately. The Bureau of 
African Affairs and the Bureau of Near Eastern Affairs work together 
closely on Yemen and Somalia. Many of the cross-cutting issues 
affecting these countries, including counterterrorism, refugee flows, 
and piracy are handled by functional bureaus that are not divided along 
geographic lines. Also of note, Yemen and Somalia are both part of the 
East Africa Regional Security Initiative, which works to enhance U.S. 
coordination between the embassies in these countries and the ability 
of these states to counter terrorism threats.

    Question. Last summer, I expressed concern about the transfer of 
detainees to Yemen and urged that we address directly the weaknesses in 
Yemen's justice and security systems. The challenges posed by the need 
to close Guantanamo consistent with our national security are nothing 
new. While, under the circumstances, I support the administration's 
decision to halt transfers to Yemen, abruptly changing transfer 
policies in reaction to the latest threat is not in itself a solution. 
Secretary Feltman, Ambassador Benjamin,
    Are we developing any policies to directly address weaknesses in 
Yemen's ability to receive Guantanamo detainees? When will Congress be 
briefed on the administration's Guantanamo transfer policies?

    Answer. The administration has always sought to ensure that 
detainees are transferred from Guantanamo in a manner consistent with 
the national security and foreign policy interests of the United 
States. In the case of Yemen, we thought it prudent to suspend 
repatriations of Yemeni detainees in light of the current security 
situation in Yemen. Concurrently, we are working with the Government of 
Yemen to assist in its efforts to improve the capacity of its CT forces 
and we have seen an improved performance of those CT forces in recent 
months.
    Regarding briefing Congress on Guantanamo transfer policies, we 
understand that the White House is coordinating briefings from the 
relevant officials from the Department of Justice, Department of 
Defense, Department of State, and others.
                                 ______
                                 

   Responses of Coordinator for Counterterrorism Daniel Benjamin to 
          Questions Submitted by Senator Robert P. Casey, Jr.

    Question. The potential threat emanating from extremists carrying 
American passports and the related challenges involved in detecting and 
stopping homegrown operatives is substantial. What are we doing to 
mitigate the threat posed by the 36 American ex-convicts in Yemen? How 
would you recommend that we address the U.S. prison radicalization 
problem?

    Answer. The presence of al-Qaeda in the Arabian Peninsula (AQAP) 
and related extremists in Yemen is a primary threat to the United 
States, U.S. interests in Yemen, and a grave threat to the security and 
stability of the Government of Yemen (ROYG). Yemen is continuing 
operations to disrupt AQAP's planning and deprive its leadership of 
safe haven within Yemen, and along with the increased commitment of the 
United States and international partners to strengthen Yemen's 
security, will continue to seek out any and all AQAP threats. 
Additionally, the U.S. Government has put stringent new security 
measures in place in response to the failed December 25 terrorist 
attack involving anyone traveling to the United States. However, 
persons bearing U.S. passports are U.S. citizens and entitled to travel 
to the United States. That said, when their actions appear to involve a 
violation, or potential violation, of law, the U.S. Government can and 
does inform the proper law enforcement entity, consistent with the 
Privacy Act protections afforded to all U.S. citizens. In accordance 
with 22 CFR 51.70 and 51.72, a Federal or State law enforcement agency 
can request the denial of or revocation of a passport. In addition, 
recognizing that even our own citizens can pose a threat, the United 
States is reviewing other measures, consistent with United States law, 
which we can implement. U.S. citizens in Yemen are subject to Yemen's 
criminal laws and can be subject to Yemeni law enforcement measures 
with appropriate notification to the United States through diplomatic 
channels.
    Prison radicalization within the United States is not an issue that 
the Department of State would normally address. I would refer you to 
the Departments of Justice and Homeland Security for information on 
their efforts on U.S. prison radicalization. The Department of Justice 
would be better suited to answer any questions on the radicalization of 
prisoners within the United States.

    Question. Between 2000 and 2002, in the wake of the USS Cole 
bombing and the 9/11 attacks, Yemen requested that the United States 
create a Yemeni Coast Guard and train certain counterterrorism units. 
What new programs are now needed inside Yemen to boost its security 
forces?

    Answer. The U.S. Government (USG) provides security assistance 
based on USG policy and strategic objectives, and detailed in-country 
assessments by subject matter experts of the country's needs and 
ability to absorb the equipment and training. On the security 
assistance front, the United States provides training and assistance to 
Yemen's Central Security Forces (CSF) and other services called upon to 
engage in counterterrorism operations. Through Diplomatic Security 
Antiterrorism Assistance (DS/ATA) programs we provide training to 
security forces in the Ministry of Interior, including the Yemeni Coast 
Guard and the Central Security Force's Counterterrorism Unit (CTU). We 
plan to steadily increase our security assistance to Yemen this year 
and in the coming years. Our determination of what additional 
assistance will best address Yemen's security requirements will be 
based on Government of Yemen (ROYG) input, our own formal assessments, 
and consultations with our regional and international partners.
                                 ______
                                 

 Response of Assistant Secretary Jeffrey Feltman to Question Submitted 
                    by Senator Robert P. Casey, Jr.

    Question. Counterterrorism efforts in Yemen hit a low point in 
February 2006 when 23 al-Qaeda terrorists, including the mastermind of 
the 2000 USS Cole bombing, escaped from a Yemeni prison. How confident 
are we that the Yemeni Government won't tolerate terrorists to escaping 
from their prisons? What can the United States to bolster Yemen's 
capabilities to secure high value suspects?

    Answer. Yemen's history of high-profile terrorist releases and 
escapes is a serious concern, but we are pleased with the recent 
commitment that President Saleh and the Yemeni Government have shown to 
confront the threat of al-Qaeda, recognizing al-Qaeda as a threat to 
the people and state of Yemen. The United States is continuing to work 
with our international partners and the Government of Yemen to 
encourage reform in many of the areas of the criminal justice system 
involved in arresting, prosecuting, convicting, and incarcerating 
terrorists.
                                 ______
                                 

          Response of Barbara Bodine to Question Submitted by
                      Senator Robert P. Casey, Jr.

    Question. How can the administration and Congress provide more 
assistance to Yemen in an effective way? What are the obstacles to 
delivering development assistance to disaffected tribes in unsecure 
areas? How can aid providers circumvent high levels of corruption found 
in the Yemeni Government?

    Answer.
                       more effective assistance
    Provision of effective assistance to Yemen, assistance that 
develops the capacity of the state and society to better manages its 
own development and delivery of basic services, does not require a 
major influx of USAID personnel or American contractors. Quite the 
opposite. The United States and other project donors should seek out 
and develop local capacity to plan, direct, and implement development 
assistance and service delivery. There are a number of existing avenues 
and partners within Yemen already.
1. Existing Structures
    The ministries of planning, health, and education, among others, 
have competent ministers with competent deputies. While there is not 
tremendous bench-depth, we can and should work through them in design 
and delivery of projects. This can be augmented by USAID officers in a 
partnership capacity and select American, international and local NGOs. 
We need to work with and through those elements of the Yemeni 
Government that have a shared commitment to effective development, 
assist in their capacity-building, not undermine or delegitimize them.
    USAID describes the Yemeni Social Fund for Development as ``a 
particularly strong and well-funded development agency within the 
Yemeni Government . . . established in 1997 as an administratively and 
financially semiautonomous agency (with a) mandate to improve access to 
basic social service for low-income groups and to provide an example of 
an effective, efficient, and transparent institutional mechanism for 
providing social services . . . It refines social service delivery 
approaches and empowers local communities to take charge of their local 
development. The SFD is generally considered one of the most effective 
branches of the Yemeni Government, in particular in the areas of 
community development, capacity-building and small and microenterprise 
development.'' (Emphasis mine). Yet the SFD is not a USAID/Yemen 
partner. When I was Ambassador the Embassy managed a nearly $50 million 
assistance program largely through technocratically led ministries and 
the SDF (there was no USAID mission). We were deeply impressed by the 
professionalism, talent, accountability, data collection and retrieval 
capabilities and rigor of the Fund and the young Yemenis who 
established and ran it (one of whom is now the Minister of Planning). 
The SFD is the sort of institution we should hope to create as a legacy 
of our assistance. Fortunately, we do not need to invent it; it already 
exists. It should be a full partner. If this requires modifications to 
USAID regulations, then we need to adjust and adapt ourselves to do so.
    Yemeni civil society is robust and active. Again, if capacity 
development is a goal, working through local NGOs is a mechanism. As a 
start, there is an umbrella organization of NGOs headed by or directed 
at women's issues that should be a full partner.
    Working through Yemeni partners may appear to some as less 
efficient than direct American implementation. It does require sharing 
of decisionmaking, priority setting and negotiations on timelines. 
However, in the long run, it allows us and the Yemenis to address a 
number of goals--capacity and delivery--simultaneously.
    As an example--when I was Ambassador we decided, in consultation 
with the Yemeni Government, to establish an interministerial, 
multidonor landmine eradication and rehabilitation program for one of 
the most landmine impacted countries in the world. There was enormous 
pressure from Washington to bring in American contractors to do the 
work. We opted instead to develop a Yemeni capacity. American trainers, 
equipment support and advice were needed for a few years in a train-
the-trainer program. When I left, there was an indigenous, virtually 
self-sustaining program that had already rendered Aden mine free.
2. Consistent Funding
    Neither the U.S. Government, the most committed Yemeni technocrat 
nor the most dedicated NGO can devise, design, plan, and implement a 
successful program without confirmed, consistent funding. USAID has a 
3-year strategy--and even that is not long term enough--but it is 
dependent upon annual congressional appropriations and administration 
funding priorities, the vagaries of other demands and of bilateral 
disputes. Programming should be set for a 3-to-5-year period, and full 
funding appropriated. We have been a very inconsistent partner.
3. Better USG coordination
    U.S. development assistance comes from a variety of sources--USAID, 
State (MEPI), DOD (CMES and MIST), Justice, Treasury, USTR, and 
Commerce, etc. USAID describes the relationship with DOD as ``must 
collaborate closely with DOD where feasible.'' Further, there is no 
formal partnership between MEPI and USAID/Yemen. There is an 
interagency team at Embassy Sana'a and efforts to coordinate at the 
Washington-level, but a stronger mandate should be given to the 
Ambassador as the President's representative to formally coordinate the 
various programs and efforts.
                  disaffected tribes in unsecure areas
    There are considerable obstacles to delivery of development 
assistance to disaffected tribes in unsecure areas. There are also 
considerable obstacles to a development assistance program that is 
structured through a prism of ``disaffected tribes'' and an assumption 
of ``unsecure areas.'' The current USAID strategy and efforts by other 
agencies tend to target ``high risk'' areas based on our core concerns 
rather than targeting areas based on need. A couple of downsides to 
this approach:

  <bullet> Most important, it defines Yemeni society as overly 
        ``tribal.'' These are settled, agricultural towns and villages 
        and their needs and priorities should be community based 
        (geographic) not tribally based (familial lineages). This is 
        not Anbar in Iraq.
  <bullet> It risks the appearance of rewards for bad behavior. 
        Decisions on projects should be based on need, not on how much 
        trouble you cause or threaten.
  <bullet> It risks the appearance of corruption. We are ``buying off'' 
        tribal leaders with the provision of projects.
  <bullet> It risks created other disaffected areas, or tribes, who are 
        not selected.
  <bullet> To the extent there is disaffection, and there is, it is 
        with the Yemeni Government's ability to provide services, the 
        USG providing for rather than providing through does not 
        address the question of citizens' views of their own 
        government's capacity or effectiveness.
  <bullet> Finally, the judgment on what is ``unsecure'' is overly 
        broad within the USG. USG personnel have been sequestered to 
        such an extent that it significantly and negatively effects 
        their ability to operate within the country, and thus to 
        understand and make independent judgments. The U.S. military is 
        not a suitable alternative. We are not at war with or in Yemen, 
        the Yemeni are not the enemy and we do not wish them to believe 
        that is how we see them, and to militarize development 
        assistance distorts the message. The most practical and 
        beneficial alternative is working through Yemeni partners and 
        NGOs.
          circumventing--or addressing--high level corruption
    Aid providers can circumvent, or at least mitigate, the high levels 
of corruption in the government.

  <bullet> First, neither we nor most donors provide checks to the 
        government. Assistance is program and project based.
  <bullet> Second, whatever the level or extent of corruption it is not 
        universal within the government. An Embassy and USAID mission 
        that works broadly within Yemen and closely with both Yemeni 
        partners and other donors will know who the credible partners 
        are, and who is not.
  <bullet> Third, one of our major objectives should be to work with 
        and help strength the various entities and agencies established 
        by the Yemeni Parliament, the Yemeni Government, and Yemeni 
        NGOs to address this problem. Corruption is perhaps the most 
        corrosive threat to state legitimacy in Yemen, and elsewhere. 
        It must be addressed, but its eradication is not a realistic 
        goal and the establishment of fully credible and effective 
        entities cannot be a precondition to assistance.
  <bullet> Press reports on high-level corruption by U.S. contractors 
        in Iraq and Afghanistan undermine overly moralistic rhetoric on 
        our part as does our willingness to work closely with elements 
        within the Yemeni military, reputed to be one of the most 
        corrupt elements of the Yemeni Government.

    Finally, I would note that corruption is a symptom of more than 
simple human greed. The Yemeni civil service is untrained and 
grotesquely underpaid. Even a Cabinet minister makes only about $300/
month. This neither excuses or justifies corruption at any level, and 
does not diminish its effects on government legitimacy. It does however 
underscore the need to work on the roots of the problem--capacity, 
professionalism, state revenues--as well as the mechanisms to forestall 
it, as is the goal of the reforms on contracting, criminalize it and 
prosecute it.
                                 ______
                                 

           Response of Emile Nakhleh to Question Submitted by
                      Senator Robert P. Casey, Jr.

    Question. Yemen's appeal to al-Qaeda is not limited to its location 
on the Arabian Peninsula. An education system whose textbooks still 
promulgate a degree of anti-American and anti-Israeli ideology produces 
young men vulnerable to al-Qaeda's exploitation, as does the country's 
35 percent unemployment rate. What do you recommend to address 
education reform in Yemen?

    Answer. Although unemployment and poverty, especially among the 
youth, create an environment conducive to radicalization, education--
especially at the grade school and secondary school levels--is the most 
critical agent that shapes and nurtures a narrow, intolerant, and 
exclusivist worldview among Yemeni students. We have seen similar 
school curricula and textbooks in other Arab and Muslim countries that 
are heavily grounded in a narrow interpretation of Islam and that 
promote a self-centered mindset. Of course, these curricula vary from 
one country to the next, with Saudi Arabia being the most conservative 
and Morocco the most tolerant.
    Addressing the education issue in Yemen requires us taking several 
steps simultaneously within the Muslim world engagement that President 
Obama announced in his Cairo speech June 6 of last year.
    1. Request that our USG experts obtain and analyze large samples of 
textbooks from Yemeni grade schools and secondary schools, especially 
in history, geography, social studies, and language arts. The purpose 
of the exercise is to see what's included in these textbooks about 
Israel, the ``Jews,'' Western colonialism and imperialism, U.S.-
perceived anti-Islamic policies, and the Israeli-Palestinian conflict 
and the ``suffering'' of the Palestinian people.
    2. Engage U.S. and Yemeni civil society groups and NGOs with 
expertise and interest in education, and working indirectly with the 
Yemeni Government, to review the curriculum and the textbook with an 
eye toward including more science, technology, and business modules in 
the curriculum. Do not/not engage in any discussions or debates on the 
theological or religious content of the curriculum. We should make it 
clear to the Yemenis that we are interested in reforming their 
curriculum as much as helping them develop a curriculum that will help 
their high school graduates compete in the job market of a 21st century 
globalized world.
    3. Urge the Yemeni Government to review the curricula of private/
religious schools with an eye toward making such curricula conform to 
the government education policy. It's important that the textbooks used 
in religious schools be similar to those used in public schools. If 
religious schools refuse to cooperate, the government should withdraw 
their licenses to operate.
    4. As part of engaging Muslim (and other religious) communities, 
our government should bring a number of grade school and high school 
teachers and principals to the United States to visit similar schools 
and teacher training centers. Such visitors would learn that modern and 
more tolerant education tends to produce a more competitive generation 
in the market place.
    5. Encourage Yemeni indigenous, legitimate, and credible civil 
society institutions in the field of education to start a public debate 
among Yemeni educators on the virtues of tolerant education and the 
benefits that such curriculum--whether in Morocco, Turkey, or 
Indonesia--offers to the youth.

                                  <all>

</pre></body></html>
